<html>
<title> - HUMAN RIGHTS IN CHINA IN THE CONTEXT OF THE RULE OF LAW</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





        HUMAN RIGHTS IN CHINA IN THE CONTEXT OF THE RULE OF LAW

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2002

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


78-790              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

MAX BAUCUS, Montana, Chairman        DOUG BEREUTER, Nebraska, Co-
CARL LEVIN, Michigan                 Chairman
DIANNE FEINSTEIN, California         JIM LEACH, Iowa
BYRON DORGAN, North Dakota           DAVID DREIER, California
EVAN BAYH, Indiana                   FRANK WOLF, Virginia
CHUCK HAGEL, Nebraska                JOE PITTS, Pennsylvania
BOB SMITH, New Hampshire             SANDER LEVIN, Michigan
SAM BROWNBACK, Kansas                MARCY KAPTUR, Ohio
TIM HUTCHINSON, Arkansas             NANCY PELOSI, California
                                     JIM DAVIS, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                D. CAMERON FINDLAY, Department of Labor
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State

                        Ira Wolf, Staff Director

                   John Foarde, Deputy Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Opening statement of Hon. Max Baucus, a U.S. Senator from Montana 
  and Chairman, Congressional-Executive Commission on China......     1
Opening statement of Hon. Doug Bereuter, a U.S. Representative 
  from Nebraska and Co-Chairman, Congressional-Executive 
  Commission on China............................................     5
Opening statement of Hon. Carl Levin, a U.S. Senator from 
  Michigan.......................................................     4
Qiang, Xiao, Executive Director, Human Rights in China...........     8
Jendrzejczyk, Mike, Washington Director, Human Rights Watch/Asia.    10
Feinerman, James V., James M. Morita Professor of Asian Legal 
  Studies; Associate Dean, International and Graduate Programs; 
  Director, Asian Law and Policy Studies, Georgetown University 
  Law Center.....................................................    13
Alford, William P., Henry L. Stimson Professor of Law and 
  Director of the East Asian Legal Studies Program, Harvard Law 
  School.........................................................    16
Opening statement of Hon. Sander Levin, a U.S. Representative 
  from Michigan..................................................    18

                                APPENDIX
                          Prepared Statements

Qiang, Xiao......................................................    42
Jendrzejczyk, Mike...............................................    45
Feinerman, James V...............................................    56
Alford, William P................................................    63

Baucus, Hon. Max.................................................    67
Bereuter, Hon. Doug..............................................    69
Levin, Hon. Carl.................................................    71
Levin, Hon. Sander...............................................    73
Kaptur, Hon. Marcy...............................................    74
Wolf, Hon. Frank R...............................................    75
Pitts, Hon. Joseph R.............................................    76
Feinstein, Hon. Dianne...........................................    77
Smith, Hon. Bob..................................................    78

                       Submissions for the Record

Article from the Washington Post, entitled ``Prison Labor: Can 
  U.S. Point Finger at China? American Inmates Manufacture 
  Products, but Trade Debate Centers on Beijing's Policies,'' by 
  Paul Blustein, dated June 3, 1997, submitted by Representative 
  Frank Wolf.....................................................    80
Prepared statement of Robert M. Hathaway, Director of the Asia 
  Program at the Woodrow Wilson International Center for Scholars    81
Prepared statement of Stanley Lubman, Visiting Scholar, Center 
  for Law and Society and Lecturer in Law, School of Law, 
  University of California (Berkeley)............................    85
Questions submitted for the record from Senator Bob Smith........    90
Responses of Mike Jendrzejczyk to questions from Senator Bob 
  Smith..........................................................    90
Responses of William P. Alford to questions from Senator Bob 
  Smith..........................................................    91

 
        HUMAN RIGHTS IN CHINA IN THE CONTEXT OF THE RULE OF LAW

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2002

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:45 p.m., 
in room SD-215, Dirksen Senate Office Building, Hon. Max Baucus 
(chairman of the Commission) presiding. Rep. Doug Bereuter (co-
chairman of the Commission) also presided.
    Also present: Senators Levin and Hagel; Representatives 
Kaptur, Pelosi, Levin, Davis, Dreier, Pitts, and Wolf; D. 
Cameron Findlay, U.S. Department of Labor; and Lorne Craner, 
U.S. Department of State.

   OPENING STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM 
 MONTANA, CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Baucus. The hearing will come to order.
    I am very honored and very pleased to have our first 
hearing today. It is, I think, going to make a difference--our 
commission. We are very enthused. We understand the challenges 
facing us, and we are anxious to meet these challenges. I thank 
all of you who are here participating with us. We are very, 
very grateful for your efforts.
    I also thank my co-chair, Congressman Doug Bereuter, who 
has been working very closely with me and with many of you, and 
my fellow commissioners for their presence. I am heartened by 
the number who are here today. We have a lot of work ahead of 
us as we prepare our first annual report to the President and 
to the Congress this June.
    Let me just give a few administrative announcements. Our 
next hearing will be on April 11 and we will discuss human 
rights and legal reform. Then we will hold a hearing on June 6 
on commercial rule of law and WTO [World Trade Organization] 
implementation.
    Later this month, we will begin a series of staff-led 
public issues roundtables. The first will be on the topic of 
reeducation through labor. The staff will also hold an open 
forum where anyone and everyone is welcome to present views on 
human rights and the rule of law.
    I also want to particularly thank my good friend, 
Congressman Sandy Levin. Congressman Levin and others worked 
hard, including Congresswomen Pelosi and Kaptur, to put this 
Commission together in conjunction with the PNTR [Permanent 
Normal Trade Relations] debate.
    I think it is going to serve us very well, and particularly 
will serve those in China who are suffering various 
indignations, incarcerations, and abuse of their human rights.
    Let me start by explaining the role of this Commission, and 
the role I hope we will play in United States-China relations.
    First, we in the United States cannot impose our will on 
China or on its 1.3 billion citizens. The decisions about what 
happens inside China can only be made by the Chinese people.
    Second, China is an emerging regional and international 
power. Our national interest requires intensive engagement. We 
must look at China through the lens of reality.
    China represents a significant challenge to the United 
States in many other areas, and it represents a significant 
opportunity in many areas. We need to look at the facts, 
analyze them objectively and dispassionately, and act in ways 
that support our National interest.
    Third, there are significant human rights abuses in China. 
In some areas, the situation is worse today than in the past. 
In other areas, there have been improvements. We will recognize 
the latter and be critical of the former.
    Fourth, there cannot be sustained protection of human 
rights without the rule of law. Many Members of Congress, as 
well as recent administrations, have been active in securing 
the release or reduction of sentences for individual prisoners 
of conscience in China. I expect that to continue, as it 
should.
    However, this Commission will look at human rights within 
the context of the rule of law in China. We may address 
individual cases, but only when there is likely to be a 
broader, systemic, and structural impact in China.
    The witnesses appearing today reflect that orientation: 
Human Rights Watch and Human Rights in China have done 
excellent work looking at the legal and political context in 
China within which human rights can be protected. Professors 
Feinerman and Alford have focused much of their work on the 
rule of law in legal reform in China.
    The United States-China relationship today is different 
than a year ago. There has been a change in the bilateral 
relationship. Beijing is cooperating with us on the war against 
terrorism. China's rhetoric over Taiwan has ameliorated 
somewhat. China has joined the WTO.
    But serious problems remain between us in a number of 
areas: Arms proliferation, human rights, and significant 
differences over Taiwan.
    This Commission will concentrate on the human rights aspect 
of our relationship, with a focus on the rule of law in China. 
We will look closely at areas such as religious freedom, 
political prisoners, Tibet, ethnic minorities, labor rights, 
and the flow of information in China.
    We will examine the developing role of NGOs [Non-
governmental organizations] in China. We will look, especially, 
at developments in the rule of law. This includes legal reform 
in the civil, criminal, and commercial areas, and the way in 
which these laws are or are not being implemented.
    We will look at how the United States can pursue policies 
and programs that will increase the respect for law in China, 
and how we can strengthen those in China who are working to 
increase the transparency and objectivity of the legal system.
    China is not a monolith. There are many inside the Chinese 
Government, the Chinese party, and state-owned enterprises who 
are working desperately to maintain the status quo. But there 
are also many in China who want to see genuine reform, both 
economic and political.
    They recognize that, for China to become a great nation and 
fully join the international community, China will have to 
follow international standards in the human rights area.
    They must meet the obligations the government has made in 
international covenants covering political, economic, social, 
cultural, and civil rights. They will have to honor those 
provisions in the Chinese constitution and in Chinese law that 
claim to protect the individual from abuse by the state.
    As I said earlier, decisions about what happens inside 
China can only be made by the Chinese themselves. The question 
for this Commission, for the Congress, and the administration, 
is how can we best assist those who seek reform?
    Incorporating China into the WTO is surely one way to begin 
down the road of significant commercial law reform. We will not 
shrink from pointing out the ways in which the Chinese system 
is falling short of meeting those standards.
    But the major challenge for the Commission is, how can we 
contribute to an improvement in the human rights of Chinese 
citizens, and how can we influence the structural change 
necessary to improve how those citizens are treated?
    In our hearings, we want to hear from groups and 
individuals who can add to our knowledge and understanding. We 
also want to hear from them about the ways that this Commission 
can help promote and support positive, constructive, and 
lasting change in China.
    Let me address some remarks to the Chinese Government. When 
the House approved the PNTR legislation, the Chinese Government 
said that it was a wise decision. But their spokesman went on 
to say, ``The Chinese side is seriously concerned and 
dissatisfied that the bill contains provisions that attempt to 
interfere in China's internal affairs, in various names like 
human rights, and harm the interest of China. The Chinese side 
has announced in explicit terms that it firmly opposes and 
cannot accept these provisions.''
    I have two comments about that statement. First, this 
Commission is an instrument of the U.S. Government. We will 
vigorously pursue our mandate to consider the issues of human 
rights and the rule of law in China. We do not seek to impose 
American standards on China, but there are numerous 
international covenants relating to human rights that China has 
entered.
    The Chinese constitution and Chinese laws include many 
written guarantees for the citizens of China. For China to be a 
full and responsible member of the international community, and 
that includes the global trading system and the rule of law, 
that must be honored. This is an issue of concern and interest 
to all nations interacting with China.
    We will work with China when we can. We will acknowledge 
progress when we see it. We will criticize when there is no 
progress. I firmly believe that there are many in China who 
agree with this approach: Government officials, business 
people, and ordinary citizens.
    Second, I urge the Chinese authorities to work with this 
Commission. I spent a decade fighting against conditions on our 
trading relationship with China. Along with others on this 
Commission, I fought hard for PNTR. I believed that engagement 
and deepening the relationship between our two nations was the 
best way to induce change in China and bring them fully into 
the community of nations. It is in China's long-term interest 
now to work closely with us.
    Let me conclude with a few comments about the 
administration's human rights policy. President Bush met with 
Chinese President Jiang Zemin in Shanghai in October. The 
President discussed the importance of religious freedom. He 
made a strong statement that the war on terrorism should not be 
used to justify a crack- down on minority groups in China.
    Under the leadership of Assistant Secretary of State Lorne 
Craner, a member of this Commission, the United States has 
reengaged China in a bilateral human rights dialogue.
    President Bush will visit Beijing February 21-22, and again 
meet with senior Chinese leaders. I urge him to ensure that 
human rights and the rule of law issue are among his top 
priorities in those discussions.
    Let me now turn to my co-chairman, Congressman Bereuter, 
for his statement as we initiate the work of the Congressional-
Executive Commission on China.
    I also very much appreciate the deep involvement of other 
members of this Commission. After Congressman Bereuter makes 
his statement, I will introduce the witnesses. Frankly, I know 
a lot of the members of the Commission would like to make 
opening statements, but for us to get down to our work, I think 
it is better that we hear from our witnesses. That gives us 
more time to engage our panel, looking for a more constructive 
and efficient process.
    So, Congressman Bereuter.
    [The prepared statement of Senator Baucus appears in the 
appendix.]
    Congressman Bereuter. I yield.

   OPENING STATEMENT OF HON. CARL LEVIN, A U.S. SENATOR FROM 
                            MICHIGAN

    Senator Levin. I have a statement that I will make a part 
of the record, Mr. Chairman. I just wanted to congratulate you 
and our vice chairman, and my brother, Sandy Levin, 
particularly, if I can single him out, for this very visionary 
approach to changing, hopefully, China's human rights record.
    I have a statement, though, if it is all right, that can be 
made part of the record.
    Chairman Baucus. Thank you, Senator, very much. We very 
much appreciate having both you and your brother as members.
    [The prepared statement of Senator Levin appears in the 
appendix.]

OPENING STATEMENT OF HON. DOUG BEREUTER, A U.S. REPRESENTATIVE 
FROM NEBRASKA, CO-CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION 
                            ON CHINA

    Representative Bereuter. Chairman Baucus, Senator Hagel, 
Congressman Levin, fellow commissioners, distinguished 
panelists, ladies and gentlemen, I would like to introduce a 
few Executive Branch members who are here today: Cameron 
Findlay, the Deputy Secretary of Labor, and Lorne Craner, the 
Assistant Secretary of State for Democracy, Human Rights, and 
Labor.
    I consider it a privilege to join you, Senator Baucus, in 
convening this first formal meeting of the Congressional-
Executive Commission on the People's Republic of China.
    I am particularly pleased to recognize the presence of my 
colleague and fellow commissioner, the distinguished gentleman 
from Michigan, Sandy Levin, who deserves great credit for being 
a leading intellectual godfather of this Commission who has 
worked tirelessly with me, Senator Baucus, and others to see it 
come into being.
    I look forward to our continuing association as Commission 
members, all of us, in fostering the work of the Commission 
over the next years.
    Senator Baucus has noted that the Commission was created by 
the China Relations Act of 2000 to create a forum for 
continuing Congressional involvement in monitoring China's 
human rights practices and the development of the rule of law.
    The Commission's mandate reflects continuing concerns in 
both Houses of Congress and among members of both political 
parties, not only about the individual instances of human 
rights abuses in China, but also about the need for encouraging 
systemic changes in China to end such practices.
    Undoubtedly, all on the Commission share the goal of 
encouraging positive changes in Chinese Government policy and 
practice that will help those who have been punished unjustly 
for seeking to exercise basic human rights, prevent future 
abuses, and bring China's human rights practices into 
conformity with international standards.
    There are differences in the international community, and 
undoubtedly in Congress, as to the best methods for achieving 
this goal. But I believe there is a broad consensus in Congress 
and America on the importance of the goal itself.
    In this context, I think that the Commission should 
concentrate primarily on systemic changes to China's human 
rights practices and legal regime and neither to concentrate, 
primarily at least, nor to duplicate primarily the important 
advocacy work on individual cases already being done by 
individual Members of Congress, human rights NGOs, and 
concerned members of the public.
    Of course, the registry of victims of human rights abuses 
that our mandate requires will provide an important resource 
for such advocacy, so the Commission will have a crucial role 
to play in this work.
    In my view, the human rights and rule of law parts of this 
Commission's mandate are intimately related. Virtually everyone 
in China, the United States, and elsewhere who is concerned 
with human rights practices in China believes that progress in 
legal reform will necessarily result in greater compliance with 
the basic human rights enshrined in such international 
covenants as the Universal Declaration of Human Rights.
    Many also believe that such reforms will improve not only 
government transparency, but also the development of the 
essential institutions of democratic governance. The 
development of an open, transparent, and predictable legal 
system throughout China should also be beneficial over time in 
other ways, such as providing ordinary Chinese citizens with 
the legal means to check the arbitrary exercise of official 
power, as well as helping to ensure China's full implementation 
of its commitments under the World Trade Organization protocol 
of accession.
    Before we hear from our outstanding panel, I would like to 
offer some thoughts on four aspects of our Commission's work 
that I think will be of continuing importance to us.
    These aspects are: (1) the Commission as a forum, for a 
balanced, constructive focus on human rights issues in China; 
(2) the Commission as a catalyst for United States efforts to 
support the development of rule of law in China; (3) the 
Commission's development of a registry of victims of human 
rights abuses; and (4) the Commission as a resource for 
Senators, Members of the House, and their respective staffs, 
United States-China specialists, and the general public.
    With respect to the Commission's mandate on human rights, I 
believe it will be vital for us to undertake a comprehensive, 
objective look at the current state of Chinese Government 
compliance or noncompliance with international human rights 
norms.
    Following the sensible requirements of our legislative 
mandate, Commission staff should receive information and 
perspectives from human rights, labor, and religious freedom 
NGOs in the United States and elsewhere.
    We should also build on the work of relevant United States 
Government agencies, including those who are represented by our 
five commissioners from the Executive Branch, and from sources 
in China, Hong Kong, and elsewhere.
    This undertaking is a big job, but one made considerably 
easier by the importance of the work of many people in the U.S. 
Government, U.S. universities and think tanks, and U.S. and 
international human rights NGOs.
    With this factual framework in place, we can then assess 
whether to recommend specific actions by Congress or the 
administration in our annual report. Of course, we cannot wait 
for all the facts to be before us. This is not an excuse for 
delay.
    Second, I believe it is important that the Commission act 
as a catalyst for encouraging and supporting United States and 
multilateral efforts to build legal institutions in China.
    I hope that the Chinese Government will accept and welcome 
United States initiatives to help train judges and lawyers, 
inculcate a culture of transparency in the legislative and 
regulatory processes, and to improve Chinese efforts to extend 
legal services to ordinary Chinese people, focusing 
particularly on the poor, women, and people in rural areas.
    Since the Chinese leadership embarked on the reform and 
opening up policy of the 1970's, a number of Americans, among 
whom two of our panelists are the most distinguished, have 
participated in successful legal exchange and legal cooperation 
initiatives with their counterparts in China.
    But the U.S. Government has never had its own directly 
funded program to complement these private efforts, and I 
believe the time has come for us to take a hard look at such a 
program.
    The Commission should determine in which areas additional 
United States public investment in rule of law programs in 
China might add value to existing private efforts, or might 
permit new initiatives in areas previously untouched by United 
States efforts.
    The overall goal, I think, should be to produce significant 
long-term results on the ground in China without wasteful 
duplication of previous or existing initiatives.
    An understanding by the Commission, Congress, and our 
Government of the rule of law programs that other countries 
currently have in China will be an important part of this 
effort to avoid duplication and to maximize the effectiveness 
of United States rule of law programs.
    Although many in the United States are interested in 
commercial rule of law programs, particularly as they relate to 
building the capacity of the WTO implementation and compliance, 
any U.S.-funded rule of law program should focus, I believe, 
more broadly on civil, criminal, and administrative law reform.
    We should also welcome, encourage, and support initiatives 
to improve the transparency of the legislative and regulatory 
process in China.
    Third, I believe that the establishment and maintenance of 
a useful, factually accurate, up-to-date registry of prisoners 
of conscience and other victims of human rights abuses will be 
a vital part of the Commission's work. Successful achievement 
of this task will be a complex and difficult undertaking, no 
doubt.
    My hope is that, over time, this registry will be a useful 
resource for Members of Congress and staff, researchers, the 
press, and the general public.
    Fortunately, individuals and organizations with experience 
in collecting, storing, and using such information have offered 
already to cooperate with the Commission. In addition, I think 
that recent advances in information technology will help 
Commission staff in meeting this important aspect of our 
mandate.
    Fourth, and finally, as we progress in staffing the 
Commission and gathering information on the specific issues in 
the mandate, I hope the Commission would earn the confidence of 
Members of Congress and their staffs as a resource for timely, 
objective information about China, generally. Naturally, our 
focus and expertise will be principally with respect to the 
specific areas of human rights and the rule of law. But we 
expect to staff the Commission with qualified staff possessing 
broad experience in China.
    I hope that the Commission could assist Members of Congress 
and staff who plan to travel to China to prepare for their 
visits, particularly to become familiar with human rights and 
rule of law issues.
    The registry should provide the type of information that 
would permit Members of Congress to raise and discuss the cases 
of specific individuals during official meetings in China.
    Mr. Chairman, we have a distinguished panel this afternoon 
to share their views with us. I am honored to be with my 
colleagues on the Commission. I would like to express my 
appreciation for the appearance of our witnesses today. Each 
has dedicated a significant part of his professional life to 
one or more of the issues that are directly in our mandate. We 
know we will hear lively, informative, and thoughtful 
presentations.
    Thank you, Mr. Chairman.
    [The prepared statement of Representative Bereuter appears 
in the appendix.]
    Chairman Baucus. Thank you very much, Congressman Bereuter.
    Now, let us get to the heart of the matter. We have four 
very distinguished people here to get us started. Would you all 
four please come up to the table? I will introduce you, then we 
will get started.
    First, Xiao Qiang, who is Executive Director of Human 
Rights in China. He is a physicist. He was working on a Ph.D. 
at Notre Dame at the time of Tiananmen. He immediately returned 
to China to bring contributions to victims' families, and he 
came back to the United States a couple of months later and 
began working as a full-time human rights activist. Last year, 
he won a MacArthur Foundation Genius Award.
    Next, is Mike Jendrzejczyk, Washington Director of Human 
Rights Watch/Asia. Mike was a Congressional staffer and worked 
for Amnesty International, and joined Human Rights Watch in 
1990. He is a very well-respected and responsible person.
    Mr. Jendrzejczyk. I was not a member of a Congressional 
staff. I have to correct that for the record.
    Chairman Baucus. Oh. I am sorry. All right. We will get 
that correct.
    Professor William Alford of Harvard Law School, Director of 
East Asian Legal Studies Program at Harvard. His expertise 
includes China, trade, technology transfer, IPR [Intellectual 
Property Rights], human rights, legal development, and legal 
history.
    As well, Professor James Feinerman of Georgetown, who is 
Associate Dean and Director of Asian Law and Policy Studies at 
the Georgetown University Law Center. He has practiced law, and 
studied and taught law in China.
    Let us begin with Xiao Qiang.

 STATEMENT OF XIAO QIANG, EXECUTIVE DIRECTOR, HUMAN RIGHTS IN 
                             CHINA

    Mr. Xiao. Thank you, Chairman Baucus and Congressman 
Bereuter, and distinguished members. It is a privilege to speak 
here.
    Thank you for providing this public forum for independent 
Chinese NGOs on human rights issues in China.
    I want to say, the Congressional Executive Commission can 
play a key role and ensure the human rights concerns on the 
table. I firmly believe that the Chinese and American people 
share important values and aspirations of human dignity and 
freedom. Both nations are facing great challenges and 
responsibilities for promoting human rights, ensuring the 
domestic and global peace, and encouraging development.
    For today's hearing, I would like to make four points about 
the human rights situation in China in the context of the rule 
of law.
    The first point: There is a crucial distinction between 
rule of law and the rule by law, which is the Chinese 
leadership's slogan called ``Yifa Zhiguo,'' meaning, ruling the 
country by law.
    However, when there is no real democratic and 
representative legislative process and no judiciary independent 
from a party and a state, law often becomes a tool that 
suppresses, rather than protects, the fundamental rights of the 
Chinese people.
    The most clear example, is in the Chinese criminal code 
there is endangering state security. But, too often, this law 
is often used to crack down on peaceful political activism, 
Falun Gong practitioners, labor organizers, as well as peaceful 
advocates for Tibet and Xinjiang self-determination.
    I just want to mention one example. Political activists of 
the China Democracy Party have been given heavy sentences under 
the state security law, Xu Wenli, Qing Yongmin, and Wang 
Youcai, were sentenced to 13, 12, and 11 years, respectively in 
1998.
    My second point: There is institutionalized discrimination, 
a system called hukou system, against the rural residents, 
migrants, and ethnic minorities in China. Altogether, those 
three overlapping groups are the vast majority of the PRC's 
[People's Republic of China] population. There are about 800 
million rural residents, somewhere between 40 million and 120 
million migrants, and for ethnic minorities, there are about 
106 million.
    Under the hukou system, a system has been created that 
gives urban populations privileged access to education, 
housing, economic opportunities, and political participation. 
This hukou system does violate the rights of rural residents 
and migrants to equal enjoyment of the exercise of their human 
rights and fundamental freedoms.
    My third point: There is a persistent gap between law on 
the books and the law in practice. That is, there is 
ineffective implementation and a lack of accountability.
    Pardons of rights violations show impunity and lack of 
accountability, a principal cause of human rights abuses in 
China. Mechanisms to hold officials accountable are deficient 
or non-existent. Control of freedom of expression and 
association make it very difficult for the Chinese people to 
expose those abuses by officials or to achieve accountability.
    The two most clear examples are in the criminal procedure 
law implementation and on the issue of accountability of the 
June 4 massacre in 1989.
    On the criminal procedure law situation, Human Rights in 
China has published a report to point out the Chinese Communist 
Party's control of the judiciary, the pre-trial detention, use 
of illegal evidence, discriminatory application of the law, 
and, most importantly, those laws have been violated outright, 
without authors of violations suffering any consequences. After 
the Tiananmen massacre we know that, until now, the victims' 
voices are not being heard and the crime is not being 
investigated.
    In sum, my last point is, there is an arbitrary nature to 
the system. What I want to say is, there has been a great deal 
of attention, domestically and internationally, to the 
professed effort toward legal reform in China.
    However, the improvement of the legal system cannot ignore 
the conditions in the wide range of punishment institutions 
that operate outside of the legal system and in which large 
numbers of people are incarcerated.
    By this, I particularly mean two systems. One, is custody 
and repatriation centers, which annually hold about 1.7 million 
people. They are called undesirables of all types, including 
women and children, detained without trial, occasionally for 
the period as long as a year or more.
    Another system, is the reeducation through labor system. It 
is an administrative detention system. Public security 
personnel can sentence anybody up to 3 years, and there are 
about a quarter of a million of the Chinese people in this 
system every year.
    Given the vast scale of those human rights violations in 
the context of rule of law, Human Rights in China would like to 
particularly make the following recommendations to the 
Commission.
    First, is we urge the Commission to put a high priority on 
the Chinese political prisoners of conscience and, for 
President Bush's upcoming visit to China, to urge the 
significant release of those political prisoners.
    The second point, is to monitor the protection of freedom 
of expression and information in China. We urge the Commission 
to pay particular attention to the increasingly restrictive 
internet regulations and surveillance by Chinese authorities, 
especially as these regulations interface with China's WTO 
accession obligations.
    Finally, we urge the Commission to monitor and report 
benchmarks of human rights compliance and rule of law 
developments over the next 7 years leading up to the Beijing 
Olympics, 2008.
    Thank you, Mr. Chairman.
    Chairman Baucus. Thank you very much. I particularly like 
your listing your four points. It makes it easier to 
understand.
    Mr. Jendrzejczyk.
    [The prepared statement of Mr. Xiao appears in the 
appendix.]

  STATEMENT OF MIKE JENDRZEJCZYK, WASHINGTON DIRECTOR, HUMAN 
                       RIGHTS WATCH/ASIA

    Mr. Jendrzejczyk. Thank you, Senator Baucus.
    I want to thank you all for inviting Human Rights Watch to 
testify at this first hearing of this important commission, 
exactly 2 weeks before President Bush is due to visit Beijing 
on his first official visit to China's capital.
    I would like to use my oral remarks to very briefly 
summarize some very specific recommendations we would like to 
make, both for the work of the Commission and for United States 
policy toward China, generally.
    I realize that, as the Chair and the co-chair of the 
Commission have just explained, that the mandate of the 
Commission is extremely wide and very heavily based and rooted 
in international standards.
    But I do think, to have maximum impact, especially this 
first year of the Commission's operation, it is important to 
strategically focus the Commission's efforts.
    I would suggest three areas to focus on. First, the release 
of political and religious prisoners. I think this is crucial 
and must be fundamental to the Commission's work.
    Second, encouraging greater cooperation by China with the 
U.N. human rights mechanisms, that is, the working groups, 
rapporteurs, and others.
    Finally, to encourage increased access to China by 
independent U.N. and other human rights monitors. I do agree 
with my colleague Xiao Qiang that there are other issues that 
should be on your agenda: For example, free expression on the 
internet. I would suggest this be the subject of a hearing, in 
fact, sometime this year.
    And, yes, definitely, how to use the Olympics in the year 
2008 in a creative way to press for constructive human rights 
improvements.
    I also encourage you to release the report, Mr. Bereuter, 
that you mentioned, as soon as possible, even spelling out, 
just in a skeletal way, the Commission's main concerns and some 
initial policy recommendations. We realize the report was 
initially due last October and for various reasons was delayed. 
But I think, given all of the issues on the agenda this year, 
it is most important to get that report out as quickly as 
possible.
    Finally, a recommendation that a number of NGOs have made 
in previous correspondence with the Commission. I think it is 
important to get at least one professional research staff 
posted in the American embassy in Beijing. This is something we 
have discussed informally with the current ambassador, Clark 
Randt. I think it is very important to have someone there on 
the ground in China that can assist in the information 
gathering and research of the professional staff based here in 
Washington.
    Returning to President Bush's trip in a couple of weeks' 
time, I think this is a very important opportunity, not only to 
cement greater improvements in United States-China relations, 
but more importantly, to communicate to the Chinese Government 
the singular importance of human rights in the United States-
China relationship.
    The fact that an important Tibetan prisoner, Ngawang 
Choepel, who was serving an 18-year prison sentence for 
espionage, was just released recently, I think demonstrates 
that China recognizes it is in their interests to make at least 
some limited steps for improvements in human rights, 
recognizing that Ngawang Choepel's case was not only on the 
Bush and Clinton administrations' agenda, but was the subject 
of intense lobbying and other kinds of activity by Members of 
Congress. This is, I think, an important role for the 
Commission, to engage in both public and private diplomacy on 
cases such as this.
    I would urge some Commission members--and I recognize 
travel opportunities are limited, the ability to leave 
Washington for a long trip to Asia is limited--to offer to 
travel with the President to Beijing. I think this is such an 
important opportunity, one, to engage in your own bilateral 
discussions with key ministries; two, to explain the work of 
the Commission to the Chinese leadership; and three, perhaps to 
begin discussions with the National People's Congress [NPC] on 
possible exchanges and discussions, especially on rule of law 
concerns, between Members of Congress, this Commission, and 
members of the NPC.
    So, I would urge you strongly to change your calendar, 
adjust your schedules if at all possible, but try to get at 
least two or three members of this Commission to travel with 
the President in a couple of weeks.
    In the interim, I think it is important for the Commission 
as a whole, or perhaps individual members, to address in 
correspondence and in other ways your specific concerns about 
human rights, both to the White House and to the Chinese 
leadership.
    We know--and I mentioned Ngawang Choepel just as one 
example--that the active interest of Members of Congress 
greatly increases the leverage of the State Department and our 
embassy on the ground. I would encourage you to use the 
President's trip as an opportunity to do so.
    Second, a very important policy discussion, which I have 
discussed with Secretary Craner and I know is under discussion 
here in Washington, and will be under discussion in the coming 
weeks, is what to do about this year's meeting of the U.N. 
Human Rights Commission in Geneva. It convenes on March 18.
    The United States does not have a seat this year, but that 
does not prevent the United States from actively suggesting, 
promoting, and lobbying for a resolution on China.
     I think it is crucial, in fact, to remain active in 
holding China accountable in this highest U.N. body charged 
with monitoring the compliance and the human rights record of 
all members of the international community.
    Again, I would urge the Commission, first, to encourage the 
Executive Branch to begin to find such a sponsor on the 
Commission this year, and second, if a resolution is 
introduced, for individual Members of Congress to become 
actively engaged in lobbying other countries to support this 
resolution.
    My last recommendation has to do with labor rights. This 
often, unfortunately, falls to the bottom of the agenda and I 
do not think it gets the kind of attention that it merits.
    Given China's membership in the WTO, the increasing 
economic dislocation that the further closing of state-run 
enterprises will inevitably entail, there is growing concern 
about unrest in China, rural and urban unrest, which has 
already begun to escalate.
    The Chinese Labor Minister was here in March 1999, and 
offered an invitation to the United States Labor Secretary to 
visit China to talk about social safety net programs, pension 
schemes, job retraining programs. But such a visit would also 
provide an opportunity to address core labor standards, 
International Labor Organization [ILO] standards, especially 
key standards such as the right of free association.
    I would encourage the Commission to become active in this 
area by encouraging the current United States Labor Secretary, 
Elaine Chao, to try to visit China this year. Believe it or 
not, this would be the first visit ever to China by an American 
Labor Secretary.
    Second, to encourage China to invite the ILO to send a 
direct contact mission, as they have offered, to look 
specifically at the issues of the rights of free association 
and ways of amending Chinese labor law and practices to bring 
them into conformity with ILO standards.
    Thank you.
    [The prepared statement of Mr. Jendrzejczyk appears in the 
appendix.]
    Chairman Baucus. Thank you very much. That was very 
helpful. I particularly urge members of this Commission to look 
at the suggestion to join the President on his trip to China.
    All of us have been to China many times and in various 
capacities. I know that the one time I accompanied President 
Clinton, I learned a lot. It was very, very helpful. I 
particularly appreciate that, and your other recommendations.
    I must leave now. There is a vote. But I will come back. 
Chairman Bereuter will continue. However, I have to give my 
apology to Mr. Xiao. Unfortunately, your little sign up there 
says Mr. Qiang, it does not say Mr. Xiao, and I very much 
apologize.
    Mr. Xiao. I am used to that.
    Chairman Baucus. I am sure you are.
    Representative Bereuter [presiding]. Professor Feinerman, 
we would like to hear from you. Professor Feinerman is from 
Georgetown University Law Center. You may proceed as you wish.

 STATEMENT OF JAMES V. FEINERMAN, JAMES M. MORITA PROFESSOR OF 
ASIAN LEGAL STUDIES; ASSOCIATE DEAN, INTERNATIONAL AND GRADUATE 
 PROGRAMS; DIRECTOR, ASIAN LAW AND POLICY STUDIES, GEORGETOWN 
                     UNIVERSITY LAW CENTER

    Mr. Feinerman. Thank you, Mr. Chairman. I want to thank you 
and members of the Commission for holding these timely hearings 
and for providing an opportunity to present our views to you 
and share the information that we have gathered in our 
respective professional capacities.
    I would also like to say that I am summarizing remarks that 
I have made in a longer written statement, as have the other 
witnesses.
    I was asked to particularly address some rule of law-
related issues that deal with China's accession recently to the 
WTO. I will try to focus on that.
    But, in considering that situation, I want to start by 
saying that with respect to the rule of law, at least up to the 
point of WTO accession, there are three major points that we 
need to keep in mind as we think about how we will proceed in 
the future.
    First, is that there has been, and continues to be, 
considerable legalization of the People's Republic of China 
which has been under way now for two decades. It is incomplete, 
it is problematic in some respects, but it is worth noting that 
this process will go on whether or not the United States 
chooses to participate in the future development of the 
process. I hope we do, as I will say in a few moments.
    Second, the PRC has already experienced some considerable 
law reforms which have made important contributions to the 
economy. This is important in connection with the WTO 
accession. But there are other commitments which have political 
ramifications, and they are not necessarily connected to the 
WTO or economic matters more generally, and we need to keep 
them in mind as we think about comprehensive development of the 
legal system in China.
    Third, despite this legalization and law reform that has 
now extended for over 20 years, there is still, unfortunately, 
a great deal that has not changed in China with respect to the 
rule of law, civil rights, political liberties, and the 
meaningful enjoyment of freedoms that we take for granted in 
this country and other developed nations.
    But this patchy liberalization that has taken place has at 
least brought a modicum of political and legal change, and 
economic development, which I think lays an important 
groundwork.
    I have said in previous testimony to other committees in 
Congress in earlier years, that I think it was the case 4 or 5 
years ago--and I think it is even more the case now--that more 
people in China today enjoy more political and civil rights 
than they have at any time in China history.
    It is still not enough, and there are important groups that 
are not enjoying these overall effects that reach to most 
members of Chinese society. But that is an important thing to 
know.
    We may want to try to push for a faster pace, faster than 
the Communist Party leadership in China might enjoy, but 
nonetheless we need to see where things stand currently.
    I mentioned in my testimony a couple of areas that I think 
will demonstrate the partial success and the remaining problems 
of China's long, slow march toward the rule of law.
    Here, I would just mention them in order and refer you to 
my written testimony: In areas like enterprise reform, where 
there has been a partial privatization of the Chinese economy, 
but many problems, including some that have already been 
mentioned this afternoon with regard to issues such as labor 
rights, such as the treatment of redundant workers in the 
modernization of the Chinese economy.
    With regard to national and local leadership, there have 
been major reforms in many areas that make institutions that 
were previously virtually useless and bypassed usually by 
Communist Party authority much more important as we look at the 
future development. Especially, here, I would note things in 
the State Council, the administrative organs of the Chinese 
Government.
    Third, there have been important developments with respect 
to corruption. Now, this is a problem that is beginning to be 
investigated by the Chinese authorities themselves. They 
understand that their political legitimacy depends on a belief 
on the part of those that they rule that the government is 
generally honest and uncorrupt.
    Still, there is a tendency to scapegoat a few high-profile 
cases and not address some of the root causes of corruption, 
but this is an area where our experience may prove to be 
somewhat instructive and helpful.
    In the legal profession there has been an important 
development, especially in terms of the numbers. My colleague, 
Professor Alford, has written extensively and insightfully 
about the problematic developments in this realm.
    But China went from having fewer than 3,000 lawyers 20 
years ago to having over 100,000 lawyers there today. Here in 
Washington we may not necessarily see that as a positive 
development in every respect, but I think it means that people 
who do want to assert legal rights, at least, have someone 
available to help them do it.
    Finally, appropriately, here in Congress I would mention 
that the National People's Congress itself has been undergoing 
a process of reform and there are now individuals and organs, 
including committees, that are trying to learn from the 
experience of developed legislatures around the world how to be 
more serious in their legislative work. This is obviously 
important.
    I just want to mention two points about WTO accession 
before I conclude. As part of the protocol of accession to the 
WTO, China has made many important commitments to both reform 
its laws and to make basic changes in its legal system.
    At the first level, these mainly involve things like 
passing certain laws that are necessary to comply with specific 
WTO requirements. Some of those have already been passed, other 
legislative reforms are under way. But that is just the first 
step.
    On a second, deeper level, they have promised to adopt 
basic principles of WTO jurisprudence that most member 
countries already have, things like transparency of the 
regulatory regime, creation of impartial tribunals to hear WTO-
related complaints and trade disputes. That will, I think, 
develop apace.
    But on the third, deepest level, there are still some 
important choices that have to be made and bridges that the 
Chinese leadership, I think, has not yet crossed with respect 
to not only the WTO commitments, but the kind of rule of law 
that would really make it possible to honor the notion that 
would require structural changes that would transform the most 
basic features of not only Chinese law and legal culture, but I 
think Chinese culture, more generally.
    The experience of other, former developing countries in the 
Asian region, such as South Korea and Taiwan, shows that this 
can happen over a period of time, but it also shows that it may 
take time.
    It may take several decades, as happened there. The good 
news is, it has been under way in China for at least a couple 
of decades, so maybe we only have one or two more to go.
    The challenges with respect to implementation, though, are 
legion. I outlined some of them in my written testimony. The 
report of the Working Party on Accession runs to 70 single-
spaced pages of rather dense, legalistic prose. I commend it to 
you, but it gives you some sense of the scope of what China has 
to do next.
    I would just like to close by making a pitch for something. 
I was gratified to hear in Congressman Bereuter's remarks 
opening the session today that there may be a commitment to 
more involvement on the part of the United States with respect 
to legal and other kinds of educational and cultural exchanges.
    It is actually the case that the State Department and other 
Federal agencies that are involved in this today provide less 
support for bilateral exchanges with China than they did 10 
years ago. That, I think, is a shocking fact.
    We devote less than 1/40th of the amount that is targeted 
in the United States Federal budget for aid to Central and 
Eastern Europe and the former Soviet Union and the newly-
independent states to academic and cultural exchange with 
China. That is overall, not just focused on law.
    Given the equal strategic importance of China and its 
vastly larger population, I think that this is short-sided and 
parsimonious on our part. I would note that, in the developed 
world, the European Union and Canada, for example, have major 
initiatives with respect to rule of law and law reform, not 
simply focused on the WTO, but broader.
    I think, in conclusion, the development of the rule of law 
in the future in China is going to prove to be checkered, as it 
has been in the past two decades. China has made enormous 
strides since the 1970's, but in many areas it obviously has 
quite a long way to go.
    I think that China has tried to make a kind of devil's 
bargain with respect to modernization. It wants to have a 
modern rule of law while it retains what they call ``Chinese 
socialist characteristics.'' The situation is likely to 
persist, at least for the foreseeable future.
    WTO accession, however, provides a unique opportunity to 
push the envelope and maybe hasten the pace of incremental 
change with respect to China's participation in the 
international economy, but in other, more basic legal areas as 
well. I think, with our eyes fully open, we should seize the 
opportunities that this historic era provides us.
    Thank you.
    [The prepared statement of Professor Feinerman appears in 
the appendix.]
    Representative Bereuter. Thank you very much.
    Next, we would like to hear from Professor William P. 
Alford, the director of the East Asian Legal Studies Program at 
Harvard Law School. You may proceed as you wish, Professor.

 STATEMENT OF WILLIAM P. ALFORD, HENRY L. STIMSON PROFESSOR OF 
   LAW AND DIRECTOR OF THE EAST ASIAN LEGAL STUDIES PROGRAM, 
                       HARVARD LAW SCHOOL

    Mr. Alford. Thank you very much. It is truly a privilege to 
appear before this important commission.
    I start from the proposition that the two principal areas 
that this Commission is charged with overseeing, human rights 
and rule of law, are inextricably interwoven.
    China needs to continue to develop legally for its citizens 
to have the means to vindicate their rights, but legal 
development insufficiently attentive to human rights will not 
enjoy credibility with the people of China, or with us.
    Over the last quarter century the PRC has engaged in the 
most extensive program of legal construction in the history of 
the world. Considering that a generation ago there essentially 
was no legal system in China, a fair amount has been 
accomplished.
    Today, as you know, China has an extensive body of 
legislation, especially in the economic area, and a nationwide 
judiciary and surfeit of lawyers, as Professor Feinerman 
mentioned. And, perhaps most importantly, Chinese citizens are 
using courts in unprecedented numbers and are vigorously 
concerned about legal issues.
    But China's legal system continues to fall well short of 
meeting any widely accepted definition of the rule of law. As 
the State Department's annual report on China shows in its most 
recent edition, the legal system has yet to prove itself 
adequate to protect the rights of all Chinese citizens.
    Arbitrary arrest, torture, and denial of the procedural 
protections of Chinese law itself remain serious problems, as 
do reeducation through labor, and custody and repatriation.
    The judiciary does not enjoy sufficient independence and it 
is plagued by corruption, poor training, and local 
protectionism.
    Now, Americans and others in the democratic world have 
tried to assist Chinese legal development in a variety of ways. 
In general, this work has been worthwhile.
    In the short term, for example, foreign involvement has 
made possible programs such as the Women's Rights Center at 
Beijing University that are helping some victims of injustice 
to realize their rights through law.
    In the medium term, Americans are usefully assisting people 
working to upgrade procedural protections for criminal 
defendants, while also acquainting less open-minded Chinese 
officials with just how out-of-step China is with the norms of 
countries it wishes to follow economically.
    In the longer term, foreign legal assistance is enabling 
Chinese who are genuinely committed to changing their society 
to deepen their understanding of legal institutions in 
democratic states.
    To be sure, as we do this work we have to be careful not to 
exaggerate its impact and to guard against efforts that some 
will make to use the law to legitimate repressive activity.
    As you contemplate your mandate, let me provide you with 
four suggestions. First, we need to promote legal development 
without pulling punches on issues of human rights. That is not 
easy, but it is essential.
    Without better institutions, without a legal system that 
better protects, Chinese citizens simply do not have the means 
to vindicate their rights. But the legal system will not be 
stable and respected over time if the law does not also apply 
to the powerful and if basic rights are flouted.
    Second, as we assist legal development we need to hold true 
to our ideals, but also to appreciate that there may be 
multiple ways to realize those ideals.
    We make a stronger case, I believe, for legality and 
pluralism, and we better empower the Chinese to make change in 
China when we portray the variety of ways through which 
different free societies seek to attain their shared goals of 
human rights and the rule of law.
    Third, some points regarding targets for, and sources of, 
U.S. legal assistance. On the former, we cannot realistically 
advance the rule of law in China without engaging those who now 
oversee and operate the PRC's legal system, notwithstanding the 
problems this panel has noted about them.
    But we also need to reach out much, much more than has been 
done so far to emerging Chinese civil society, particularly 
beyond Beijing.
    Senator Baucus asked for particular suggestions.Areas that 
we might concentrate on would be things like women's rights, 
labor rights, legal aid, and working with migrants, rather than 
simply being engaged in legislative drafting assistance in 
Beijing.
    On sources, the fact that most American involvement so far 
has emanated from our civil society, as Professor Feinerman 
noted, is a strength in many ways. It facilitates diversity and 
I think it shows the Chinese, by doing, that our universities 
and our bar really are independent of government.
    But this task is so massive, that substantially greater 
Federal support is essential. As Professor Feinerman noted, the 
Europeans and others are at work, but they tend to work more 
through official channels. I hope we will work more through 
civil society.
    Finally, we must remember that the task is massive because 
it ultimately involves the way in which China's people think of 
themselves and their relationship to authority. This is not 
cultural determinism. Ideas of justice ring as true to the 
Chinese as they do to all of us.
    Instead, it is to urge that if legal development is to be 
done well, we must appreciate that it takes time to build 
serious institutions, that it will be difficult, and that most 
likely the ultimate shape of the success and the credit for 
that success will reside principally with the Chinese people 
themselves.
    I thank you very much for inviting me.
    [The prepared statement of Professor Alford appears in the 
appendix.]
    Representative Bereuter. Thank you very much, Professor.
    I am going to recognize Congressman Levin, and Senator 
Hagel, when he returns. But then Chairman Baucus has a list of 
order for questions, based apparently on time of arrival. I 
will try to stick with this, unless he changes his idea.
    Thank you, first of all, very much for your testimony. I am 
sure that the members have some interesting and important 
questions for you.
    We will follow the 5-minute rule, but I think there is 
opportunity for us to do several rounds, too.
    Congressman Levin.

 OPENING STATEMENT OF HON. SANDER LEVIN, A U.S. REPRESENTATIVE 
                         FROM MICHIGAN

    Representative Levin. If I might just say a few things, 
preliminarily. This is really an important moment. This is not 
really another hearing, not to diminish the importance of 
regular Congressional hearings. But this is something 
different.
    We have a commission that was set up that is executive and 
Congressional, and there are not very many examples of that, 
with its own staff. I must say, we have been privileged to 
receive resumes from people of immense talent, starting with 
Ira Wolf and John Foarde, who have not, I think, been 
introduced, but I think you have come to know them. I think 
this indicates the seriousness of our intent.
    I have an opening statement and I would ask, Mr. Chairman, 
that it be entered into the record.
    Chairman Baucus [presiding]. Without objection.
    [The prepared statement of Representative Levin appears in 
the appendix.]
    Representative Levin. I just want to say a couple of words 
about it.
    The reason for this Commission, we face this situation, 
China going into the WTO, a country of immense size and of 
immense importance. How are we to respond to this?
    Are we to rely simply on kind of the natural unfolding of 
our relationships, our commercial relationships with China? Are 
we going to, in addition to whatever might unfold through those 
relationships, try to impact China's course?
    That was important, not only in terms of our overall view 
of human rights, but also because increasingly China was going 
to be part of the overall picture. There needed to be rules of 
engagement, and also because China was going to compete with us 
and the rest of the world; in a sense, rules of competition.
    Built into those rules, needing to be developed over time, 
are standards, floors, including human rights, including the 
rule of law, including as part of human rights in the 
legislation, worker rights. So that is what we are wrestling 
with, how we do that.
    The feeling was that we needed to combine engagement with 
other ways to impact. For commercial reasons it was important 
because, without the rule of law, what would the commitments 
mean? But also, because we were going to engage and compete, 
the rule of law was important as we built a floor for this 
competition.
    So that is what we are about. I think we are all intending 
to meet this challenge. So, we hope this is just the first of 
many productive hearings. The Helsinki Commission is perhaps 
the only model like this. I think it worked. We have to 
remember, though, that we are dealing with a different set of 
situations.
    In a sense, with Russia, with the Soviet Union, there was 
little commercial contact, little contact of any kind. This was 
something from the outside almost completely, except when they 
would let us in.
    In this case, the interaction is going to be much more 
vigorous and somewhat different, but no less important. So we 
have a commission that is not identical to Helsinki, but has 
some of the same earmarks in terms of staff, and in this case a 
Congressional executive level. So, I think this is really a 
very important moment.
    So, let me just ask you if any of the four of you want to 
give us further advice. There has been some reference, for 
example, to what is going on among workers of China. There was 
a recent article in the Washington Post about this. It is just 
one example of the fermentation that is going on within China. 
The question is, how do we effectively impact, constructively 
impact?
    So feel free to give us advice at our baptism. Mike, you 
are shaking your head.
    Mr. Jendrzejczyk. Well, I have lots of suggestions, but I 
will just give you two. And Mr. Levin, I want to say I am 
especially happy to be here today with you, because I remember 
the first discussion I had with you about the possibility of 
the Commission. I believe it was in a hotel in Seattle during 
the World Trade Organization Summit.
    I never would have believed we would have reached this 
point at that stage just a few years ago. I remember in that 
discussion, you said many of the things you just said now, and 
with the same kind of eloquence.
    I mean, I think this issue of labor rights is one of the 
most difficult, the most complex, but also the most important.
    I think in a very practical way, there clearly are areas, 
for example, having to do with worker health and safety in the 
coal mining industry in China, for example, where there are a 
huge number of deaths and casualties, where China would 
probably welcome some forms of bilateral assistance and/or 
support.
    That is relatively easy. That does not hinge on or touch on 
the far more sensitive political issues that have to do with, 
for example, reforming the labor law to make it possible for 
workers to organize their own independent trade unions. That is 
now, as you know, illegal.
    Having said that, last October the labor law was amended 
and there are now provisions that theoretically say that 
workers, even when choosing representatives for the All China 
Workers Federation, the official trade union, that their 
representatives should be chosen by the workers, not the 
management or the party cadre, which is the way it is normally 
done.
    Now, I do not know what this Commission itself can do to 
encourage adequate implementation of this relatively new 
provision. Certainly, monitoring how it is implemented would be 
a step in the right direction.
    That brings us back to this fundamental problem that I 
think this Commission is going to face, and that is getting 
access to good, accurate, solid information on the ground in 
terms of what is actually happening, and where there are 
opportunities for change.
    The labor disputes that reach the western press are just 
the tip of the iceberg. You know if you read the official 
Chinese media, there are tens of thousands of labor disputes 
every year, and they have been increasing in the last few 
years.
    Many of them are very quickly resolved. The Chinese 
government says, pay off the workers, give them their owed 
wages, get them off the street. If they continue to stir up 
trouble, yes, detain or arrest them, or put them into a 
reeducation camp.
    This is why I stressed access to China by the ILO, by this 
Commission in terms of having someone on the ground based in 
the American embassy. I think it is going to be fundamental for 
you to come up with a viable strategy to do precisely what you 
think you want to do.
    Representative Levin. Thank you.
    Chairman Baucus. Those are good points. There are many 
members of this Commission and little time, so we are going to 
have to honor the 5-minute rule. We will work our way through 
the procedure, since this is our first meeting.
    I might tell my fellow Commission members that, our system 
is recognition in order of arrival.
    I have a question for Mr. Xiao, and anyone else who wants 
to answer. How many senior people in the government in China 
share some of the concerns that we are now voicing?
    That is, problems with the reeducation through labor 
system, and the hukou, and maybe the rule by law rather than 
the rule of law.
    How many hold these views and how strongly? One, is who 
holds these views privately. Another is do they discuss it 
among the leadership privately. The third, is if it is voiced 
publicly.
    So those are three different categories of the degree to 
which a significant number of people in the Chinese 
administration may agree with, to some degree, the basic points 
that we are now discussing.
    Mr. Xiao. I think, first off, these issues are well-known 
issues among the Chinese leadership. It is not that they do not 
know about them. It is their perception or perspective, looking 
at these issues, that are different. Basically, from their 
position, they see the necessity that they maintain the 
political status quo. It is a necessity for stability. They 
know this issue, but too bad. That is how China runs.
    There are reform-minded, thinking people in the leadership, 
and I think more and more people see it is inevitable. In the 
long-term, China has no other alternative, that being a modern 
a country, they have to follow the democratic government rule 
of law and protect human rights. I do not think, in the long 
term, people can really argue about that, even if they do not 
publicly say it.
    What they do not know is, from today's China, the current 
status, how to get there, who wants to take the lead. This 
current leadership, President Jiang Zemin, Zhu Rongji, and Li 
Peng, decided on not taking political reform, period.
    But Chinese leadership transition is coming up in the next 
2 to 3 years for a new generation of leadership. I think 
political reform, including rule of law not just rule by law, 
is a fundamental issue and that leadership will look into it.
    I think this actually is a way in for the Commission, for 
the powerful American Congress and administrative and Executive 
Branch to engage in those political visions and values with the 
Chinese leadership. I believe what they need is more on how to 
get it there. They are already aware of those issues.
    Chairman Baucus. What is the proper way to engage the next 
generation?
    Mr. Xiao. China's politics are not transparent. So whatever 
they say in the current political discourse does not really 
reflect what they believe is the next step.
    But there are certain basics. I think there should be 
pressure from both sides, pressure from the outside externally. 
Several people have mentioned that, to engage China in playing 
by international rules, that includes human rights. If China 
wants to be part of the international community, which it does, 
increasingly, those basic norms must be respected. That is the 
one place where you can engage the Chinese leadership.
    The other one I would fully emphasize is how to empower the 
Chinese people. When I say the Chinese people, not just those 
public advocates for human rights and democracy, but also the 
reform-minded officials at every level in Chinese society.
    In my view, one focus is to help to promote the freedom of 
information and freedom of expression in China, to ensure their 
rights, to facilitate that kind of effort. For example, with 
the internet. By that, the Chinese people will expose more 
corruptions, publicize labor exploitations, and to speak out 
more on the monitoring of the government. So freedom of 
information, freedom of expression, is a key.
    Chairman Baucus. Do any of the rest of you want to respond 
to that basic question?
    Mr. Alford. If I might. I am in concurrence with what was 
said. I think, of course, it is hard to know what is going on 
inside the Chinese leadership. But I imagine that there is 
pretty widespread recognition of a need to change. The question 
is, how to do it and how far to go.
    It is interesting that there are statements on occasion by 
senior Chinese legal officials acknowledging some of the 
problems we have spoken of with regard to torture, arbitrary 
arrest, and official abuses.
    Perhaps even more interestingly, there is now a broader 
spectrum of ideas that academics and others can voice--which 
suggests an increasing measure of tolerance. There have been 
academics who have spoken out strongly against reeducation 
through labor, something that would have been hard to imagine 8 
or 10 years ago.
    Chairman Baucus. Thank you very much. My time has expired.
    Next, is Congresswoman Marcy Kaptur.
    Representative Kaptur. Thank you, Mr. Chairman.
    Let me just say, this being our first meeting, I want to 
publicly acknowledge the yeoman's work that was done by 
Congressman Levin in the House in crafting this provision, 
along with Congresswoman Pelosi, who has just been a champion 
for human rights and has led us as a world, and our dear 
colleague Frank Wolf from Virginia, just for helping to make 
this day possible.
    I want to thank Chairman Baucus and Co-Chairman Bereuter 
for leading us all in this extraordinarily important effort. I 
am very conscious, though not a senior Member of Congress, that 
I am here because the men and women in my district who struggle 
every day to earn a living and to have a better way of life 
have sent me here.
    As a member of this Commission, I do not want to forget 
them and the plight that they face in the workplace every day. 
As a member of this Commission, I know it is my responsibility 
also to never forget the men, women, and children in China who 
are struggling to survive another day, often under very brutal 
conditions.
    As one American, I view the military relationship that we 
have with China as probably predominating the policies that we 
have followed over the years, followed more recently by our 
commercial relationship, which has now resulted in a gigantic 
trade deficit with China, where China now remains the largest 
holder of our dollar reserves, $30 billion, $40 billion, $50 
billion, $60 billion being made in a very lopsided way by 
certain interests.
    My question really goes to the nature of that commercial 
relationship and to what extent we can use the power of the 
marketplace to help to promote the legal reforms that you all 
have asked to focus on in your testimonies today.
    I have listened very carefully to Mr. Xiao and to Mr. 
Alford, Mr. Jendrzejczyk, and Mr. Feinerman talk about the 
perception versus reality of China.
    I have to place this on the record, because I asked myself 
this question. These items, the women who made these in China, 
were paid 17 cents an hour. If I look at our trade deficit, I 
look at the toys of misery that come out of China. I say to 
myself, the dollars that are made off of this transaction, who 
makes them? How does that profit in any way get turned toward 
the development of a better human rights record in China?
    In my own region, I wish to place on the record 2,000 
workers at Huffy Bicycle in Salina, OH no longer have jobs. 
They used to earn $11 to $15 an hour, with benefits.
    The workers in China who have replaced them through a 
subcontractor through Taiwan are paid 30 cents an hour. The 
quality of the bicycle has gone down in terms of the metal used 
in production.
    Huffy maintains an 85 percent market share here in this 
country and the prices have not gone down at K-Mart and Wal-
Mart where you purchase these bicycles. Who is making the 
profit off of that change, and how can some of those profits be 
turned to the development of a rule of law that really works?
    So my question goes to the heart of the commercial 
relationship. Would anyone care to comment?
    Mr. Jendrzejczyk. Representative Kaptur, I think you have 
touched on a very important problem. I do not know of any one 
solution, but I do know one suggestion that has made its way 
through the Congress as legislation, but has never been 
enacted.
    That is, a code of conduct for American companies and their 
Chinese, Taiwanese, and Korean subcontractors and suppliers 
that looks at both their obligations under international and 
under Chinese law to protect their Chinese workers and others 
from this kind of exploitation.
    This code of conduct bill was introduced by Mr. Lantos in 
the House in 1995. It earlier had been introduced in the Senate 
by Senator Ted Kennedy. It wound its way, in one case, through 
both Houses of Congress and got attached to another piece of 
legislation, but was never enacted.
    My organization, and other groups, advocated strongly last 
year for enactment of this bill before China joined the World 
Trade Organization, precisely to provide American consumers 
with the information they need to know that if a company is not 
abiding by this code of conduct and filing regular, yearly 
reports with the Secretary of State and the Labor Department on 
how they are implementing this code, they should have that 
information at their disposal before they make decisions.
    I would recommend that this legislation is now more 
important than ever, because China is in the World Trade 
Organization. I think it is a long way from implementing its 
WTO obligations, but I think this kind of legislation would 
provide at least more information and some assurance to 
American shareholders and consumers that workers in China are 
not being exploited and their basic rights are being protected, 
especially, as you say, women workers who tend to be exploited 
the most.
    Representative Kaptur. Yes. As I said, in many locations 
trade is not gender-neutral.
    I also want to place on the record at our first hearing 
that globalization may have a logic, but it does not have an 
ethic.
    Mr. Xiao, did you wish to make a statement?
    Mr. Xiao. Yes. I just wanted to simply say that is such an 
excellent question. If you engage in a substantive conversation 
with a Chinese official, that is the question to ask. Yes.
    Representative Kaptur. I would be very interested in the 
area. I will only end, in 10 seconds, by saying to both of our 
able chairmen, I hope that, as a part of this Commission's 
work, I long for the day to travel through China, through many 
of the provinces where this work is being done, and to somehow 
be able to talk to the workers. I doubt that we will ever be 
allowed an opportunity to see the real thing, but it would be 
my hope.
    Thank you.
    Chairman Baucus. Thank you very much, Congresswoman Kaptur.
    Next, Secretary Findlay.
    Mr. Findlay. Thank you very much, Mr. Chairman. I am very 
pleased and honored to be with the distinguished Members of the 
Congress and Senate on this panel.
    It was said of the USSR years ago that, if you looked at 
the piece of paper that was the Soviet constitution, it was a 
spectacular constitution that included a lot of rights. The 
problem was that there was not the institutional backing to 
enforce the rights: an independent judiciary, independent labor 
unions, independent prosecution.
    So it seems to me that the key to bringing human rights to 
China is not only to get the laws right, but to get the 
institutions right. I would just be curious, probably from 
Professor Alford first, to talk about how the United States can 
influence institutional change in China.
    Mr. Alford. Thank you. That is a very perceptive question. 
My own sense is that that is exactly right. It is not chiefly a 
question today of the promulgation of legislation in China, 
although certainly much law, criminal procedural law, criminal 
law, labor law, and so forth, could be drafted far better and 
refined. It is a question of building institutions that give 
those laws vitality.
    China is moving, as Jim Feinerman suggested, in that 
direction, but it needs a great deal of help. Some of the 
problems, as we have described in this panel, are clearly 
directly political in terms of the Communist Party's 
involvement, but some of them are even larger and deeper, in a 
way.
    We need, as was suggested, to reach out to the Chinese 
populace as a whole to help acquaint it with its rights and 
provide it with more institutional vehicles for realizing 
those.
    To give you a quick illustration, China has something 
called an administrative litigation law that enables people to 
take local officials to court. It has been over-sold in this 
country. It is not quite as spectacular as some of its 
proponents would suggest, but it is a beginning. Twenty years 
ago, 10 years ago, it was almost inconceivable that somebody 
could challenge officials in that way. Now, it is there. The 
quality of judges is very uneven, but improving. So I hope we, 
as a government, will find means of supporting activity that 
makes more of this possible.
    Mr. Jendrzejczyk. One other suggestion is to focus on legal 
aid. The new Chinese Justice Minister is eager to expand the 
nascent legal aid system to every part of China, especially in 
rural areas of China, as part of a poverty reduction strategy 
to empower women. There seems to be now an eagerness at the 
local level, but a lack of resources and training.
    We have been talking with the World Bank to try to get the 
World Bank involved in this whole area as part of its poverty 
reduction strategy.
    The bank has not given legal aid assistance to China, as 
far as I know, since 1994, when it got its last I.D.A. loan. So 
I think this area of legal aid might be one very specific area 
to focus on. I agree, otherwise, with all of the rest of the 
panelists, this is a very long-term, decades-long proposition, 
moving China from having laws on the books to enforcing them.
    But having legal aid resources available to local peasants 
and workers who now, for the first time, may have the ability 
to go to the courts for some redress of grievances, that would 
be, I think, a significant contribution.
    Mr. Feinerman. I would just like to add that there are some 
missing bricks in the structure that also need to be addressed, 
and there are programs that we could effectively mount that 
might help with them.
    The judiciary, for example. If you are going to try and 
make these claims and process these rights, you need judges who 
understand the law, who can actually make change happen. That 
is one of the weakest links in the Chinese legal system as it 
has evolved today.
    There are also resources that could be devoted, and we have 
a lot of experience in the United States with what would be 
called popular legal education, that is, making more citizens 
more broadly aware of what their existing legal rights are and 
creating a groundswell of pressure for pushing for more of 
them. That is the kind of thing where American experience and 
techniques might be brought to bear with regard to that.
    Last, I would just echo a point that I think Professor 
Alford was making. That is, sometimes it is easy to mistake 
certain kinds of progress for genuine progress, to look--and 
the Chinese are often very good at this--at the number of laws 
that were passed, the number of lawyers that have been trained, 
and just look at statistics without seeing outcomes, without 
seeing what has really happened. That is the important thing, I 
think, to try to assess. It is something that we need to get 
more information about, too, on this end.
    Mr. Findlay. I have another question, but I think with the 
yellow light on, it would take too long to ask.
    Chairman Baucus. Go ahead. Shoehorn it in.
    Mr. Findlay. The second question I wanted to ask was about 
China's accession to the WTO. It has been said that there is a 
demonstration effect that happens when a nation comes into the 
community of nations and begins to have to abide by 
international norms, that it can lead to abiding by human 
rights norms and its own internal laws.
    I would like any of you to comment on whether you think 
such an effect works.
    Mr. Jendrzejczyk. I think it does, perhaps, over time. I 
would underline the ``perhaps'' and the ``over time.'' For 
example, China ratified a U.N. convention against torture and 
ill treatment, I believe, in 1986. Yet, Chinese official 
publications and legal authorities admit that torture and ill 
treatment is a huge problem.
    On the other hand, having this as an international treaty 
that China is a party to, that it has to file reports with the 
United Nations on compliance and implementation of its treaty 
obligations is a contributing factor, but only a contributing 
factor.
    I think, given the other complex dynamics that others here 
have described, everything from the succession struggle under 
way this year to the enormous dislocation likely to happen once 
WTO reforms are implemented, social and economic dislocations. 
Those are factors cutting against any treaty that is signed at 
the highest levels of the government.
    So I think these long-term institutional reforms will be 
enhanced by China's adherence to international standards of all 
kinds having to do with trade, non-proliferation, and human 
rights.
    But, again, I think we are all sounding the same theme 
here, that the gap between enforcement and implementation and 
signing on the dotted line is enormous. That is precisely the 
question: How do you address that?
    Chairman Baucus. Thank you very much.
    Let me read the list here that I have, in order. 
Congressman Dreier, Mr. Craner, Congresswoman Pelosi, 
Congressman Davis, Congressman Wolf, Congressman Pitts. I 
understand that Senator Hagel is going to return.
    Go ahead, Mr. Craner.
    Mr. Craner. Thank you very much, Mr. Chairman.
    I want to thank you and the other Senators and Congressmen 
here, for bringing this Commission together and addressing what 
I think is a very, very important aspect of our relationship 
that could have great long-term effects. Thank you.
    I want to pose a question to Mr. Alford. That is, if you 
notice any significant shifts in legal reform, debate, or 
directions versus a decade ago. I think one would say that it 
was about a decade ago that these reforms began.
    Mr. Alford. Yes. Thank you for your question. I also want 
to commend the work that you did previously with rural 
elections, which I think has proven over time to be very 
important.
    I think we see signs, to be frank, in both directions, both 
positive and not as positive. That is, there are things people 
can talk about in terms of legal reform, some of which have 
been realized in action, amendments spoken of earlier in the 
labor law and efforts to improve the criminal procedure law, 
though it is still quite imperfect, to be sure.
    But I think also, as we engage further in legal reform, 
want to be sure not to see it as a panacea for everything in 
China. For instance, corruption is a more staggering problem 
today than it was 10 years ago. Sadly, lawyers are a party to 
this. Indeed, they have disappointed some of the hopes that 
people had that they might be a vanguard for bringing about 
change.
    That still leads me, in the end, to believe that we must 
intensify our efforts at engagement in legal development. But 
we do not want to be naive about it being a uniform path.
    Mr. Craner. Let me ask a follow-up question. In the area of 
legal reform, it seems that there are two directions one can go 
in. One has to do with the commercial area, and the other, I 
think some of you have outlined different ideas or different 
program ideas here today.
    How do you see the effect of working on commercial law 
reform for human rights as opposed to what one might call more 
direct access through some of the programs you have discussed 
today?
    Mr. Alford. If I could offer a quick comment. I think the 
two really are interdependent. I think that the emphasis so far 
historically has been more on the commercial side, so I 
personally would prefer to see more on the other side. Work on 
the other side, the non-commercial side, benefits the 
commercial side in the long run because there will not be 
respect for contractual rights if there is not respect for very 
basic rights.
    Mr. Craner. Thank you.
    Jim.
    Mr. Feinerman. I would just echo that. I think that the 
problem that has been perceived so far in the incomplete 
process of reform that China has experienced is that 
legislating new laws, trying to make strides in the commercial 
area, without a contemporaneous development of the more 
structural and systematic aspects of the legal system leads to 
eventual failure, or at least partial success, because you 
cannot make the next breakthroughs unless you have those things 
in place.
    You can have the most perfect commercial code on the books, 
but if you do not have the judges and the lawyers who can make 
them effective, then it all comes to naught.
    Mr. Xiao. Just look at the legal reform from my particular 
perspective. About 12 years ago, we started the first effort in 
trying to find a lawyer for political prisoners in China. There 
was a lawyer, but he could do very little. But we were excited 
there was a lawyer trying to do something.
    Twelve years later, it is even more difficult to find a 
lawyer to defend any political prisoner, and there are more 
political prisoners than there were 12 years ago.
    Mr. Craner. I yield back the rest of my time.
    Chairman Baucus. All right. Thank you very much.
    Next, Congresswoman Pelosi.
    Representative Pelosi. Thank you very much, Mr. Chairman. 
I, too, want to commend you and Mr. Bereuter for your 
leadership here. I think you will present us with a tremendous 
opportunity where we can work together to hopefully accomplish 
something to promote human rights in China and improve the 
conditions of the people there.
    So, as the Chairman has said, the decisions about what 
happens in China ultimately can only be made by the Chinese 
themselves. I completely agree with you, and we want to give 
them that opportunity to do that.
    I want to commend my colleague, Congressman Levin, for 
extraordinary leadership and persistence, and excellence in how 
he proceeded on this. I hope that we can, in the end, come 
together around something that will make a real difference. I 
am pleased to serve with all of you.
    I want to commend the witnesses for their very excellent 
testimony. I want to congratulate you, Mr. Xiao, on your 
MacArthur Award for Excellence. Congratulations. And Mike 
Jendrzejczyk, of course, I have worked with over the years, and 
we appreciate the very scholarly presentations that we had. 
They were very useful.
    Mr. Chairman, I think that if we could accomplish something 
in the area of rule of law, not rule by law, and rule of law 
with respect for human rights, it would be a great thing. I 
hope that it would not just focus on the economic side where we 
have transparency and opportunities because of the WTO, but it 
would be on both sides.
    I fear a dual track, where we would do it so that it 
pleases the business community doing business there. That would 
be a good thing, but it is not the only thing. I do not want 
the people of China to be given any more rights than the 
business community operating there.
    We have been at it for a long time, some of us, on this 
issue. At the time of the Tiananmen Square massacre, the 
reported trade deficit was $2 billion a year.
    We thought we could use that for leverage, conditioning 
trade with China to stop the proliferation of weapons of mass 
destruction, to stop unfair trade practices, and, most 
importantly, to free the prisoners of Tiananmen Square. When I 
say most importantly, most timely at that time. It was all-
important.
    Here we are, almost 13 years later. The prisoners are still 
in prison from Tiananmen Square, many still are. The Chinese 
are still proliferating weapons of mass destruction. The $2 
billion per year trade deficit is more like $2 billion per 
week.
    So I do not think it has worked, what is there. Again, none 
of us has been successful in freeing those prisoners or 
improving the situation in China.
    I am interested in what our academic guests--you all are 
academic guests, but Mr. Feinerman and Mr. Alford--have to say 
because it just reminds me of what we all know: China has 
contradictions.
    If you shine the bright light of freedom there, you will 
see areas of improvement, there is no question. But you will 
also see massive areas that we cannot ignore, we simply cannot 
ignore. So, I hope that we can come together around something.
    I am pleased, and I want to congratulate the Bush 
administration. Many of us have worked for many years, many at 
this table, for Ngawang Choepel's release. I am so honored that 
he joins us here today, after so many years in Tibet, in 
prison. I do not know if he is still here, but he was here 
earlier. I think we should all welcome him. [Applause].
    Mr. Secretary, again, I congratulate the Bush 
administration. It happened on your watch. Again, we have all 
been pushing for years. But thank you for your leadership in 
this area.
    Mr. Craner. It is the product of the work of very many 
people.
    Representative Pelosi. You are very gracious.
    What we have heard from two of our witnesses, at least, is 
that intercession by Congress and by the outside world for 
political prisoners is effective.
    So, in friendship, Mr. Chairman, I would just say that I 
would hope that the Commission would take up the suggestions 
that are offered in terms of the President's visit to China, in 
calling to the attention of the regime some of the names of 
prisoners that we would hope would also be released.
    We know from the prisoners that their conditions in jail 
improve when their names are brought up. We also know that 
sometimes some of them are freed.
    So that is why I do not want to be wedded to the systemic 
structural change, which I do not really see in the bill, but I 
see that has been presented as a criterion for whether we were 
to take a particular action. It is true, releasing a few 
prisoners does not solve the problem. But I still think that we 
should try to release some of the prisoners.
    I just wanted to see if we could get any comment from our 
witnesses here on the prospect for us doing something, with 
allowing the Chinese people to make the decision, but how we 
could have real rule of law with respect for human rights which 
applies to people's lives, their human rights.
    Not just that, if they are charged with a crime, do they 
have rights to defend themselves. But, for example, Xu Wenli, 
for example, is in prison because he talked about politics in 
another way than the regime would allow.
    I see that my time has expired. I will have to defer to the 
discretion of the Chairs. Maybe I will just put it out there as 
something they can come back with later.
    Chairman Baucus. You are good, Nancy. You are good. You are 
good. [Laughter.] All right. A very short answer.
    Mr. Feinerman. I would just say two things. One, is I think 
it is important to keep in mind that this may happen over time, 
but there are ways that we can contribute to it.
    One of them is the pressure from outside, which is very 
important. Another, is using the institutions here over the 
long run to provide people who can do this.
    Let me give you one example of someone who combines both. A 
woman who is a contemporary of Professor Alford's and mine when 
we were law students over 20 years ago went back to Taiwan 
after getting her LLM, and was promptly put in prison. She was 
a political prisoner. In fact, I and many of my classmates 
joined Amnesty International to work for her release. She is 
now the Vice President of Taiwan.
    It is an example of what can happen in another Chinese 
society which was a repressive regime for almost four decades, 
which existed under martial law, and which, at the time that 
she was arrested in 1980, seemed insusceptible to any forward 
movement. People had been working on them for years. But the 
long pressure that was brought by people from Taiwan who had 
studied in the United States and stayed here or went back and 
began to build a middle class, who learned while they lived in 
other societies abroad what democracy and the rule of law could 
really bring to their lives, created a tidal wave that 
eventually won her freedom and propelled her and her party into 
political power.
    Chairman Baucus. Thank you.
    Mr. Jendrzejczyk. May I make one other suggestion?
    Chairman Baucus. All right, but quickly. In honor and 
respect of others here who have not yet had a chance to ask 
questions, I think I am going to have to move on. I very much 
appreciate that. I think this hearing has whetted the appetite, 
and that is positive.
    Congressman Davis.
    Representative Davis. Thank you, Mr. Chairman.
    The level of repression of what appears to be legitimate 
public political discussion and debate that you provided to us 
is both breathtaking and artful.
    I would like to ask you some questions about the extent to 
which unleashing the full force of the internet is part of the 
solution here today.
    How potent at force is that for the change we are all 
talking about today?
    Chairman Baucus. Congressman, if I might just interrupt 
here. This is a very good session. I very regrettably must 
leave. Chairman Bereuter is going to continue here. We are 
going to gather together, frankly, after this and figure out 
where we go from here, both procedurally and substantively.
    But I very much appreciate the interest of everyone. We all 
collectively, together, appreciate the interest of everyone. I 
pledge my efforts to make this work, to make this Commission 
effective. I think we can do it. I feel very good about it.
    Our constitution provides for a separation of powers, but 
here we are in joint collaboration of the Executive Branch and 
the Legislative Branch, together on the same panel, asking 
questions together. That is something I think we should pursue 
as much as we possible can in the future.
    Thank you very much. I very much apologize for 
interrupting.
    Representative Davis. Thank you, Mr. Chairman.
    My question is, to what extent is the power of the internet 
a significant force in what we are discussing today? How 
effective are these controls that many of you have documented? 
What role can we play in further unleashing the power of the 
internet to improve upon the quality of public discussion/
debate on political issues?
    Mr. Xiao. First, the internet population today is about 33 
million, and growing rapidly. They are a relatively young, 
educated, urban population. It is also vastly expanding to many 
different corners of China.
    It is a very special demographic. It is not for the 
peasants, not for the workers, not for other people. But it 
does reach to the urban-educated business and government 
officials in such a way that it has already had a visible 
impact on China's freedom of information and freedom of 
publication.
    In other words, certain news that the government tries very 
hard to censor is already being exposed on the internet, and 
puts pressure on official newspapers and televisions and they 
have to cover it.
    The government censorship effort is also very remarkable, 
from the internet police section to 60-some internet 
regulations and laws, to actually working with some western 
tech companies to develop the surveillance, the firewalls, and 
the censorship, sophisticated software, trying to keep things 
under control.
    The key issue here is what the American Government and 
civil society can do, and this Commission can do, to facilitate 
the further opening up of the internet. I would suggest that 
the first step is to look into the Chinese Government's WTO 
obligations. Already, what the Chinese Government is doing 
domestically, I believe, is violating certain of those rules 
already.
    Mr. Jendrzejczyk. I would endorse what Mr. Xiao has said. I 
would just add, I think the private sector can also play a 
role. I think American companies, for example, can be 
encouraged to allow Chinese citizens--students, for example, 
and others, researchers--to use their internet facilities when 
the companies are shut down for the day, but when they are 
still on line, where it would be much easier for them to get 
around the various firewalls and obstacles to free access to 
the internet.
    Beyond that, of course, American companies, especially 
those that are selling software and trying to expand access to 
the growing internet market, should, I think, be very cognizant 
of the fact that, under Chinese regulations, they are supposed 
to report those who are using the internet to download 
potentially subversive information about Taiwan, about Falong 
Gong, about Tibet, and so on, or perhaps even getting access to 
CNN or the Washington Post.
    Companies have a responsibility to find a way to square 
their obligations to their online subscribers with their 
ostensible obligations under Chinese law while, most of all, 
protecting the rights of free expression. I think that would 
also be a contribution.
    Mr. Feinerman. I would just like to suggest that you may 
want to consider other technologies besides the internet. I 
have participated in very effective call-in programs on VOA 
[Voice of America] radio and television, for example. People 
given access to free call-back services in China call in and 
ask wide-ranging questions about a range of issues in human 
rights and the rule of law.
    You could flood Chinese markets with cheap CDs that provide 
this information. Many more people have access to a computer 
than have a connection to the internet. There are a lot of 
other ways to spread the message, although I would also commend 
the use of the internet as one of the vehicles.
    Mr. Alford. I would echo what has been said. Indeed, as 
mundane as it may sound, efforts in which Professor Feinerman 
and I have been involved in building law libraries in China 
have actually begun to bear some fruit, where people can begin 
to use it. When we first went to China many, many years ago, 
nobody could get access to those materials. These days, they 
are being used. So, I think your question is a good one and we 
should work on all of these fronts.
    Representative Davis. Thank you.
    Thank you, Mr. Chairman.
    Representative Bereuter [presiding]. Thank you very much, 
Mr. Davis.
    The gentleman from Virginia, Mr. Wolf, is recognized.
    Representative Wolf. Thank you, Mr. Chairman.
    Let me, at the outset, just say I apologize for being late. 
I had a speech uptown.
    I do not completely agree with what has been said, and I 
want to be proven wrong. One, I think the Commission is tilted 
too much toward business. I have looked at the resumes. I 
believe the business community has a greater impact on this 
Commission than those for human rights. If you look at the law 
that created this commission, it said, ``Function: Monitor in 
compliance with human rights or to reflect compliance or 
violation of human rights,'' and to compile a Victims list. 
Well, if we do not contact people about the victims, then 
having a list will not be any good.
    I put some names in with regard to staffing for human 
rights and religious freedom. The staff said, no, no, no, no, 
no. Finally, I said, hire somebody from my staff. They said, we 
only want an expert on China.
    I would rather have an expert in labor issues who did not 
know anything about China but who cared passionately about 
religious freedom, than somebody who has been a professional 
China person and does not really care very much about religious 
freedom and human rights.
    So, second, Mr. Levin, all I can say is, the Helsinki 
Commission, which I serve on, is an advocate for human rights. 
I will tell you, Mr. Smith and Mr. Hoyer and all of the 
Members, have always been advocates for those who have been in 
prison.
    Mr. Hoyer used to go to Eastern Europe, go to the Soviet 
Union and advocate for it. Scharansky will tell you, when his 
name was mentioned on those lists when Mr. Hoyer would raise 
it, and others, that their life got better. Sometimes they did 
not get out, but their life in prison got better.
    So this Commission should be an advocate for human rights. 
Second, I believe the Commission is too weighted from the 
business community and I have not seen anybody on the staff who 
has a passion for human rights. There are 11 Catholic bishops, 
and Bishop Su Zhimin gave Holy Communion to Rep. Chris Smith, 
and he is now in prison. There are evangelical house churches. 
There is a new document that a press person called me about 
today that is going to break on the persecution of the church.
    So I think, if you have got a list, raise it. Second, hire 
some people. If you do not want to hire somebody from my staff, 
get somebody else. But hire somebody that maybe was not for MFN 
[Most-Favored-Nation], somebody who was not for all of these 
things.
    I lost. My side lost. The business community who advocates 
for religious freedom and human rights can do more than those 
of us who are opposed. But I see a slant in the staff, and we 
should use this Commission for everything that we possibly can.
    So, talk to Scharansky. Bring him as a witness and say, if 
we had had a list, and we just kind of kept it in the file 
cabinet, would that have helped you? He would have said, no. 
When you spoke out, and President Carter did--it is bipartisan. 
Jackson-Vanik, two Democrats, did a better job than anybody 
else. So, that is my second point.
    I have got more, but I just wanted to say to the witnesses, 
Mr. Feinerman, I went back and looked at what you said in an 
article. In 1997, this is what you said. ``Harry Wu and others 
have tried to stir up great controversy about how goods made by 
forced labor are flooding into our market. It seems to me to be 
the height of hypocrisy for us to get on our high horse about 
China making its prisoners work, given the fact that we do the 
same thing in our prisons.''
    Wrong. I have been in Beijing Prison, number one, with 
Chris Smith. We picked up the shoes and the socks that they 
were making. They were going through living hell in that 
prison. To compare Beijing Prison, number one, to our prisons, 
is absolutely wrong. Do you still agree with that?
    Then you went on to say that ``the Chinese system is 
designed to make offenders pay a harsh penalty.'' Some of them 
give their organs, some of them give their kidneys, some of 
them give their cornea. You go on to say, ``a harsh penalty, on 
the theory that it scares people so they will not come back 
into prison. You can argue that it works. Who are we to argue? 
It is their choice.'' Do you still agree with those statements 
that you made in 1997? Have you ever been in a Chinese prison?
    Mr. Feinerman. Yes, I have.
    Representative Wolf. What prison?
    Mr. Feinerman. I have been in both the Beijing Number One 
Prison and the Shanghai Prison.
    Representative Wolf. And do you think those conditions are 
as good as they are in the United States prisons?
    Mr. Feinerman. No. But the conditions for life in China 
generally are not as good as they are in the United States.
    Representative Wolf. The torture and the problems that are 
going on. Call their witnesses. We never ask anybody in our 
prisons to give their kidneys and their cornea. Have you seen 
the picture where they take people out of the prisons and shoot 
them?
    Mr. Feinerman. You are putting words in my mouth, 
Congressman. I do not condone the death penalty at all. I 
certainly do not agree with forcing people to donate their 
organs.
    Representative Wolf. Reclaiming my time, you said, ``Harry 
Wu and others have tried to stir up a great controversy about 
how goods are made by forced labor and are flooding into our 
markets. It seems to me to be the height of hypocrisy,'' for 
Harry, who spent 17 years in a slave labor camp, ``for us to 
get on our high horse about China making the prisoners work, 
given the fact that we do the same thing with our own 
prisons.''
    Mr. Feinerman. Parsing the English language, Mr. 
Congressman, I said it was the height of hypocrisy for us, not 
for Harry Wu. I admire his struggle.
    Representative Wolf. Harry is an American citizen.
    Mr. Feinerman. I know what he has survived. But I am 
saying, for other people who have not had those experiences, to 
first of all mischaracterize the percentage of goods that come 
to the United States that are actually the product of forced 
labor----
    Representative Wolf. There is a lie. There is a lie. In 
their labor practices--we had a gentleman come through the 
other day. There are labor practices with regard to making 
products that are flooding the market, whereby the people live 
in dormitories.
    So, Mr. Chairman, I would just say, I think you ought to 
hire somebody who has a commitment and a passion to human 
rights and religious freedom.
    Last, Mr. Bereuter, there is no one that is a better 
Congressman than you, and for Mr. Baucus, who I do not know, I 
would stipulate the same. But I think the business community, 
if they speak out, and this Commission speaks out, will 
actually have a greater impact than when I speak out, or 
somebody on my side. The Sullivan principles from South Africa 
ought to be adopted.
    So, I think the Commission ought to be an advocate for 
human rights. If we are trading, that's good. But, as we are 
trading, we should be speaking out. We can make a difference. I 
think this Commission can be--I was surprised that I was 
appointed to it--the difference. It can be the difference, but 
only if we are not a wall flower. We should be advocates for 
human rights. With that, I yield back the balance of my time.
    Representative Bereuter. I thank the gentleman from 
Virginia.
    You might be interested to know--not that I had the 
influence--I requested you should be on the Commission, along 
with several other members.
    Representative Wolf. I appreciate that.
    Representative Bereuter. And we all have a passion for 
human rights in many ways, or I think we would not have been 
appointed.
    I will say this with respect to Chairman Baucus, myself, 
and Sandy Levin, and Senator Hagel. We anticipate 14 
professional staff members, perhaps going beyond that. Only 
three, to my knowledge, have been hired. I know I was 
specifically requesting that we have one person to focus 
exclusively on religious issues. Of course, we had broad 
support for someone to focus predominantly, exclusively, 
perhaps, on labor rights issues.
    So, give us an opportunity to demonstrate the balance on 
the Commission. I hope, and think, you will not be 
disappointed.
    Representative Pelosi. Mr. Chairman.
    Representative Bereuter. Yes, gentle lady.
    Representative Pelosi. I was going to ask Frank to yield, 
but I just want to make one point on the prison labor issue. It 
is not a question only of the conditions under which people are 
imprisoned in China.
    The point is, use of prison labor for products for export 
to the United States is against our law. It is not about any 
question as to, do we have prisoners making products in our 
prisons. We do. But it is not for export to another country.
    It is not where you round up people, without trial, without 
representation. You recruit your workforce free of charge, no-
cost labor, and subject them to some of what Mr. Wolf said. 
But, regardless of the conditions, products made by prison 
labor are prohibited from entering our country under our law.
    So to charge Mr. Wu with hypocrisy, or us as a country, for 
suggesting that we should not prohibit prison labor goods from 
coming into our country because prisoners make goods in our 
country, is really more the point. I think you are wrong there, 
Mr. Chairman.
    Representative Bereuter. We will give Mr. Feinerman a 
chance to respond. But I would like to complete the first round 
here, and that is Mr. Pitts and myself.
    So, Mr. Pitts, you are recognized for 5 minutes.
    Representative Pitts. Thank you, Mr. Chairman, and thank 
Chairman Baucus for holding this important hearing. I thank the 
distinguished panel for their testimony.
    I have formal remarks that I will submit for the record.
    Representative Bereuter. Without objection.
    [The prepared statement of Representative Pitts appears in 
the appendix.]
    Representative Pitts. As we talk about legal reform and 
giving assistance to the Chinese Government for civil society 
development, I think we must be specific in our assistance, 
targeting areas in which a real, practical difference can be 
made.
    For example, it is vital that, as just rule of law is 
developed in China, that the distinction be made that criminal 
action be dealt with under established criminal law. Official 
PRC Government documents make it clear that the drive to 
maintain control over religious believers in China remain 
strong.
    In one report regarding a meeting of Chinese officials, the 
officials were charged,

    Quickly gather the essential personnel and find out the 
development and activities of this cult in our province. 
Carefully gather all the information and try to catch all the 
members in one blow.
    Pay attention to keep it confidential, and work without 
talking. Comrade, the head of the Ministry of Public Security 
emphasized specifically that we need to work more and talk 
less, and smash the cult quietly.

Not the statement of officials who aim to protect the freedom 
of conscience of their people.
    I have a couple of questions for our panel. One, how should 
the Commission be working with other governments to maximize 
influence on China? Can you be specific? What are the most 
important, specific questions that the commissioners should be 
asking Chinese officials? If you could comment.
    Mr. Jendrzejczyk. I would just comment on your first 
question about working with other governments. I mean, I think 
you are absolutely right, Mr. Pitts, about targeting 
assistance.
    There have been a lot of discussions in the various 
bilateral human rights dialogues with various governments, 
including the United States, the European Union, Japan, and 
others, and Mary Robinson, the U.N. High Commissioner on Human 
Rights, about reeducation through labor.
    I think my colleague Xiao Qiang mentioned this. This is an 
arbitrary system of punishment used in much the way you 
described, that anyone can be administratively sentenced 
without charge or trial for up to 3 years in labor camps. This 
is used routinely to imprison thousands of Chinese every year.
    For the United States to work with the EU, Japan, 
Australia, Canada, and the High Commissioner's office to 
develop a concerted legal and political strategy that can 
intersect with the discussions already going on in Chinese 
legal circles about doing away with this huge system of 
arbitrary punishment, that, I think, is exactly the approach I 
would take.
    The other, is to work with other governments to get 
observers into trials. The Chinese Government, a couple of 
years ago, said they would open up all trials except those 
involving subversion and state secrets to Chinese citizens as a 
way of building more confidence in the legal and judicial 
process. This is where I think this unfortunate dichotomy 
between human rights and the rule of law can be bridged.
    I think the United States can work with other governments 
to get diplomats to try to attend both trials of ordinary 
Chinese citizens who are being subject to mistreatment, perhaps 
at the hands of a corrupt official, and the state security and 
subversion trials that are now ruled out of order, and develop 
a strategy with them to get diplomats to show up at the 
courtroom and try to get access. This is a way of promoting, I 
think, both human rights and the rule of law. They are not 
mutually exclusive.
    Representative Pitts. Anyone else? Yes.
    Mr. Xiao. Yes. Just in addition to what my colleague Mike 
said, the High Commissioner of Human Rights at the United 
Nations is actually publicly calling the Chinese Government to 
abolish reeducation by labor in Beijing in workshops. So, there 
is an effort, and I think this Commission should join in that.
    I actually want to make a point and respond to your 
question, and also respond to, earlier, Nancy Pelosi and Frank 
Wolf's comments about individual cases and the systematic and 
structural changes, and how to achieve that.
    Again, I come back to the issue of the state security law, 
under the criminal code of endangering state security. I think 
this Commission, the United States Government, should engage in 
a fully substantial discussion with the Chinese authorities 
about the non-compliance with international human rights 
standards on the national security law.
    The United States faces its own challenges of national 
security and protecting civil rights. The Chinese Government 
always uses ``protecting national security'' to detain the 
peaceful advocates. I think you should look into it.
    One specific example. ``Counter-revolutionary'' used to be 
a charge for political crimes a few years ago. Now they have 
changed to endangering security. Under the counter-
revolutionary laws there are more than 2,000 people held in 
prison without even having their cases reviewed, but the charge 
does not exist in Chinese criminal law any more.
    I think the Commission should ask the Chinese government to 
systematically review all of these cases to see whether they 
really endangered Chinese state security, whether that really 
complies with international human rights standards.
    Representative Pitts. Thank you. Anyone else? Any specific 
questions we should be asking the Chinese officials?
    Mr. Alford. I think it is important that your views be 
voiced to Chinese officials so they understand how deeply 
Americans care about these issues. I think it is important that 
we continue to work on building institutions.
    It has been disappointing, as Xiao Qiang mentioned, that 
lawyers in China have not been more forthcoming in helping 
people who have been charged in the way you described. The bar 
is not sufficiently independent of the state. I think we need 
to continue to work to build an independent bar with integrity 
in China.
    Thank you.
    Representative Pitts. Thank you. Thank you, Mr. Chairman.
    Representative Bereuter. The gentleman's time has expired.
    I feel very strongly, as a member and as, of course, co-
chairman, that witnesses are treated with, of course, courtesy. 
Any views, past or current, or statements here, should not be 
misconstrued. So, Professor Feinerman, we will come back to you 
in a minute, right after my question period, if you wish.
    I have noticed, in meeting with Chinese officials for about 
14 years sporadically, that when we talk about human rights 
their conversation will shortly shift to the collective Chinese 
people, that things are improving and, therefore, this is a 
part of the important human rights.
    Now, we do not look at that in the same fashion at all in 
this country. I think that is a very strong consensus, that we 
have great focus on the individual human rights.
    But I want to ask you your reactions to that. Relatedly, 
Professor Alford, you said, I believe, if I have got this 
right--I was scratching down quickly here--your four final 
recommendations.
    But we need to go what we can with total respect for human 
rights and rule of law to help them understand that there are a 
variety of legitimate ways in free societies for ensuring human 
rights and rule of law, or something of that nature. Correct 
me, if I am wrong.
    Now, we have all run into discussions about the Asian 
model, especially a couple of years ago, which was not coming 
from Chinese itself, but from elsewhere in Southeast Asia.
    I think a great many people in this country, including this 
member, had problems with that as an excuse for not proceeding, 
really, with a focus on individual human rights.
    What would you, or any other panel members, like to say 
about this subject? I do think we have to be careful that we do 
not say, this is a prescription. This is the American way to do 
it and, therefore, try to apply that exclusively.
    Mr. Alford. Thank you very much.
    When I made my comment, it was about a variety of ways that 
free societies strive to attain our shared objectives of 
democracy, human rights, rule of law. So, in that sense, I was 
not referencing the Asian values/universal norm debate, some of 
which I feel has been put to the disservice of Asian values, 
which include freedom.
    What I meant, was simply to avoid the binary situation that 
has characterized some legal assistance projects, where we in 
effect say to the Chinese, you have two choices. You can either 
be where you are today, or you should be exactly like us.
    It strikes me that, if we begin to help portray a broader 
panorama of possibilities, how the British do it, how the 
French do it, how the Japanese do it, how people in Taiwan do 
it, I think we give the Chinese a broader set of choices that 
would still improve markedly where China is today.
    For example, our mode of administrative law, wonderful 
though it may be, is not shared by many Europeans. They can 
effectively foster transparency and government responsibility 
in a different way. So, my simple point was to give the Chinese 
a broader panorama of possibilities from free societies.
    Representative Bereuter. And what would any of you say 
about the Chinese Government's officials' focus on the 
collective versus the individual?
    Mr. Xiao. Mr. Chairman, I believe in my testimony I 
mentioned quite a few issues, composed of 80 percent of the 
Chinese population, or millions of people every year are being 
discriminated against. That is collective, their rights being 
suppressed.
    I am in exile, but I am still a Chinese national--I believe 
all my fellow countrymen deserve and demand the same basic 
human dignity and rights as the American people, as people in 
Taiwan, as people in Africa, and everywhere else. Asia values 
versus human dignity or human rights never stands, in my life 
experience and instinct, for a minute.
    Mr. Jendrzejczyk. I think there is the enormous 
generational change in China. From my conversations with both 
party bureaucrats and students, it is eroding that distinction, 
that very false distinction. I think, over the next two 
generations, we are going to see an end to this stress 
currently, which of course is party ideology, on the collective 
versus the individual.
    The two will be seen as mutually enforcing and not one 
canceling out or taking priority over the other. But I think 
the generational change already under way, and Xiao Qiang is a 
great example of this, I think is beginning to do that already.
    Representative Bereuter. Thank you.
    Mr. Feinerman.
    Mr. Feinerman. I would just say that I think that the Asian 
values thing is made much of by people who are usually 
apologists for repressive regimes. A boot in the face is a boot 
in the face, whether you are an Asian or a Caucasian. But I 
think a larger point that I think we need to underscore, and I 
appreciate Professor Alford's comments about not making this 
United States values or Chinese values, but maybe we should 
stress more about Chinese values.
    China is a signatory, for example, to the international 
covenants. They have made certain undertakings as a result of 
that. They have ratified one, and will the other. Likewise, 
their own law, their own constitution contains extensive 
guarantees of rights. Some of them are coupled with problematic 
duties, but nonetheless, if China lived up to the promises that 
it makes in its own domestic legislation, it would be a human 
rights paradise.
    Representative Bereuter. I think that is an important focus 
for us. Thank you all for your response.
    My time has nearly expired. Before we see if any other 
members have a question or a concluding comment for today's 
hearing, I would like to turn to you, Professor Feinerman, if 
there is anything you want to say in light of what I previously 
promised you.
    Mr. Feinerman. I appreciate the heat that certain comments, 
particularly taken out of context, may sometimes generate.
    As a Catholic, I know in Catholic theology that there is a 
distinction made between what is known as vincible and 
invincible ignorance. You can persuade some people of some 
things, and other things you just have to walk away from 
because deeply-held principles are not going to be swayed.
    But I do want to stress that, as a lawyer and a law 
professor, I understand the dictates of U.S. law and I support 
our policy to exclude prison labor-produced goods from this 
country.
    Perhaps I was trying to make, in that piece that was quoted 
by Congressman Wolf, a subtler point, that law and legality can 
sometimes exist side by side with a certain degree of 
hypocrisy.
    Just as I believe it is hypocritical of people to condemn 
China for using the death penalty when their own jurisdiction 
may also employ it, I believe it is also hypocritical, in cases 
where there are legitimate legal means that may be otherwise 
employed to exercise control over our own borders with respect 
to imports, that would make it hypocritical at the same time to 
say we only want for market in our economies prison goods 
produced from certain prisons.
    If there is a problem with prison labor, it may be a more 
universal problem. Although I do take the point that was made 
by both Congressman Wolf and Congresswoman Pelosi, that the 
conditions in prisons are different and may have a significant 
impact on the choices we make.
    Representative Bereuter. Thank you very much.
    Since we are down to two additional commissioners, I think 
it is about time to adjourn. But I would call on either of my 
two colleagues who might have a concluding question or remark.
    Representative Levin. This has been a wonderful hearing. I 
do think we need to talk more about comparabilities, because I 
think there really is not any in this case in terms of prison 
labor.
    But you have been terrific, Professor Feinerman and the 
rest of you. We probably should have ended a few minutes ago, 
when Xiao Qiang talked about all of the aspirations of the 
people in China and the notion that, when it comes to freedom, 
there really is not--and Mr. Bereuter's question sparked this--
Asian freedom, or American freedom, or European freedom. I do 
think there are some basic principles here. The purpose of this 
Commission is to promote them actively.
    Speaking for, I think, the two of us, Mr. Bereuter, we are 
determined, with our colleagues in this rare Executive 
Congressional Commission, to carry out this charge. We are 
determined to do just that.
    Representative Bereuter. Sandy, we are, indeed. I want to 
very sincerely express our appreciation to the first of many, 
hopefully, distinguished panels that we have before the 
Commission.
    I appreciate the fact that you have devoted your time this 
afternoon, and all the experience that you have brought to the 
table to help us today. It is a very good start for the 
Commission. With that said, the first hearing of the Commission 
is hereby adjourned.
    [Whereupon, at 4:48 p.m., the hearing was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                    Prepared Statement of Xiao Qiang

             Human Rights in the Context of the Rule of Law

                            february 7, 2002
                            i. introduction
    Founded in March 1989 by Chinese scientists and scholars, HRIC is 
an international non-governmental organization dedicated to the 
promotion of universally recognized human rights and the advancement of 
the institutional protections of these rights in China. Based in New 
York, with a Hong Kong office established in 1996, and a EU/UN liaison 
based in Paris, HRIC's board and staff include prominent human rights 
advocates, China scholars, and Chinese political exiles.
    Through its extensive network among human rights activists inside 
China, and its education, advocacy, and cutting-edge research programs, 
HRIC addresses one of the most significant and complex challenges 
facing the international human rights movement today: how to promote 
human rights in an emerging economic, military, and political major 
power. The geo-political reconfigurations of the world since September 
11 make it clear that China is pivotal to the region and the world-and 
also emphasize the difficulties in raising human rights concerns 
internationally.
    The Congressional-Executive Commission can play a key role in 
ensuring that human rights concerns remain on the table. Both the 
Chinese and American people share important values and aspirations for 
human dignity and freedom. Both nations are facing great challenges and 
responsibilities for promoting human rights, ensuring domestic and 
global peace, and sustaining development.
    For today's hearing, ``Human Rights in the Context of the Rule of 
Law,'' I would like to make four points about the human rights 
situation in China, and conclude by suggesting five recommendations.
                    ii. key human rights challenges
A. Rule by law is not rule of law: Using law to suppress citizens' 
        fundamental rights of association, freedom of expression, and 
        religion
    There is a crucial distinction between ``Rule of law'' and ``Rule 
by law''. Chinese leadership has repeatedly reiterated its policy of 
``Yifa Zhiguo'' ruling the country according to law. However, when 
there is no real democratic and representative legislative process and 
no judiciary independent from the party and state, law often becomes a 
tool that suppresses rather than protects the fundamental rights of 
Chinese people, including the rights to association, freedom of 
expression, and religion. For example, law is often used to crack down 
on peaceful political activism, Falun Gong practitioners, and labor 
organizers, as well as peaceful advocates for Tibetan and Xinjiang 
self-determination. Too often, those trying to exercise these 
fundamental rights are accused of ``endangering State security'', an 
ambiguous charge that allows overarching flexibility in silencing 
voices of dissent. In addition, recent years have seen the 
implementation of extensive regulations to censor and control the 
Internet, China's virtual public space. In the limited time today, I 
will focus on those people whose fundamental rights have been stripped 
by the Chinese government.
    <bullet>  Political Dissidents in China: Prisoners of Conscience--
HRIC has closely followed the Chinese government's shift of recent 
years toward using ``state security'' as a rationale for the 
suppression of dissent. This concept has culminated in the replacement 
of the accusation of ``counter-revolution'' with that of ``endangering 
State security'' in the newly revised Criminal Code. However, the term 
``state security,'' and what constitutes harm to it, is wrought with 
ambiguities in the Chinese legal system. Too often, this concept of 
State security is used to justify violations of basic rights, including 
the peaceful freedom of expression, association and assembly, and 
practice of religion. HRIC is concerned that the charge of 
``endangering State security'' has broadened the capacity of the State 
to curtail the peaceful exercise of fundamental rights. The fact that 
over 2,000 ``counter-revolutionary'' prisoners (according to official 
statistics) have not had their convictions reviewed after the revision 
of the Criminal Code underscores this abuse. Political activists of the 
China Democracy Party have been given heavy sentences under the State 
Security Law. For example, Xu Wenli, Qing Yongmin, Wang Youcai were 
sentenced to 13, 12, and 11 years respectively in 1998.
    <bullet>  June Fourth Victims--Mr. Chairman, almost 13 years after 
the June 4th Massacre and subsequent repression throughout China, more 
than a hundred Chinese citizens remain in prison for participating in 
the peaceful protests of 1989. We have names of 158 individuals for the 
city of Beijing alone (supporting documentation). Over 50 of these 
political prisoners are held in Beijing No. 2 Prison and are serving 
sentences of 15 years to life. Their only crime consisted of promoting 
democracy and respect for human rights. Yet these people were charged 
with criminal offenses and convicted of subversion of the State in 
patently unfair trials. Furthermore, for compiling this list of 
political prisoners and making it public, Beijing student Li Hal was 
found guilty of ``prying into and gathering'' ``state secrets,'' and 
sentenced in 1996 to 9 years' imprisonment. Even commemorating those 
who participated in the Tiananmen Movement is a crime against the 
state. On December 26, 2000, after more than a year and a half in 
incommunicado detention, Jiang Qisheng was sentenced to 4 years in 
prison for circulating an open letter suggesting citizens engage in 
peaceful activities to commemorate the tenth anniversary of the June 
Fourth Massacre, such as lighting candles at home.
B. Institutionalized discrimination: Using law to discriminate against 
        rural residents, migrants, and ethnic minorities
    In HRIC's NGO shadow report to the U.N. Committee on the 
Elimination of Racial Discrimination (CERD), HRIC pointed out on the 
discriminatory effect of PRC laws and policies on three main 
overlapping groups: rural residents, that is people with rural 
household registration or hukou, comprising 63.91 percent of the 
population; internal rural-to-urban migrants, part of a vast ``floating 
population'' estimated to range anywhere from 40 million to 120 
million; and national minorities, making up 106.43 million persons or 
8.41 percent of the population. Together these three groups constitute 
the vast majority of the PRC's population. The hukou system has created 
a system that gives the urban population privileged access to 
education, housing, economic opportunities and political participation. 
This hukou system thus violates the rights of rural residents and 
migrants to equal enjoyment and exercise of their human rights and 
fundamental freedoms. The failure of the PRC government to provide 
equal access and treatment in political, economic, social, cultural and 
other fields of public life has created an apartheid-like system that 
threatens to undermine the security, stability and fairness of the 
PRC's modernization and reform efforts.
C. Ineffective implementation and lack of accountability: The 
        persistent gap between law on the books and law in practice
    Two examples stand out in the persistent gap between law on the 
books and law in practice: the lack of accountability for the June 
Fourth Massacre and the Revision of the Criminal Procedure Law.
    <bullet>  Criminal Procedure Law (CPL)--China's National People's 
Congress has revised the Criminal Procedure Law (CPL), effective on 
January 1, 1997. CPL provisions aimed at safeguarding rights have 
either been watered down by interpretative rules issued by law 
enforcement agencies, or violated outright without the authors of the 
violations suffering any consequences. Loopholes and ambiguities in the 
CPL have been exploited to the full by law enforcement authorities. In 
certain areas, the new CPL has actually resulted in greater limitations 
of key rights, such as regarding defense lawyers' access to prosecution 
evidence.
    HRIC published a report, ``Empty Promises: Human Rights Protections 
and China's Criminal Procedure Law in Practice'' (March 2001). The 
report focuses on the Chinese Communist Party (CCP) control of the 
judiciary, the role of lawyers, pretrial detention, use of illegal 
evidence, discriminatory application of the law and assessment of these 
issues in terms of international human rights standards in 2001. The 
full 90-page report (in English) is attached for the Commission to our 
submission.
    <bullet>  Tiananmen Mothers Campaign--Patterns of rights violations 
show that impunity and lack of accountability are a principal cause of 
human rights abuses in China. Mechanisms to hold officials accountable 
are deficient or non-existent. Controls on freedom of expression and 
association make it very difficult for people to expose abuses by 
officials and to achieve accountability.
    For example, the crime committed against unarmed demonstrators in 
Beijing on June 4, 1989, remains uninvestigated and unpunished, despite 
the brave efforts of the victims' families acting under the banner of 
the Tiananmen Mothers. Hundreds of Chinese citizens remain in prison 
for participating in that year's peaceful protests. In June 1999, the 
victims' families asked China's Supreme People's Procuratorate to 
initiate a criminal investigation in order to determine the legal 
responsibility of the perpetrators. They submitted evidence consisting 
of testimonies from 24 victims' families and three people who were 
injured, and a list of the 155 known dead and the 67 known injured. To 
date they have received no reply. These families are subjected to 
constant harassment, from brief detentions and house arrest to 
surveillance and the confiscation of humanitarian funds sent from 
abroad.
D. Arbitrary nature of the system: Administrative detention
    The improvement of the legal system will do nothing to improve 
conditions in the wide range of punishment institutions that operate 
outside the legal system, and in which large numbers of people are 
incarcerated. These include the system of ``custody and repatriation'' 
(C&R) under which ``undesirables'' of all types, including women and 
children, are detained without trial, occasionally for periods as long 
as a year or more, and then shipped back to their home towns and 
villages; the system by which individuals can be sentenced by police or 
work-unit security personnel to 3-year sentences of ``re-education 
through labor'' (RTL) in camps; the system of psychiatric hospitals, 
known as the Ankang, run by the Ministry of Public Security; and a host 
of other institutions, such as establishments for forced drug addiction 
treatment and for rehabilitation of prostitutes and clients, ``welfare 
homes'' for the detention of elderly dissident clerics, and unit-level 
detention facilities set up entirely outside existing regulatory 
structures by local governments, institutions, and companies. The scale 
of such administrative detentions is vast.
    Custody and repatriation: In 1996, at a Ministry of Civil affairs 
conference on C&R, it was announced that across the country more than 
one million ``vagrant beggars'' were taken into custody every year, as 
well as upwards of 100,000 indigent children, and that over 600,000 
persons were ``repatriated'' or ``assisted in returning home''--a total 
of 1.7 million detainees in C&R facilities alone in that year.
    Reeducation Through Labor: According to China's official figures, 
230,000 people are currently held under RTL, as compared with around 
150,000 in the early 1990's. RTL applies to people believed to be 
responsible of acts ``too minor'' to merit formal prosecution and is 
ordered by the public security departments alone, without any judicial 
review. RTL detainees do not have the right to counsel, the right to a 
hearing or the right to have the lawfulness of their detention reviewed 
by a judicial authority. Although its maximum duration is 3 years, it 
can be renewed for up to one more year if the detainee is believed to 
have performed badly in his or her ``reform.'' It is frequently used to 
detain Chinese people who have peacefully exercised their rights to 
freedom of thought, religion, expression and association. However, we 
believe that this measure is arbitrary under the definition put forward 
in the judgment of the U.N. Working Group on Arbitrary Detention, and 
thus should not be applied to any detainees, regardless of the reason 
for which they are sent to RTL.
                          iii. recommendations
    1. The Commission should urge the Chinese authorities to proceed 
with a comprehensive review of the convictions and sentences of all 
those imprisoned for alleged ``counterrevolutionary'' crimes, 
especially in light of the revisions to the Chinese Criminal Procedure 
Law that eliminated this category of crime. The Commission should also 
urge the Chinese authorities to unconditionally release all prisoners 
of conscience.
    2. The upcoming visit of President Bush to China provides an 
important opportunity to publicly raise human rights concerns. 
Congressional members should urge President Bush to press for the 
release of political prisoners in a significant way and to publicly 
raise human rights issues such as the crack-down on freedom of 
expression, and the discriminatory treatment of China's rural and 
ethnic minority populations, and to engage the Chinese leadership in 
serious substantive discussions about these issues.
    3. In monitoring the protection of freedom of expression and 
information in China, we urge the Commission to pay particular 
attention to the increasingly restrictive Internet regulation and 
surveillance by Chinese authorities, especially as these regulations 
interface with China's WTO accession obligations.
    4. On multilateral initiatives, we urge the U.S. government to 
immediately announce and lobby for a United Nations resolution 
expressing concern about the human rights situation in China.
    5. We urge the Commission to develop and announce benchmarks for 
human rights compliance and rule of law developments over the next 7 
years leading up to the Olympics. For example, benchmarks regarding 
steps taken toward ending political imprisonment, abolishing 
reeducation Through Labor, and the hukou system.
    Thank you, Mr. Chairman.
     human rights in china: supporting documentation and materials
1. HRIC List of Urgent Cases of Political Prisoners (February 6, 2002)
2. Announcement of the Tiananmen Mother's Campaign (July 27, 2000)
3. HRIC Report: ``Empty Promises: Human Rights Protections and China's 
        Criminal Procedure Law in Practice'' (March 2001)
4. HRIC Report: ``Reeducation Through Labor (RTL): A Summary of 
        Regulatory Issues and Concerns'' (February 2001)
5. HRIC Report: ``Not Welcome at the Party: Behind the ``Clean-Up'' of 
        China's Cities--a Report on Administrative Detention Under 
        Custody and Repatriation Centers'' (September 1999)
6. ``Promoting Human Rights in China: Report of the China Human Rights 
        Strategy Group'' sponsored by the Open Society Institute and 
        Human Rights in China (November 2001)
7. ``Implementation of the international Convention on the Elimination 
        of all Forms of Racial Discrimination in the People's Republic 
        of China: A Report by Human Rights in China'' (July 2001)
                                 ______
                                 

                Prepared Statement of Mike Jendrzejczyk

                            february 7, 2002
    Thank you, Senator Baucus and Representative Bereuter, for inviting 
us to testify at the first public hearing of the Congressional-
Executive Commission on China. The timing of today's hearing makes it 
particularly important and useful--exactly 2 weeks before President 
Bush's first official visit to Beijing on February 21-22.
    I would like to begin by offering some specific recommendations to 
the Commission, and then I will outline major human rights and rule of 
law concerns in China, based on Human Rights Watch's documentation of 
abuses in China and Tibet over the past year.
    I realize that the Commission's mandate, under the PNTR (Permanent 
Normal Trade Relations) bill establishing the body, is quite broad. The 
Commission is charged with monitoring China's compliance with the 
rights contained in the International Covenant on Civil and Political 
Rights (ICCPR) and the Universal Declaration of Human Rights, as well 
as the development of the rule of law in China.
    But to be effective, I believe the Commission should focus its 
work--especially this first year of its active involvement--in some 
strategic areas. These should include, for example, the release of 
political and religious prisoners; greater cooperation with U.N. human 
rights mechanisms and adherence to U.N. human rights treaties; and 
increased access by human rights monitors. Over the longer term, other 
issues should also be considered, such as freedom of expression and 
restrictions on the Internet (see below for details), and ways to 
creatively use the 2008 Olympics in Beijing as a catalyst for human 
rights improvements. These could be topics for future Commission 
hearings.
    I hope the Commission's initial report to the President and the 
Congress, originally due last October, will be issued early this spring 
and, at a minimum, will highlight some of the Commission's key concerns 
and make some policy recommendations for both the Executive and 
Congressional branches.
    I would also urge the Commission to seek to post one of its 
professional staff members at the U.S. embassy in Beijing, in order to 
facilitate and expand upon the research activities of the Washington-
based staffed. This suggestion was contained in a letter sent to the 
Commission last September by several NGO's, including Human Rights 
Watch; we also discussed it with the U.S. Ambassador to China, Clark 
Randt, during one of his recent visits to the U.S.
                    recommendations for u.s. policy
(1) President Bush's China visit
    The significance and symbolic value of the president's visit to 
Beijing--exactly thirty years after President Nixon's historic visit, 
and shortly after China has joined the World Trade Organization--
provides some real leverage. It should be used to press for significant 
steps to improve human rights.
    We welcomed the release last month of Ngawang Choepel, a Tibetan 
musicologist and former Fulbright scholar who was serving an 18-year 
prison sentence on espionage charges. Whether or not his release on 
medical grounds was in any way related to the forthcoming Presidential 
visit, it seems to indicate that even at a time of political transition 
in Beijing, China's leaders are anxious to maintain good relations with 
the U.S. Ngawang Choepel's case received sustained, high level 
attention from both the Clinton and Bush administrations and, perhaps 
most significantly, from many Members of Congress. Active concern by 
Congress was clearly a major factor in bringing about his release. I 
think his release also illustrates that pressure can work. And it is 
precisely this kind of pressure--generated through both private and 
public diplomacy--that the Commission should seek to exert, in the lead 
up to the president's visit and in the weeks and months to come.
    I certainly hope that there will be many more releases of political 
dissidents, religious activists, Tibetans activists and others. Further 
releases may even be announced before the president's trip.
    However, the administration and Congress should also press for more 
far-reaching steps. This is one area where the Commission and its 
individual members can be particularly helpful. First, I would urge 
some members of the Commission to offer to travel to Beijing with the 
president, in order to hold bilateral discussions with senior officials 
in key ministries, such as the Bureau of Religious Affairs, Ministry of 
Foreign Affairs, the Labor Ministry, and others; to introduce the 
Commission and its mandate to the Chinese leadership; and perhaps to 
explore establishing a framework for talks with members of the National 
People's Congress (NPC) on human rights and rule of law concerns.
    Secondly, I hope the Commission will write to China's leaders in 
advance of Bush's visit, then follow up with private contacts with 
Chinese officials by individual Congressional members. Such a letter 
might, for example, urge China not only to release large numbers of 
political prisoners but also to submit the ICCPR to the NPC for 
ratification as soon as possible; to invite the U.N. Special Rapporteur 
on Religious Freedom to conduct a return visit to China and Tibet this 
year to assess any progress made in implementing the recommendations 
resulting from his November 1994 visit; to agree to the terms of the 
new U.N. Special Rapporteur on Torture and Ill-Treatment for a visit; 
and to open up Xinjiang, the far northwestern province of China, to 
regular, unrestricted access by U.N. and private human rights monitors.
    The situation in Xinjiang deserves special attention in light of 
the widespread and systematic human rights violations against ethnic 
Uighurs, including many involved in non-violent political, religious 
and cultural activities. China has tried to justify its broad denial of 
basic freedoms in Xinjiang on counter-terrorism grounds; but Chinese 
authorities have failed to discriminate between peaceful and violent 
dissent in their fight against ``separatism'' and ``religious 
extremism.'' (More details on the situation in Xinjiang follow in the 
next section of my testimony.)
(2) U.N. Commission on Human Rights
    The annual session of the U.N. Commission on Human Rights will 
begin in Geneva on March 16. Although the U.S. does not have a seat on 
the Commission this year, it can propose and promote resolutions. The 
administration, to my knowledge, has yet to formally decide whether to 
pursue a China resolution and to identify a possible sponsor, although 
the State Department has begun informal consultations with the European 
Union and others about the agenda for Geneva.
    I urge the Commission to use its influence with the executive 
branch to reiterate the strong concerns of Members of Congress in both 
houses that China should be held accountable for its international 
human rights obligations in the highest U.N. body charged with 
monitoring compliance. Whether or not a resolution is ultimately 
passed, the multilateral pressure exerted by a serious Geneva campaign 
gives China's leaders an incentive to make progress on human rights, 
and to cooperate with U.N. human rights mechanisms, in order to avoid 
the loss of face that U.N. censure would entail.
    The State Department's annual human rights country report is due to 
be delivered to Congress on February 25, soon after President Bush's 
Beijing visit. I expect the report will make it apparent that based on 
the overall record of China's human rights performance, action in 
Geneva is warranted.
    If a China resolution is introduced, I hope that the Congressional-
Executive Commission and its members will work with the State 
Department to urge other governments to support a resolution and to 
oppose any ``no action'' motion by China to prevent it from coming up 
for debate and vote in April.
(3) Labor Rights
    Protection of internationally recognized worker rights is an 
explicit part of this Commission's agenda, referred to in the PNTR 
bill, and yet the issue has not received adequate attention in U.S.-
China relations.
    With China's entry into the WTO, increasing unrest among laid off 
and unemployed workers is expected. Despite some changes in the Chinese 
labor law adopted last October, there has been little progress toward 
allowing rights of free association for Chinese workers as recommended 
by the International Labor Organization (ILO). All attempts to organize 
independent trade unions are considered illegal, and free trade union 
organizers are often detained and arrested.
    The ILO has offered to send a mission to Beijing to discuss China's 
obligations, as an ILO member, to respect workers' right of free 
association. The Commission should consider developing a strategy to 
encourage China's cooperation with the ILO on this core international 
standard. Last May, the ILO signed an agreement in Beijing to cooperate 
on the creation of social safety net programs, job retraining and other 
issues. But freedom of association was not addressed in the agreement.
    The Commission could also help by scheduling a hearing to examine 
the human rights implications of China's WTO membership, especially 
with regard to workers' and migrants' rights. It should also recommend 
that Elaine Chao, the U.S. Secretary of Labor, arrange to go to China 
later this year to begin a high-level dialog on core ILO standards, as 
well as to offer U.S. assistance with social safety net and worker 
health and safety programs. Her predecessor was formally invited to 
visit China by the Chinese labor minister when he came to Washington in 
March 1999.
    As the administration develops programs to enhance rule of law, 
human rights and democracy in China with the funds provided by Congress 
this fiscal year--approximately $10 million all together--the Labor and 
State Department and Congressional members of this Commission should 
meet to discuss ways of constructively addressing reform of China's 
labor laws.
                   human rights developments in 2001
    The Chinese leadership's preoccupation with stability in the face 
of continued economic and social upheaval fueled an increase in human 
rights violations in 2001. China's increasingly prominent international 
profile, symbolized by its entry into the World Trade Organization 
(WTO) and by Beijing's successful bid to host the 2008 Olympics, was 
accompanied by tightened controls on fundamental freedoms. The 
leadership turned to trusted tools, limiting free expression by 
arresting academics, closing newspapers and magazines, and strictly 
controlling Internet content. It utilized a refurbished ``Strike Hard'' 
anti-crime campaign to circumvent legal safeguards for criminal 
suspects and alleged separatists, terrorists, and so-called religious 
extremists. In its campaign to eradicate Falun Gong, Chinese officials 
imprisoned thousands of practitioners and used torture and 
psychological pressure to force recantations. Today, we are releasing a 
major new report, ``Dangerous Meditation: China's Campaign Against 
Falun Gong,'' documenting the crackdown. (Copies are available for 
Commission members.)
Freedom of Expression
    Starting in late 2000, authorities began tightening existing 
restrictions on the circulation of information, limiting the space 
available to academics, journalists, writers and Internet users. 
Attacks on academic researchers may have been partly a response to the 
January 2001 publication of the Tiananmen Papers, a collection of 
government documents spirited out of China which described in detail 
the role played by Chinese leaders at the time of the historic June 
1989 crackdown.
    In December 2000, Guangdong's publicity bureau told newspapers and 
journals not to publish articles by 11 prominent scholars. In June 
2001, one of those named, economist He Qinglian, fled China after 
Chinese security agents seized documents, letters, her cell phone, and 
photos of America friends. Although her 1998 book, China's Pitfalls, 
had been widely praised by the Communist leadership for its expose of 
corruption, she later angered authorities when she publicized the 
widening income gap in the country. Before she fled, the propaganda 
department of the Chinese Communist Party banned publication of her 
works; she lost her reporting job at the Shenzhen Legal Daily; and was 
subject to round-the-clock-surveillance. In May, after the Yancheng 
Evening News published an interview with Ms. He, Chinese authorities 
ordered top staff to submit self-criticisms.
    Between February and September, four Chinese academics who were 
either naturalized U.S. citizens or permanent U.S. residents were 
arrested and tried on charges of spying for Taiwan. Dr. Gao Zhan, a 
scholar at American University in Washington, sentenced to 10 years' 
imprisonment, was permitted to return to the U.S. within days after the 
conclusion of her trial; Qin Guangguang, a former editor and scholar, 
was granted medical parole and returned to the U.S. immediately after 
being sentenced to a 10-year term; journalist and writer Wu Jianmin was 
expelled following his trial in September; and Dr. Li Shaomin, a 
naturalized U.S. citizen teaching in Hong Kong, was deported in July 
after a 4-hour trial. Sichuan native Xu Zerong, a Hong Kong resident 
since 1987, detained in June 2000, was put on trial on charges of 
illegally supplying State secrets and sentenced to 13 years in prison 
in late January 2002, according to his family.
    Scholars were also affected when the Chinese Academy of Social 
Sciences rescinded invitations to foreign and Taiwan scholars to 
participate in an August 2001 conference on income disparities. In 
November 2000, authorities canceled an officially sponsored poets' 
meeting in Guangxi province after it became known that dissident poets, 
some of whom helped underground colleagues publish, were expected to 
attend. Three organizers were detained. In May, police in Hunan 
province raided a political reading club that had attracted teachers 
and intellectuals, and detained several participants including the 
founder.
    Restrictions on information flows also affected HIV-AIDS research 
and reporting. In May, Beijing prohibited Dr. Gao Yaojie, who had 
helped publicize the role of unsanitary blood collection stations in 
the spread of the disease, from traveling to the U.S. to receive an 
award. Earlier, Henan health officials had accused her of being used by 
``anti-Chinese forces;'' local officials, who often profited from the 
sale of blood, had warned her not to speak out. In July, village cadres 
refused to allow her to enter their AIDS-ridden villages.
    Media regulations were also tightened. In November, the Communist 
Party's top publicity official signaled a new policy when he told a 
meeting of journalists that ``the broad masses of journalists must be 
in strict agreement with the central committee with President Jiang 
Zemin at its core,'' a warning repeated in January by Jiang himself. 
The same month, a Party Central Propaganda Department internal circular 
warned that any newspaper, television channel, or radio station would 
be closed if it acted independently to publish stories on sensitive or 
taboo topics such as domestic politics, national unity, or social 
stability. The regulations instituted a new warning system; after three 
citations, a media outlet was subject to closure.
    By June, the Party had instituted a stricter regime. A decree 
expanded taboo content to include speculation on leadership changes, 
calls for political reforms, criticism of Party policies including 
those related to ethnic minorities or religion, and rejection of the 
guiding role of Marxism-Leninism and Mao-Deng theories, among many 
other categories. The decree forbade independent reporting on major 
corruption scandals, major criminal cases, and human and natural 
disasters and threatened immediate shutdown for violators. The 
government also ordered a nationwide campaign to educate journalists in 
``Marxist news ideology.''
    In the immediate aftermath of the September 11 attacks in New York 
and Washington, the Chinese Communist Party's Central Committee 
Propaganda Department ordered news media to refrain from playing up the 
incident, relaying foreign news photos or reports, holding forums, 
publishing news commentaries without permission, or taking sides. 
Chinese youth had welcomed the attacks on Internet postings and 
officials said the restrictions were needed to prevent damage to U.S.-
China relations.
    Authorities routinely prohibited the domestic press from reporting 
on incidents it considered damaging to China's image, but permitted 
exposes when it suited the government's purposes. On September 8, 2001, 
former Xinhua reporter Gao Xinrong, sentenced to a thirteen-year term 
in 1998 for exposing corruption associated with an irrigation project 
in Shanxi province, wrote U.N. High Commissioner for Human Rights Mary 
Robinson asking that she intercede on his behalf after appeals in China 
were unsuccessful. Similarly, Jiang Weiping, a Dalian, Liaoning 
province journalist, who also exposed corruption, was arrested in 
December 2000 and tried in September 2001 on charges of ``leaking State 
secrets.'' He received a 9-year sentence. After a military truck blew 
up in Xinjiang in November 2000, three journalists at two newspapers 
were punished for ``violat[ing] news discipline and reveal[ing] a lot 
of detailed information'' before Xinhua, the official news agency, 
printed the official line on the incident. News media in China are 
required to use Xinhua reports on any stories that local or central 
propaganda authorities deem sensitive. In June, Yao Xiaohong, head of 
news for Dushi Consumer Daily in Jiangxi province, was dismissed after 
reporting an illegal kidney transplant from an executed prisoner. In 
October, under pressure from central government publicity authorities, 
he was fired from his new job at the Yangcheng Evening News in 
Guangdong province.
    Chinese authorities, however, did not always succeed in silencing 
the press. In March, after Chinese authorities insisted that a mentally 
ill man had caused an elementary school blast that killed over forty 
youngsters and teachers in Jiangxi province, the domestic press and 
Internet sites stopped reporting that the children had been involved in 
the manufacture of firecrackers. After parents used the press and the 
Internet to establish the truth of what really happened, Premier Zhu 
Rongji, who had initially denied local accounts, was forced to renege.
    Chinese authorities moved against publications as well as 
individual journalists. In May, a magazine called Today's Celebrities 
was peremptorily closed for printing articles about corruption and the 
Cultural Revolution (1966-76). Employees had to stop the post office 
from delivering copies of the offending issue. In June, in a move to 
change its character, authorities replaced the acting editor and other 
editorial staff at Southern Weekend (Nanfang Zhoumuo), China's most 
outspoken news publication. The magazine had published a series of 
articles blaming the government for problems in rural areas, reported 
on the school explosion, and featured an in-depth discussion of 
President Jiang Zemin's ``three represents'' thesis. The latter has 
been promulgated as Jiang's important contribution to the theoretical 
underpinnings of communism in China. Officials also closed the Guangxi 
Business Daily, which had operated for 2 years as an independent, 
privately owned paper, when it refused to merge with the Guanxi Daily. 
In Jiangsu province, officials ordered the immediate suspension of the 
Business Morning Daily after it suggested that President Jiang's 
policies had advanced Shanghai's development at the expense of other 
cities.
    At the other extreme, when Beijing's interests coincided with 
independent press accounts, the government encouraged the reporting. 
Such was the case in July, when owners of the Nandan tin mine and local 
officials hindered accurate reporting of a flooding disaster at the 
site. They had been denying that the accident, which claimed close to 
100 lives, had occurred. Beijing has been trying to close down illegal 
mines and improve safety standards in others. In the Nandan case, local 
officials had ignored the violations because the mine contributed 
heavily to the county's coffers.
    The foreign press was also muzzled. In early March, after Time ran 
a story on Falun Gong, Beijing banned future newsstand sales of the 
magazine. In June, five security officers beat an Agence France-Presse 
reporter after he photographed a protestor outside a ``Three Tenors'' 
concert held to support Beijing's Olympic bid. In July, government 
officials in Beijing prohibited the U.S. CBS television network from 
transmitting video footage for a story about Falun Gong. Chinese 
authorities banned the October 29 issue of Newsweek when it ran a cover 
story on corruption. China International Television Corporation, which 
administers satellite broadcasting, informed foreign TV channels that 
as of January 1, 2002, they must transmit through a government 
``rebroadcast platform,'' a move making censorship of incoming 
broadcasts easier. China Central Television also reneged on a July 
agreement to air in full U.S. Secretary of State Colin Powell's Beijing 
interview. It cut one-fifth of his remarks, including those defending 
U.S. criticism of Beijing's human rights record.
Restrictions on the Internet
    Stringent regulations on rapidly growing Internet use came into 
effect in November 2000. New regulations required general portal sites 
to get their news solely from state-controlled media unless they had 
received special permission to post news from foreign media or from 
their own sources, required that bulletin board services and chatrooms 
limit postings to approved topics, and made monitoring of postings 
routine. A month later, Chinese authorities increased the number of 
Internet police to more than 300,000. In January 2001, a new regulation 
made it a capital crime to send ``secret'' or ``reactionary'' 
information over the Internet. In February, software called Internet 
Police 100, capable of ``capturing'' computer screens and ``casting'' 
them onto screens at local public security bureaus, was released in 
versions that could be installed in homes, cafes, and schools. The 
product was designed in part to keep ``unhealthy'' information such as 
cults, sex, and violence, off the Net. But even with some sixty sets of 
regulations in force, President Jiang in July decried the spread of 
``pernicious information'' over the Web and called the existing legal 
framework inadequate.
    By January 2002, the Ministry of Information and Technology had 
ordered service providers in ``sensitive and strategic areas'' to keep 
detailed records of who uses their services and at what times. 
Providers were also required to install software capable of screening 
and copying private e-mails with ``sensitive material,'' to end 
transmissions of such material immediately, and to report offenders to 
public and State security bureaus.
    Chinese regulations limited news postings on the websites of U.S.-
based companies operating in China. The English chatroom of SOHU.com, 
partly owned by Dow Jones, posted a list of issues prohibited on the 
Internet by Chinese law, including criticism of the Chinese 
constitution, topics which damage China's reputation, discussion that 
undermines China's religious policy, and ``any discussion and promotion 
of content which PRC laws prohibit.'' The posting continues: ``If you 
are a Chinese national and willingly choose to break these laws, 
SOHU.com is legally obligated to report you to the Public Security 
Bureau.'' An internal AOL memo recommended that if AOL were asked what 
it would do if the Chinese government demanded records relating to 
political dissidents, AOL staff should respond ``It is our policy to 
abide by the laws of the country in which we offer services.''
    In an attempt to control the proliferation of Internet cafes, 
Chinese officials stopped issuing new licenses while a clean-up 
operation to uncover evidence of banned sites or posting of subversive 
messages was underway. Beginning in April, public security departments 
checked more than 55,000 sites. Also in April, four State ministries 
and departments, including the Ministry of Information Industry, 
promulgated ``The Procedure for Managing Internet Service Business 
Sites.'' It bars cafes along a major Beijing thoroughfare and within 
200 meters of key central party, political, and military organs, and 
middle and elementary schools, and within residential buildings. In 
October, officials announced that more than 17,000 cafes had been 
closed.
    Internet bulletin boards, chat rooms, and online magazines, 
including university-based sites and those catering to journalists, 
were also closed. In June, Southern Weekend Forum, which allowed 
postings criticizing the firings at the Southern Weekend, was closed; 
Democracy and Human Rights Forum, produced by the website Xici Hutong 
was suspended for complaints about lack of press freedom. In August, 
two sites that criticized Jiang Zemin's stand on allowing private 
entrepreneurs to join the Party, the electronic magazine China Bulletin 
and the Tianya Zongheng forum were closed. Even People's Daily, the 
Party newspaper, was forced to remove a collection of articles by a 
Party member opposed to Jiang's initiative. In September, the State 
Council ordered the closure of Baiyun Huanghe, a bulletin board with 
30,000 registered users at the Huazhong University of Science and 
Technology in Wuhan, after students posted articles about events in 
Tiananmen Square in 1989. Once the bulletin board reopens, the 
university's Party committee will manage it. In mid-October, the 
Telecommunications Administration and Office of Information closed 
Zhejiang Media Forum, a bulletin board for journalists, and demoted the 
webmaster for leaking secrets, slandering leaders, and attacking 
government bodies.
    At least 16 people were arrested or sentenced in 2001 for using the 
Internet to send information or to express views that the leadership 
disliked. In March, a court in Sichuan province sentenced Jiang Shihua, 
a middle-school teacher, to a 2-year term for ``inciting the subversion 
of State political power.'' In April, Wang Sen, was detained for having 
exposed local trafficking in medicines; a Hebei province court 
sentenced Guo Qinghai, a bank employee, to a 4-year term for subversion 
for posting pro-democracy articles on a U.S. web site; and veteran 
activist Chi Shouzhu, who had printed out pro-democracy writings from a 
web site, was detained. In May, public security officers detained Hu 
Dalin for helping his father maintain websites featuring the latter's 
leftist writings, and Wang Jinbo for libeling the police (he received a 
4-year sentence in December on subversion charges.)
    Four intellectuals, Yang Zili, Xu Wei, Zhang Honghai, and Jin 
Haike, detained in March, were tried at the end of September on charges 
of subversion for organizing the Association for New Chinese Youth and 
publishing articles about political reform. To date, they have not been 
sentenced. Huang Qi, detained in June 2000 and tried in secret in 
August 2001 on subversion charges for featuring articles about 
democracy on his website, had not been sentenced as of January 2002.
Political activists
    Political dissidents continued to be persecuted. Two members of the 
banned China Democracy Party, Wang Zechen and Wang Wenjiang, were 
sentenced to six and 4-year terms respectively in December 2000. 
Dissident Jiang Qisheng, held since May 1999 and tried in November 
1999, was finally sentenced to a 4-year term at the end of December 
2000 for circulating a political essay calling for a candlelight 
commemoration and public mourning of those who died in the massacre in 
Beijing on June 3-4, 1989. Authorities also let it be known that 
interference with Beijing's Olympic bid would not be tolerated, 
sentencing activist Shan Chenfeng, who urged the International Olympic 
Committee to pressure China to release dissidents, to a 2-year 
administrative sentence in February. Shen Hongqi, a lawyer, received a 
3-year sentence for an article advocating reform of China's political 
system. Police in Inner Mongolia detained activists associated with the 
Southern Mongolian Democratic Alliance, which seeks to promote 
Mongolian traditions and cultural values, but which the government 
accuses of splittist activities. In May, Dalai, also known as Bai 
Xiaojun, was detained for promoting the coming celebration of the 
birthday of Genghis Khan; in June, police detained Altanbulag, a young 
musician, for distributing materials relating to human rights and 
ethnic problems in Inner Mongolia. Authorities also banned works by two 
young Mongolian poets and in October detained one, Unag, for several 
weeks.
Criminal Justice
    On April 3, 2001, President Jiang initiated a 3-month ``Strike 
Hard'' (yan da) anti-crime campaign. Stressing the need to safeguard 
social stability and the reform process, he asked that improvements in 
fighting crime be made with ``two tough hands.'' The following day, 
Xiao Yang, president of the Supreme People's Court, announced that 
China's court would abide strictly by the law during intensified 
efforts to punish criminal elements. The pledge has been honored more 
in the breach, as the campaign has featured hastily processed cases, 
denial of due process rights, summary trials, harsh sentences, mass 
sentencing rallies, and an upsurge in executions. In Shanghai, for 
example, judges were ordered to take less time to review evidence in 
the pre-trial phase. A Supreme Court circular on April 12 stipulated 
that courts should mete out severe punishments to offenders, stressed 
the need for courts to act rapidly, and noted that capital cases should 
be made irreversible through ironclad evidence. Although the 
prohibition against the use of torture was reinforced by Luo Gan, the 
Chinese Communist Party's chief law and order official, forced 
confessions under duress were officially acknowledged. The practice is 
illegal, but evidence obtained through torture is admissible in court. 
Li Kuisheng, a prominent lawyer in Zhengzhou, Henan, was finally 
cleared of all charges and released in January 2001. He had been 
arrested in November 1998 after defending a client fighting corruption 
charges, and under torture had ``confessed'' to fabricating evidence.
    Provinces and municipalities reported regularly on their compliance 
with the campaign. Their accounts included totals of those apprehended, 
sentenced, and executed, and information on the kinds of crimes 
committed. Capital sentences were imposed for some sixty offenses 
including, in addition to violent acts, economic crimes, drug 
trafficking, smuggling, arms dealing, racketeering, counterfeiting, 
poaching, pimping, robbery, and theft. During the first month of Strike 
Hard, some 10,000 people were arrested and at least five hundred 
executed. By the end of October, at least 1,800 people had been 
executed, at least double that number had received death sentences, and 
officials had announced they would continue the campaign at least 
through June 2002 with increased ``intensity.'' By September, China's 
deputy procurator general called for a ``strike always'' campaign. The 
elimination of prostitution and gambling, a crackdown on superstitious 
activities, and better management of migrants joined the list of 
targets. In July, the Public Security Ministry distributed cash awards 
amounting to 1.15 million renminbi (over U.S.$140,000) to departments 
in five provinces in recognition of their Strike Hard efforts. In 
January 2002, The Minister of Public Security warned the police not to 
relax their efforts but rather to step up the campaign.
    Despite the Strike Hard campaign, officials in some areas 
implicitly acknowledged unfairness in the criminal justice system. In 
October, Beijing courts began implementation of new rules on the 
presentation of evidence requiring that both sides present evidence in 
open court rather than to judges privately. In November 2000, Liaoning 
officials announced that prosecutions in some cities would be based on 
proof rather than confessions, thus guaranteeing suspects' right to 
remain silent during criminal interrogation. However, the following 
month, a senior National People's Congress member admitted that in many 
places forced confessions, extended detentions, and restrictions on the 
activities of attorneys for the defense were still problems. In 
January, the vice-president of the Supreme People's Court admitted to 
corruption within the legal system, including intentional errors of 
judgment, forged court papers, and bribe taking. In June, the Supreme 
People's Procuratorate issued six new regulations to prevent violations 
in the handling of cases and acknowledged Communist Party interference 
in sensitive cases. However, in August, in Luoyang, Henan province, 
judges who heard the cases of twenty-three defendants charged in a fire 
that killed 309 people said they would not release their findings until 
they had talked to provincial leaders.
    China's commitment to a rule of law is being severely tested in two 
cases involving businessmen, Fong Fuming, a U.S. citizen, and Liu 
Yaping, a permanent resident. Mr. Fong, an engineer and power industry 
consultant accused of bribery and obtaining State secrets, was held 
without trial from February 28, 2000 to October 22, 2001. Fong's 
indictment was dated September 24, 2001, but the defense did not learn 
of it until 2 weeks before trial. Although the U.S. Embassy was 
informed the trial would be open, Mr. Fong's son was turned away when 
he arrived at court. As of late January 2002, no verdict had been 
issued.
    Liu Yaping, held in Hohhot, Inner Mongolia, on charges of fraud and 
tax evasion since March 2001, has been denied proper medical treatment 
despite a life-threatening brain aneurysm. On August 7, he was 
``released pending trial,'' but instead of being free to move about the 
city as was expected, he was transferred to a hospital and kept under 
twenty-four hour guard until mid-January 2002 when he was released and 
informed he could go to Beijing for medical treatment. However, as of 
late January, he still had not received the documents, including his 
passport, that would make travel possible. During his months in 
custody, Mr. Liu has had only very limited to family members and to 
legal counsel. He has never been indicted.
Freedom of Religion and Belief
    China continued to crack down on groups it labeled cults and on 
religious expression practiced outside the aegis of official churches. 
Falun Gong continued to experience the harshest repression, with 
thousands of practitioners assigned to ``reeducation through labor'' 
camps and more than 350 imprisoned, many for nothing more than printing 
leaflets or recruiting followers for protests. Throughout the year, 
recalcitrant practitioners were subjected to stepped up physical abuse 
and psychological coercion. Unconfirmed but credible reports of 
practitioners dying in custody mounted. On June 11, the Supreme 
People's Court and the Supreme People's Procuratorate issued a new 
interpretation of cult provisions in the Criminal Law to make it easier 
to punish practitioners on a wide variety of charges. The 
interpretation made incitement to injure oneself a capital offense, and 
it increased punishments for self-immolation, leaking State secrets, 
subversion, separatist activities, small-scale ``assemblies,'' and 
small-scale publishing and distribution. There were reports in mid-
August of forty-five followers tried and at least five sentenced to 
terms of up to 13 years for offenses such as organizing the printing of 
leaflets and banners and recruiting followers for protests. In December 
2001, the Beijing police arrested 11 members of a ``criminal gang'' for 
spreading Falun Gong propaganda. Ten members were administratively 
sentenced to reeducation through labor; the eleventh is in custody.
    Authorities also targeted other so-called cults, among them 
Zhonggong, Xiang Gong, Guanyin Famin, Kuangmin Zhaimen, the Holy Spirit 
Reconstruction Church, Mentuhui, Nanfang Jiaohui, and the Local Church 
(also known as the Shouters), sentencing members and leaders, closing 
their offices, and seizing their publications. On January 28, 2002, a 
court in Fuqing, Fujian province, sentenced Lai Kwong-keung (Li 
Guangqiang in Mandarin), a Hong Kong resident, to 2 years' imprisonment 
for ``smuggling'' some 33,000 bibles to Local Church groups. The 
smuggled version was not one approved by Chinese religious officials. 
Yu Zhudi and Lin Xifu, from the mainland, received 3-year terms. After 
U.S. protests, the original charge, ``using an evil cult to damage a 
law-based society,'' was downgraded to running an ``illegal business 
operation,'' but each man was fined the equivalent of U.S.$18,000. A 
Local Church follower who organized songs and prayers in front of the 
courthouse also was detained until the trial concluded. Two other Local 
Church members from Anhui province have also been indicted on cult 
charges for proselytizing. After news broke in December that a Hubei 
province court had sentenced Gong Shengliang, leader of the Nanfang 
Jiaohui, to death on charges of ``premeditated assault,'' rape, 
hooliganism, and using an evil cult to damage society, sufficient 
international pressure succeeded in reducing the charges to death with 
a 2-year reprieve. Four other members also received death with 
reprieve. Such sentences are generally commuted to life imprisonment. 
It has been charged that several alleged rape victims were coerced into 
giving false testimony. A total of sixty-three members of the church 
have been charged. A court in Xiamen sentenced three mainland members 
of the Taiwan-based Holy Spirit Reconstruction Church to 7-year prison 
terms in January.
    A few weeks before Christmas 2000, hundreds of ``illegal'' 
Protestant and Catholic churches and Buddhist and Taoist temples and 
shrines in Wenzhou were demolished. In March and April, several dozen 
house church leaders in Hubei province were detained; in May, 12 others 
were administratively sentenced in Inner Mongolia and twenty-three 
others released after they paid fines amounting to approximately 
U.S.$25 each. The Chinese government also instituted a special study 
group to bring Christianity ``into line with socialism'' through 
reinterpretation of basic beliefs. As part of the movement, the study 
group is looking into local church publications considered incompatible 
with the new interpretations.
    The continuing government-ordered merger of Catholic dioceses, a 
move that went unrecognized by Rome, also signaled Beijing's 
determination to run the church in accord with its own needs. As a 
result of a student-teacher boycott of Chinese-controlled ordinations 
in early 2000, fewer seminarians were enrolled in the Chinese Catholic 
Theological and Philosophical seminary in Beijing. After political 
education sessions, some seminarians were dismissed or ordered to 
return to their dioceses. In October, after Pope John Paul expressed 
regrets for Catholic Church errors committed during the ``colonial 
period'' and expressed hope of normalized relations, Chinese religious 
officials responded by demanding that the Vatican first sever its ties 
with Taiwan, refrain from ``using the pretext of religious issues to 
meddle in Chinese internal affairs,'' and apologize for last year's 
canonization of ``foreign missionaries and their followers who 
committed notorious crimes in China.'' Detentions in 2001 included 
those of several elderly influential bishops and priests including 
Bishop Pei of Inner Mongolia, Bishop Li Hongye of Henan province, 
Father Feng Yunxiang in Fujian province, Father Liao Haiqing in Jiangxi 
province, and Bishop Shi Enxiang, Father Li Jianbo, and Father Lu 
Genjun from Hebei province.
Labor Rights
    Reports of clashes between police and workers and farmers 
protesting layoffs, unpaid wages and benefits, corruption, and 
relocation problems continued throughout the year. Details as to the 
course of the incidents and the outcomes differed markedly. In December 
2000, there were conflicting accounts of whether workers from a 
construction company in Heilongjiang were detained after some 2,000 of 
them blocked a railway line. One report of a dispute at the Guiyang 
Cotton Textile Factory in January 2001 said ten workers were 
hospitalized with injuries; local officials said the protests ended 
peacefully. In Changchun in September, either police or members of a 
private security force reportedly beat some one hundred distillery 
workers protesting the privatization of their company and lack of 
adequate compensation. Local authorities denied the allegations. In 
April police in Yuntang village, Jiangxi province arrested five 
villagers who had been leading a 3-year protest against new taxes, then 
stormed the village killing two unarmed protestors and injuring some 
thirty-eight others. In October, in Qingdao, Shandong province, one 
hundred police officers detained protestors demonstrating against the 
city's failure to honor its commitment to provide appropriate housing 
for residents forced to relocate to make way for a real estate project.
    Labor activists continued to be targeted. Hu Mingjun, Deng 
Yongliang, and Wang Shen were detained in May after helping steel 
workers in Sichuan province organize a protest to demand back wages. In 
one prominent case, Li Wangyang, imprisoned from 1989 to 2000 for his 
1989 participation in the Shaoyang Workers Autonomous Federation, was 
sentenced for subversion in September to a new 10-year term after 
petitioning for compensation for mistreatment suffered in prison. Li's 
sister, Li Wangling, received a 3-year administrative sentence on June 
7 for publicizing her brother's case.
    In October 2001, the Standing Committee of the National People's 
Congress Workers passed a revised Trade Union Law requiring enterprises 
with more than twenty-five workers to establish a union and prohibiting 
management personnel from holding important union positions. But only 
government-affiliated unions were mentioned in the law, and the right 
to strike was not guaranteed. In November 2000, a month after workers 
tried to form an independent union in a silk factory in Jiangsu 
province, Chinese authorities committed Cao Maobing, the union 
organizer, to a mental hospital. It took 210 days for him to be 
released.
Tibet
    China revised its overall Tibetan policy in June 2001, the fourth 
such change since it took command of the region in 1950. Goals for 
2001-2006 included accelerated economic development and tightened 
control over alleged ``secessionist'' activities. A semantic shift from 
``general stability'' to ``permanent rule and lasting peace'' (chang 
zhi jiu an) at the June forum may also have signaled Beijing's 
determination to strengthen direct control over Tibetan affairs. During 
a July visit, Vice-President Hu Jintao stated that it was ``essential 
to fight unequivocally against separatist activities by the Dalai 
clique and anti-China forces in the world.''
    Efforts to engage the Chinese leadership in a dialog with 
representatives of the Dalai Lama were unsuccessful in 2001. Following 
the Dalai Lama's criticism of Chinese policy during a speech to the 
European Parliament general assembly on October 24, the Foreign Affairs 
Committee of the National People's Congress reiterated the position 
that talks could take place only if the Dalai Lama renounced his 
``separatist stand,'' and openly acknowledged that Tibet was an 
inalienable part of China, Taiwan merely a province, and ``the 
government of the People's Republic of China the sole legitimate 
government representing the whole of China.''
    At the same time as Chinese officials refuted the Dalai Lama's 
accusations of cultural and religious extinction, they continued to 
suppress free expression, limit the growth of religious practice, and 
ensure that worship was consistent with socialism and patriotism. In 
February 2001, at the beginning of the Tibetan New Year, government 
workers, cadres, and school children were banned from attending prayer 
festivals at monasteries or from contributing to temples and 
monasteries. During Monlam Chemo, once a festival of great religious 
significance, monks at Lhasa's major monasteries were not permitted to 
leave their respective complexes, and government authorities banned 
certain rites. In June, in Lhasa, officials distributed circulars 
entitled ``Strengthening Abolition of the Illegal Activities of 
Trunglha Yarsol (the Dalai Lama's Birthday) and Protection of Social 
Stability.'' Police in the region then detained hundreds of Tibetans 
who burned incense, said prayers, or threw tsampa (roasted barley) into 
the air in defiance of the order.
    Larung Gar, a Tibetan monastic encampment near Serthar in Sichuan 
province, had come under virtual siege by Chinese authorities by mid-
2001. Central authorities had ordered the expulsion of all but 400 nuns 
and 1,000 monks out of an estimated population of 8,800 over concerns 
about the institution's alleged impact on social stability, and 
officials were determined to complete the downsizing quickly. As monks 
and nuns were forced out, many with no place to go, their meditation 
huts, most built at individual expense, were destroyed, as were shops, 
restaurants, and other structures. All teaching was suspended at Larung 
Gar, once a leading Buddhist studies center, and its leader, Khenpo 
Jigme, was moved to Chengdu, Sichuan's capital.
    Authorities continued to deny access to the Panchen Lama, the 
second most important figure in Tibetan Buddhism. The latest request, 
in October by Australia's deputy foreign minister, was denied on the 
grounds that Gendun Choekyi Nyima's parents want his and their privacy 
protected. The boy, now 12 years old, disappeared from public view in 
1995 after Beijing chose another child as the reincarnation. Chadrel 
Rinpoche, the senior lama who led the search, was still in prison. He 
was last seen in mid-May 1995 shortly before he was sentenced to a 6-
year prison term.
    In a further effort to ensure that the next generation of lamas 
would be beholden to Chinese authorities rather than to the Dalai Lama, 
in July, an 8-year old recognized as an incarnate lama by the 
Seventeenth Karmapa was forced take off his monastic robes, forego 
religious training, and attend a normal primary school. He is closely 
guarded at all times. The Karmapa, recognized by both Chinese 
authorities and the Dalai Lama, escaped to India in 2000.
    The Strike Hard campaign in Tibet had a decidedly political focus. 
At a May meeting in Lhasa, capital of the Tibet Autonomous Region 
(TAR), courts were ordered to forcefully carry out the campaign against 
``those whose crimes endanger State security,'' and ``those who guide 
people illegally across borders,'' in other words, against those who 
help Tibetans reach Nepal or Dharamsala, India, the Dalai Lama's home 
in exile. During the first month of the campaign, 254 people were 
caught trying to leave or reenter the TAR, many allegedly carrying 
``reactionary propaganda materials.'' Many were severely beaten after 
capture.
    ``Splittist'' activities accounted for numerous political arrests 
and trials in 2001. In January, a Lhasa court sentenced Cengdan Gyaco 
to an 8-year term for agitating separatism and spying for the Dalai 
Lama. That same month, an officer patrolling Sera monastery caught 
Jampel Gyatso listening to an audio tape of the Dalai Lama's teachings. 
As of late January 2002, he was detained in the Gutsa Detention Center 
in Lhasa. Two months later, a second Sera monk, Tendar, was detained 
for involvement in political activities. In February, police arrested 
Migmar and four friends caught watching a video of the Dalai Lama. The 
friends were released after payment of 5,000 yuan (approximately 
U.S.$600) apiece. A Lhasa court sentenced Migmar to a 6-year term in 
May. In March, in Qinghai province, after police raided Tibetan 
households to confiscate photographs of the Dalai Lama, three local men 
took it upon themselves to collect and hide the villagers' photos. 
Police who caught the men confiscated the pictures and levied fines of 
5,000 yuan. In July, the Nagchu court tried six people, Sey Khedup, 
Tenzin Choewang, Tenzin Lhagon, Yeshi Tenzin, Traku Yeshi, and Gyurmey, 
for colluding with the Dalai clique and endangering State security. 
Four of the six were monks. Terms ranged from 7 years to life 
imprisonment.
Xinjiang
    Even before September 18, when the Chinese government publicly 
equated Uighur calls for autonomy or independence with global 
terrorism, Beijing had instituted strict measures to crush 
``separatism'' and ``religious extremism'' in Xinjiang. In April, at 
the beginning of the nationwide Strike Hard campaign, Ablat Abdureshit, 
chairman of the region, was explicit as to targets in Xinjiang: 
``national splittists,'' ``violent terrorists,'' and ``religious 
extremists.'' At the same time, the leadership reiterated its 
determination to develop the region economically. Both campaigns were 
entrusted to patriotic Party cadres working at the grassroots, kept in 
check by a local law passed in May threatening punishment should they 
sympathize with Uighur aims or refuse to give up their religious 
beliefs. In April, China's defense minister emphasized the role of the 
People's Liberation Army in stabilizing the region so as to ensure the 
success of China's Western Development project. In June, Vice-President 
Hu Jintao, reiterated the call to root out Islamic activists.
    In June and again in January 2002 when their foreign ministers met, 
the Shanghai Cooperation Organization (formerly the Shanghai Five), 
composed of China, Russia and four republics in Central Asia, 
reiterated its pledge of cooperation to combat ``terrorism, separatism 
and extremists'' and to establish ``a regular anti-terrorist structure. 
According to a Chinese official, the campaign would be aimed at alleged 
terrorists groups in Xinjiang, Chechyna, and Uzbekistan.
    Although there were credible reports of violence by Uighur 
separatists in Xinjiang, strict Chinese controls on information coming 
from the region often made it impossible to know whether particular 
individuals had indeed committed criminal acts or whether they were 
being punished for exercising their rights to free political 
expression, association, or assembly. Typical charges included 
``splittism,'' subverting State power, setting up an organization to 
establish Islamic rule, stockpiling weapons, endangering social order, 
and printing anti-government literature. There were also new reports of 
torture, forced confessions, unfair trial procedures, and collective 
punishment. In November 2000, Abdulelil Abdumejit died while serving a 
sentence for the anti-Chinese riots in Yining in 1997. Supporters 
claimed he died from beatings and torture; the State claimed he died 
from his refusal to follow an appropriate medical regime.
    The Strike Hard campaign exacerbated the rate of arrests and 
sentencing. Within 3 months of the campaign's start in April, Xinjiang 
police reported solving 8,000 cases, arresting 9,605 suspects, 
destroying six separatists and terrorist organizations, and in 
conjunction with the procuracy holding more than 100 sentencing rallies 
involving 300,000 spectators to parade ``criminals'' and announce 
sentences before a public expected to signify approval.
    In April, police in Kashgar arrested twenty-five people for buying 
ten guns, allegedly to further an independence movement; in Urumqi, 
Abdulaimit Mehmet, convicted of murder and separatism, received a death 
sentence; six Uighurs were executed in Korla on charges of separatism 
and subverting State power; and Osman Yimit, a trader from Kucha, 
received a 7-year sentence on charges of endangering the social order 
and engaging in separatist activities for failing to register an aid 
fund for poor families.
    In June, Wusiman Yimiti and Maimaiti Reheman were executed for 
``forming a criminal gang with the aim of splitting the country.'' 
Erkhin Talip was executed in September for crimes linked to separatism. 
In October in Yining, five Uyghurs, including Abdulmejid and 
Abdulahmad, received death sentences on charges of anti-state 
terrorism; two others were sentenced to life imprisonment. And in 
November at a combined Aksu and Uchturpan county mass rally, death 
sentences and long prison terms were handed out to twenty-eight Uighurs 
for separatist and terrorist activities. Abdehelil Zunun, who had 
translated the Universal Declaration of Human Rights into Uighur, drew 
a twenty-year sentence.
    Efforts to bring religious practices under the aegis of the State 
included the April formation of a China Islamic Affairs Steering 
Committee under the administration of the Islamic Association of China. 
The members, 16 senior China-based experts on Islam, interpreted 
religious doctrines in accordance with Chinese law and Islamic 
doctrine, drafted sermon pamphlets, and worked to bring Islam into 
conformity with Chinese political ideology. An imam ``patriotic 
reeducation'' campaign, begun in March, assigned some 8,000 religious 
leaders to twenty-day sessions stressing patriotism, loving socialism, 
upholding Party leadership, combating separatism, and the like. In a 
number of cases, mosques were leveled, clerics arrested, and 
``illegal'' books and audio cassettes confiscated. Before and during 
the holy month of Ramadan, there was considerable pressure, including 
threats of expulsion, against students who fasted or observed other 
religious rules such as the use of head scarves or performance of daily 
prayers. In December, nine Muslims were arrested for preaching 
illegally more than 20 times in Bayingolin Mongol Prefecture and for 
translating the Koran into local languages. In January 2002, it was 
reported that Ibrahim received a 4-year prison term for running a 
school where English, Arabic, and other languages were taught and for 
talking about Uighur troubles. The school was forced to close around 
the time of his arrest in May 2000. He was also part of a group which 
advocated Islamic law.
    In January 2001, Chinese officials took aim at Xinjiang's 
publications market, calling for stricter policing and punishment of 
those spreading religious fanaticism and ethnic ``splittism.'' Access 
to Radio Free Asia's Uighur language programs is limited by severe 
jamming.
    In January 2002, pressure to follow the official ideological line 
was explicitly extended to include artists, writers, performers, and 
historians, among others, when Abulahat Abdurixit, the region's 
chairman, made clear that ``all who openly advocate separatism using 
the name of art'' would be purged. The announcement followed recitation 
of a poem by a homeless man at the end of a concert at Xinjiang 
People's Hall on January 1. That same month, Yili prefecture ordered a 
campaign against folk customs such as wedding, funeral, and house-
moving rituals. Uighur cadres must have permission before attending 
such events and must report back to their superiors. A Party official 
said the aim of the order was to curb extravagance and eradicate 
superstition.
    In violation of its once-a-month prison visit policy, Rebiya 
Kadeer, sentenced in March 2000 to an 8-year term for sending Xinjiang 
newspapers to her husband in the U.S., was limited to one family visit 
every 3 months. Glass separated her family members during the thirty- 
to fifty-minute visits, at least one guard recorded everything that was 
said, and topics for discussion were limited. Ms. Kadeer was required 
to wear a black tag signaling that her crime was serious and her 
behavior bad, in part because she was unable to complete her 
assignments in the prison cardigan factory. However, she was denied the 
glasses she needed to work efficiently. Ms. Kadeer's family was subject 
to surveillance and harassment. A fourth son, Ablikim Reyim, was 
released in February, some 6 months before his 2-year reeducation 
through labor term expired.
                                 ______
                                 

                Prepared Statement of James V. Feinerman

The Accession to the World Trade Organization of the People's Republic 
             of China (PRC) and Related Rule-of-Law Issues

                            february 7, 2002
    Members of the Commission:
    Thank you for holding these hearings and for providing an 
opportunity to present my views and to share information gathered from 
my study of Chinese law, visits to the People's Republic of China (PRC) 
and ongoing work in the field of academic exchanges between the United 
States and the PRC. Given China's population and size, strategic 
position, and growing economic importance, it remains necessary to 
focus upon a number of other significant considerations in formulating 
United States policy toward the PRC. In addition to recent problems 
relating to United States actions and responses to the international 
behavior of the PRC, recurrent questions surround the development of a 
law and the legal system in the PRC which remain difficult to answer. 
This statement is an attempt to address at least a few of them in the 
context of China's recent accession to the World Trade Organization 
(WTO) and attendant legal concerns.
    In considering the current situation with respect to the Rule of 
Law in China at the time of PRC accession to the World Trade 
Organization, there are three major points, further developed below, 
that I would like to make today. First, there has been and continues to 
be a considerable legalization of the PRC which began in the late 
1970's. This process will go on whether or not the United States 
participates in the future developments. Second, the PRC has already 
experienced law reforms which have made important contributions to the 
economy and polity of the PRC and continue apace partly, but not 
solely, due to commitments the PRC has made with regard to WTO 
accession. Third, despite this legalization and law reform now 
extending for more than two decades, there is still unfortunately a 
great deal that has not changed in China with respect to the Rule of 
Law, civil rights and political liberties and the meaningful enjoyment 
freedoms taken for granted in most developed nations.
    Legal Development in China Since 1979--Background. When China 
opened the door a crack to private entrepreneurship in the late 1970's, 
individuals long under the thumb of China's Communist nomenklatura at 
long last began to have some ability to control their own fates. Today, 
China's dramatic economic growth is the result of the efforts of 
millions of privately owned enterprises and reforming, semi-privatized 
State and collective enterprises. The economic changes in China over 
the past two decades have enabled a significant part of the Chinese 
populace to achieve more than a modicum of economic liberty and 
resulting personal freedom. They can throw off the shackles of their 
state-assigned jobs, their controlling danweis (all-powerful work 
``units'') and the petty martinets who previously ordered their lives. 
This, in turn, opens the door to greater political liberty and even 
activism. Indeed, the public display of anti-government sentiment in 
Beijing and elsewhere in China in the spring of 1989 was largely 
funded--and often initiated--by such individuals.
    Similarly, the police-issued residence permit (hukou) no longer 
serves as an indispensable passport to everything from food rations to 
job placement, housing or employment. Market-oriented reforms have so 
undermined the hukou system that the Chinese government is unable to 
exercise the demographic, political and economic control it enjoyed 
from 1949 until the late 1980's. In a dynamic economy, the leadership 
has little choice but to allow a freer flow of workers to stoke China's 
booming economy. This increase in labor market mobility comes at the 
expense of social control, as migrant laborers swarm into China's 
coastal cities and provincial centers. Evidence of the system's 
breakdown was already visible over a decade ago, when scores of ``most-
wanted'' student activists and dissidents managed to slip through the 
yawning gaps of the hukou net to escape from China in the aftermath of 
the 1989 massacre. Former paramount leader Deng Xiaoping's 1992 trip to 
the south of China and contemporaneous call for unleashing economic 
growth proved merely the final nail in the coffin lid of a crumbling 
system. An army of anywhere from 100 million to 200 million migrant 
laborers now provides the lifeblood of China's economic boom.
    The death of China's paramount leader, Deng Xiaoping, led to much 
reflection about the many changes wrought in China during Mr. Deng's 
leadership over almost two decades; however, curiously little attention 
was paid to Deng's efforts to bring law to the lawless China he 
inherited from Mao Zedong at the end of the so-called ``Great 
Proletarian Cultural Revolution.'' Nevertheless, all of the economic 
reforms and opening to the outside world for which Deng Xiaoping was 
rightfully acclaimed would have been difficult--if not impossible--
without the simultaneous embrace of a rudimentary legal order that has 
become increasingly embedded in Chinese society with each passing year. 
At the same time, it remains necessary to exercise caution in assessing 
post-Mao China's legalization; the extent and depth of law's 
penetration of Chinese society today is both problematic and erratic. 
Parallel to China's economic modernization without corresponding 
political reform, there has been a considerable amount of lawmaking 
activity since the late 1970's without the nationwide entrenchment of 
fundamental concepts of civil liberties and restraints upon Party and 
State leaders.
    The reasons for these developments in the legal field are not 
difficult to understand. The contradiction, to borrow now-discarded 
Marxist terminology, arises from the desire to enjoy the benefits of 
predictability and regularity provided by law to economic transactions 
while at the same time eschewing the contentious pluralism in political 
life that might arise from the protection of individual rights under a 
more Western-style legal order. In the view of most of China's leaders, 
including the late Mr. Deng, the striking economic growth of China over 
most of the past two decades vindicates their predilection for economic 
reform without political liberalization, particularly when contrasted 
with the rather different path taken by their once fellow socialists in 
the former Soviet Union. In the Chinese view, political liberalization 
too far ahead of economic development seems to have produced the worst 
of both worlds: deadlocked reforms leaving inefficient economies mired 
in backwardness and explosive political resentment of the failed 
promises of the new order to produce prosperity. Despite tight 
political and legal controls, China's leaders feel that they can take 
pride in having ``delivered the goods,'' with year-to-year double-digit 
growth rates and visible symbols of economic success in the rapidly 
changing skylines of major Chinese cities.
    Yet the patchy legalization which has occurred in China since the 
late 1970's, along with other sporadic political reforms, illustrates 
both the inseparability of at least a modicum of political and legal 
change from accompanying economic development along capitalist market 
lines and the intractable difficulty of partial political reform which 
creates popular expectations of more change, at a faster pace than most 
cautiously reforming regimes--particularly one as hidebound as China's 
Communist Party--are willing to provide. The particular areas 
considered below demonstrate just a few of the partial successes and 
remaining problems in China's long, slow march toward the rule of law.
    Legalization in Action. A few areas where legalization has led to 
significant social change will illustrate the new importance law has 
assumed in Chinese society over the past two decades:

    <bullet>  Enterprise Reform. Since the start of China's market-
oriented reforms, China's state-owned enterprises (SOEs) have faced 
increasing difficulties and economic decline; by contrast, collectively 
and privately owned enterprises have expanded rapidly. In the late 
1990's, China had more than 2 million collectively owned enterprises, 
employing over 30 million people. In the mid-1990's, there were already 
25 million self-employed business units and 600,000 privately owned 
enterprises; these enterprises employed 56 million people. Non-state-
owned enterprises produce over 50 percent of China's GDP, and the 
output value of non-state-owned industrial enterprises now accounts for 
the lion's share of gross industrial output value. All of this has 
depended upon new legal rules for enterprise, company law, bankruptcy 
reorganization and even constitutional reforms that guaranteed the 
protections for private enterprise.
    <bullet>  National and Local Leadership. Roles and responsibilities 
for China's national and local politicians are changing radically. By 
2010, the Chinese Communist Party (CCP) will be pre-occupied with 
managing the state's (and the CCP's) relationship to an emergent 
``civil society.'' This trend has several implications for the future: 
national and local leadership will have to be both educated technocrats 
and skilled political operatives; the CCP will have to adapt to new 
roles in order to maintain its leadership; technocratic imperatives 
will marginalize traditional CCP political leadership; and the CCP will 
likely, as a result, become less politicized and more educated, at both 
national and local levels, reflecting its membership. Much depends upon 
the ability of the CCP to institutionalize its new roles and to 
incorporate new members and leaders who depart from the traditional 
mold, making use of new legislation to regularize these practices. For 
example, fixed terms for senior and lower-level leaders are now being 
observed, and retirement at increasingly younger upper age limits is 
becoming common. Although indications are that the CCP will adapt and 
maintain its control over the State and political institutions in 
China, resisting attempts to pluralize Chinese politics and suppressing 
dissident forces, its ability to influence all policies (especially in 
the economic realm) will recede as its membership and leadership come 
more to resemble the business, education and other technocratic elites 
in Chinese society.
    <bullet>  Corruption. Notwithstanding the considerable attention 
paid to law reform in other areas, a separate and long running debate 
has been underway in China for the past several years with respect to 
the extensive and seemingly ineradicable problem of corruption. While 
the Chinese economy enjoyed tremendous growth under Deng Xiaoping's 
policies, embezzlement, bribery, extortion, favoritism, nepotism and 
even smuggling have not only increased in extent and variety; moreover, 
there is virtually no area of China free from these influences. Even 
Chinese Communist Party leaders view corruption as a threat to social 
and political stability. It weakens the legitimacy of the Chinese 
state, the capacity of those in power to govern and the attempts to 
create a more extensive rule of law in Chinese society. Partly to 
address these concerns, the leadership has since 1989 initiated various 
anti-corruption campaigns of limited duration and geographic scope. A 
few cases have been widely publicized, particularly where economic 
malfeasance has resulted in severe penalties, including the death 
penalty.
    <bullet>  Local protectionism. Local protectionism is another; 
related difficulty with respect to the elimination not so much of 
corruption but of distorting favoritism which skews markets and cuts 
against economic efficiency. An unfortunate concomitant of China's 
market economic reforms, local protectionism has resulted from the 
obvious economic incentives created the reforms to favor local 
enterprises and industries and to eliminate, by fair means or foul, 
outside competition. Reportedly, in certain provinces this has even led 
to attempts to impose illegal ``duties'' and other disadvantageous 
charges on goods and services originating outside of that particular 
province. The ability of local governments under the new economic order 
to retain more of the revenue produced in that locality, along with a 
diminished authority on the part of a central government which no 
longer provides either central guidance or wealth-transferring 
subsidies, has exacerbated these trends. The central government's 
apparent powerlessness in the face of these developments only further 
erodes local willingness to abide by central government directives, 
including those ordering an end to local protectionism. The PRC's WTO 
accession commitments to national treatment create a great dilemma in 
this arena.
    <bullet>  The Legal Profession. Once the decision was made, as part 
of China's Four Modernizations program begun under Deng Xiaoping in 
late 1978, to resuscitate the legal profession and to educate much 
larger numbers of lawyers in Chinese universities, a remarkable growth 
of this long-neglected sector took place. In 1980, when China 
promulgated its Provisional Regulations on Lawyers, only a few thousand 
lawyers could be identified in the entire PRC, many of them trained 
either before 1949 or during the brief period of ``socialist legality'' 
along Soviet lines during the post-liberation honeymoon between China 
and the Soviet Union before 1958. During the early 1980's, dozens of 
new law faculties were added to the small handful which had previously 
existed (and all of which were re-established and strengthened). 
Changes in both the Chinese economic system and in the realities of 
legal practice over a decade and a half required a total reworking of 
China's laws regulating the legal profession, which finally occurred in 
May, 1996 (effective January 1, 1997). The new Chinese ``Lawyers' Law'' 
introduced certain far-reaching and long-overdue reforms, reflecting 
not only certain developments which had already taken place but also 
describing a course of future reforms desired by many in the practicing 
bar and at least grudgingly conceded by the senior leadership. The 
liberalization permitted under this new legislation, including the 
ability of lawyers to form firms as partnerships, responded more to the 
needs of China's continuing economic modernization than to the calls of 
lawyers for greater autonomy in their practice. Nevertheless, the law 
recognizes that the former requires the latter; moreover, the expansion 
and extension of China's economic reforms are now understood to depend 
upon governing the country by law, particularly in its market economic 
sectors.
    <bullet>  NPC Reform. Under the leadership of Qiao Shi and its 
current head, Li Peng, China's National People's Congress (NPC) has 
begun to emerge from its longtime status as a ``rubber-stamp'' 
parliament. To be sure, it remains far from an independent, multiparty 
legislative institution enjoying actual powers of parliamentary 
supremacy described in great detail in the 1982 Chinese Constitution. 
It is probably fair to say, however, that the new, higher status of the 
NPC stems from a leadership determination to exercise ``rule by law'' 
rather than ``rule of law.'' In the formulation ``rule by law,'' law 
exists not so much as a limit on State power (a feature of the ``rule 
of law'' in the usual Western understanding) but rather serves as a 
mechanism for the exercise of State power--which can still also be 
exercised by other available means, such a Party discipline or 
leadership fiat. Thus, a more powerful NPC does not necessarily 
diminish the other organs of power in the PRC; in fact, their 
predominance--particularly in the case of the Communist Party of 
China--is very little challenged by enhancement of the NPC's strength. 
A number of foreign scholars have begun to credit the NPC with greater 
independence and initiative. Under Qiao Shi, who served as a Vice 
Premier and head of China's security apparatus, new stress was given to 
the NPC's role in both originating and passing legislation as well as 
providing oversight of the nation's legal work in the judicial, 
prosecutorial and administrative spheres, as well as in legislation. 
During the past several legislative sessions under the leadership of Li 
Peng, former Premier, there has been considerable controversy--as well 
as a sizable number of negative votes--in connection with various 
legislative initiatives; such open dissension would have been 
unthinkable even a decade ago.

    Law Reform Activities. Over the past 20 years, various 
organizations in the United States have provided assistance and support 
for law reform in the PRC. The programs they created, in conjunction 
with a huge domestic law reform project undertaken by the Chinese 
themselves and parallel programs supported by other foreign governments 
and organizations, benefited the construction of new legal institutions 
and the development of a legal infrastructure which are still being 
perfected.
    In the early phases, a few pioneers played a major role in working 
with Chinese counterparts to get things off the ground. Among them were 
the Ford Foundation, the United States Information Agency (as it was 
then named), the Henry R. Luce Foundation and the National Endowment 
for Democracy and its party grantees, particularly the International 
Republican Institute. More recently, new entrants arrived on the scene 
to continue and to expand the work, such as The Asia Foundation, the 
Lawyers' Committee for Human Rights, the Freedom Forum, and even the 
State Department. Two summits between Presidents Clinton and Jiang in 
the late 1990's promised even greater United States assistance in the 
following areas:

--Judicial and lawyer training--new avenues for law schools from both 
        countries to collaborate, legal cooperation between the 
        American Bar Association and Chinese counterparts, United 
        States Information Agency support for preparation and 
        translation of legal teaching materials;
--Legal protection of human rights--The US and China held a symposium 
        on this topic;
--Administrative law--A broad-ranging exchange involving decisionmakers 
        and academic experts on comparative administrative law was 
        planned;
--Legal aid for the poor--At least one symposium in Beijing has been 
        held to consider ways to expand programs already initiated by 
        the Chinese side;
--Commercial Law and Arbitration--Exchanges on securities law, 
        electronic commerce and judicial handling of commercial 
        disputes were planned, along with a program of cooperative 
        training for arbitrators. The Chinese government also promised 
        steps to ensure prompt enforcement of arbitral awards in local 
        Chinese courts.

In most cases, the promises of those heady days of ``constructive 
engagement'' and ``strategic partnership'' went unfulfilled, in part 
due to the fallout of the accidental bombing of China's Belgrade 
embassy, the change in Presidential administrations and the downing of 
the EP-3 in China last spring.
    Committee on Legal Education Exchange with China (CLEEC). No 
treatment of the law reform era in China over the last two decades, or 
any consideration of future US-government supported activities in legal 
assistance to China, should ignore the experience of CLEEC, created and 
generously supported for a decade and a half by the Ford Foundation.
    Over the past two decades, the volume of international legal 
exchange between the People's Republic of China (PRC) and the United 
States has grown remarkably. Much of the contact between Chinese and 
American legal circles has occurred in the academy, and no organization 
has been more instrumental in encouraging this development than the 
Ford Foundation-sponsored CLEEC. For 15 years (1982-1997), CLEEC was 
directly involved in the education of over 250 young Chinese legal 
academics--in the PRC and in the U.S.--and in the promotion of many 
other forms of scholarly exchange between lawyers, law professors and 
government legal specialists. During that time, in no small part due to 
CLEEC's efforts, the underdeveloped legal education profession in the 
PRC grew tremendously, both in size and expertise; law faculties 
expanded and became much more international in their outlook; and 
academic research by Chinese specialists developed greater 
sophistication.
    From its inception, CLEEC endeavored in several ways to promote 
both Sino-U.S. understanding, at least as it related to law, and the 
development of Chinese university law faculties. First, CLEEC provided 
training at U.S. law schools--including degree programs--for a wide 
range of Chinese legal educators. Chinese participants were given 
placements at the best American law schools, with supervision (for 
visiting scholars) or instruction (for degree candidates) by eminent 
faculty; such placements were arranged carefully to match the needs and 
backgrounds of Chinese scholars to the schools best able to meet those 
needs. In certain cases, these placements have resulted in longstanding 
exchange relationships, often beyond CLEEC's auspices. American host 
law schools generally shared part of the costs of the program. 
Virtually all the other costs of this activity were supported by a 
series of grants from the Ford Foundation, totaling over $4 million. 
Among China's leading law faculties today, at least half a dozen are 
headed by alumni of CLEEC.
    Second, CLEEC, beginning in the mid-1980's, offered an in-country 
short course in American law for candidates selected to visit American 
law schools as well as other individuals. This program brought some of 
the finest legal academics from the U.S. to China to teach law faculty, 
students and government lawyers and officials the rudiments of the U.S. 
legal system and, after 1990, specialized legal topics as well. The 
U.S. law teachers served as unsalaried instructors in a challenging 
three-to-four-week course that involved a great deal of contact beyond 
lectures in the classroom and proved both stimulating and inspiring to 
every cohort of Chinese students that has experienced the program. The 
largest number of direct beneficiaries of CLEEC are alumni of this 
program. This activity was generously funded by what was at the time 
known as the United States Information Agency (USIA), now part of the 
State Department.
    A third major activity, organized by a subcommittee of CLEEC 
comprising law librarians and supported largely by separate funding 
from the Henry R. Luce Foundation, was involved in the provision of 
legal information in print and electronic forms to the leading law 
faculties of the PRC, the Institute of Law of the Chinese Academy of 
Social Sciences and other institutions in China. Originally charged 
with making ``stock'' law libraries of U.S. legal materials for Chinese 
law faculties, this subcommittee kept abreast of technological 
developments during the period of CLEEC's existence to move from print 
materials--largely law school textbooks and treatises--toward more 
modern media, including CD-ROMs, on-line legal data bases and the 
Internet and World Wide Web. Although technological limitations on the 
Chinese side during the period of CLEEC's operation limited the ability 
of the subcommittee to do as much as it had hoped, important inroads 
were made.
    Finally, CLEEC and its individual members proved a valuable conduit 
for other types of scholarly exchange in law between China and the U.S. 
Aside from the direct funding of a handful of American researchers to 
carry out projects in China, CLEEC also helped to arrange bilateral 
conferences, to provide attendees for international meetings in China 
and to offer information and other assistance to any person or 
institution seeking to establish links with the legal academic 
community in the PRC. Many of CLEEC's members were themselves leading 
academic specialists and experts on China's modern legal system. At the 
same time, no attempt was made to funnel Chinese participants to those 
U.S. law schools which had Chinese law specialists; to the contrary, 
every effort was made to place each Chinese student and scholar at the 
American law faculty with the best resources for his or her individual 
program. In the end, over 40 U.S. law schools hosted CLEEC visitors. 
Today, it remains the case that no single school or group of 
institutions can hope to satisfy, by itself, the multifarious needs of 
China's evolving legal order or even its legal education system. 
CLEEC's successes demonstrate that a broad-based program that harnesses 
all the available talent in the United States is vastly to be 
preferred. In the light of the far more generous support that has 
recently been promised by the European Union, Canada and other foreign 
governments and foundations, it is high time for the United States 
officially to step up to the plate, make good on the promises of 
several years' standing and build upon the broad and strong foundation 
of earlier efforts.
    WTO Accession. As part of its protocol of accession to the WTO, 
China has made many commitments to reform its laws and legal system. At 
the first level, these commitments mainly involve undertaking to pass 
certain new legislation and to revise some existing legislation to make 
China's foreign trade regime and related institutions compatible with 
the requirements of the WTO. On a second, deeper level, the PRC has 
also promised to adopt basic practices of WTO jurisprudence, such as 
transparency in its regulatory regime and the creation of impartial 
tribunals for the adjudication of trade-related disputes. Yet, at a 
third, deepest level, the commitments that the PRC has made in joining 
the WTO presage structural changes which promise to transform the most 
basic features of Chinese law and legal culture. Indeed, the experience 
of other former developing countries in the Asian region, such as South 
Korea and Taiwan, is that the adoption of modern legal mechanisms and 
their subsequent practice over a long term inevitably creates pressures 
for reform across the board, including political liberalization in line 
with economic modernization and development.
    Among the reasons the PRC has been seeking membership in the WTO, 
enjoyment of unconditional Most Favored Nation (MFN) status pursuant to 
WTO rules is clearly the most significant. Under the WTO, trade among 
member nations is subject only to minimal tariff restraints and 
requires that all Contracting Parties treat each other ``equally.'' 
Once the PRC becomes a WTO member nation, China would be able to 
eliminate its need for bilateral trade arrangements ; although these 
provide benefits, including MFN, similar to those promised by the GATT, 
such arrangements must be periodically renegotiated and may be 
unilaterally terminated.
    Membership in WTO would promise other benefits for the PRC's 
international trade in addition to MFN. The WTO provides an important 
forum for coordination of international economic policy and resolution 
of trade disputes. Useful, detailed information about the economies of 
member nations, as well as economic policies and activities, is 
compiled by its Secretariat; such material will assist China's 
formulation of its foreign economic and trade policy. Moreover, from 
the perspective of China's leadership and economic reformers, the WTO's 
requirements and market orientation are conducive to continuing reform 
in China's domestic economy, including price reform, tariff reduction 
and elimination of economically inefficient subsidies and other market 
distortions.
    Notwithstanding these commitments and the substantial benefits to 
China of WTO accession, as the Report of the Working Party on the 
Accession of China documents, there are a number of challenges in 
effective implementation of China's WTO commitments. Some of these 
relate to China's basic economic policies and the framework for making 
and enforcing them; others relate to specific policy areas--trade in 
goods, intellectual property, trade in services, etc. The report itself 
runs to over 70 pages of dense prose, single-spaced in tiny type. 
Although less than four of those pages are devoted to framework issues 
related to economic policies, that brief section deals with such 
important and intractable issues as the authority of sub-national 
governments (often the source of local protectionism); the uniform 
administration of the trade regime (threatened by both local variation 
in enforcement and the lack of understanding of China's WTO commitments 
at the lower levels of government in China); and judicial review of 
administrative actions relating to WTO requirements as implemented in 
Chinese law (which may be hampered by lack of infrastructure and 
training, corruption and local protectionism).
    A careful examination and historical overview of China's WTO 
accession process would reveal the WTO's impact on China. Necessary 
legislative and statutory changes in Chinese legislation are being made 
pursuant to WTO accession. The need for compliance with WTO rules 
imposes new constraints on Chinese policies and the uneconomic 
operations of state-owned enterprises. The role of China in WTO 
diplomacy, decisionmaking, and the dispute settlement system as a 
result of the Chinese accession(e.g. role of civil society, amicus 
curiae briefs, etc.) should also provide impetus for developments in 
the legal realm. Despite consideration given to special WTO rules 
designed for China and China's weight in the WTO diplomatic/decision 
process, China will still have to interact with other WTO member 
nations in this important international legal arena.
    Processes and problems for China in implementing WTO rules include 
questions about whether the PRC maintains the political will to 
implement the WTO obligations and the challenges the PRC leadership 
faces in maintaining Chinese commitments over time. At the same time, 
there will be considerable economic impact of Chinese WTO membership on 
world trade and vice versa, in particular the tensions resulting from 
increased competition in Chinese main export markets, such as textiles, 
microchips, etc.
    The rise and development of procedural rules in the WTO is part of 
a larger movement in the general WTO jurisprudence and structures. This 
movement is sometimes criticized as a move toward excessive legalism in 
the regulation of the global economy, an unfortunate move from 
diplomacy to a rule-based trade regulatory framework, characterized as 
a process of ``judicialization.'' Yet, efforts to develop procedural 
review at the WTO level were taken mainly as a response to the concerns 
over misuse and abuse of domestic legal systems for protectionist 
purpose. The particular sensitivity of issues such as antidumping and 
political legitimacy concerns about national legal systems provided 
both an internal dynamic and discipline for the WTO dispute settlement. 
China's accession will require that WTO panels dealing with challenges 
to Chinese practices must demonstrate that often too rare combination 
of willingness to enter into the arena of conflict on the one hand, and 
the wisdom to know when to intervene on the other.
    The Practical Implications for China. Procedural review and 
transparency in WTO jurisprudence is a recent phenomenon in the area of 
international regulation of world economy. Some have characterized the 
WTO rules and adjudication as a code of international administrative 
law; compared with earlier eras of ``international administration'' it 
is intrusive to an unprecedented degree. Yet, at the same time, PRC 
accession to the WTO offers some legal safeguards for China's rights 
and legitimate interests. Moreover, China can take advantage of the 
procedural review in Geneva, for example, to curb abuse of antidumping 
actions by its trading partners.
    Bureaucratic culture and legal procedures in China will have to 
change, however, for the PRC to take full advantage of WTO accession. 
While there have been considerable efforts to improve administrative 
procedure in China in recent years, judicial supervision in China in 
general tends to be weak, at least by common law standards. Chinese 
authorities will probably face a much more searching review in Geneva 
than in their domestic courts. Given the need to provide a domestic 
forum in China before proceeding to WTO review in Geneva, it will take 
time and effort for the individual officials in Chinese investigating 
authorities to become familiar with WTO procedures, to improve their 
own procedures, and to follow those procedures.
    What Is To Be Done? The needs that China obviously has in so many 
areas also present opportunities not only for United States assistance 
but also, in the process of providing such support, to inculcate 
American institutional preferences and legal cultural values. More to 
the point, the assistance that is being offered (and generously 
underwritten) by others insures that their institutions and values will 
displace those which we might prefer if the United States does not 
provide similar sorts of Rule of Law assistance in connection with WTO 
accession.
    Moreover, the challenge now facing the U.S. is to emphasize China's 
obligations under all those international agreement it has signed (such 
as the Convention against Torture, International Human Rights Covenants 
and the Convention on the Elimination of All Forms of Discrimination 
against Women). Furthermore, China's domestic laws--beginning with 
China's 1982 Constitution--express in domestic Chinese legislation 
those universal values which are elsewhere enshrined in both in 
international treaties and other nation's domestic laws. We need to 
increase the level and frequency--at the same time lowering the 
volume--of dialog with China, bilaterally and multilaterally, over a 
range of legal issues, not only WTO-related but extending to civil and 
political rights. Expanding current exchange relationships focused on 
economic law can provide both an avenue for such dialog and a base on 
which to build relationships with sympathetic audiences in China.
    The evolution of democracy in China will be a long, painful 
process. It depends primarily on economic growth, including greatly 
increased domestic investments in infrastructure, education and science 
and technology. The rise of a middle class in China--as in Hong Kong, 
Singapore, Taiwan and South Korea previously--along with exposure to 
the outside world and moral support from the West will inevitably press 
for a more open political system.
    Most significantly, China's dissidents--within China and abroad--
are virtually unanimous in their support of China's accession to the 
WTO. They understand the crucial linkages between China's enjoyment of 
MFN status, along with access to U.S. export markets, and the increase 
in personal liberty that results from concomitant economic growth. With 
virtually one voice, these individuals--many of whom have suffered 
grievously at the hands of the Chinese State and the Communist Party--
urge a more nuanced policy, building on existing relationships, 
promising true ``comprehensive engagement.''
    The economic and trade relationship between the U.S. and China 
reaches many more lives on both sides of the Pacific than does any 
other aspect of our bilateral relationship. Yet I would be remiss in 
representing my organization and my own experiences as a scholar 
researching Chinese law and the former director of a national U.S.-
China educational exchange organization if I did not also describe for 
you the remarkable opening of China to educational exchange and the 
greatly increased access for foreign researchers. More than two 
decades' hard work on the U.S. side has, particularly in the last 
several years, yielded new opportunities for study and research in 
China. For Chinese host institutions, the prospect of economic gain--
and the promise that those gains can be enjoyed and controlled by the 
people most responsible for their realization--has resulted in a 
previously unimaginable opening. While there are still some problems to 
be resolved, especially in the light of recent arrests and show trials 
of Chinese-American scholars and researchers on trumped-up charges, 
remarkable progress since 1990 has led to unprecedented access to 
libraries, laboratories, archives and educational institutions.
    Yet, despite these gains, the State Department and other Federal 
Government agencies now provide less than half the support for 
bilateral exchanges between the U.S. and China that they gave in 1988! 
Shockingly, we devote 1/40 of the amount targeted in the U.S. Federal 
budget for such aid to Central and Eastern Europe and the former Soviet 
Union to academic and cultural exchange with China. Given the at least 
equal strategic importance of China and its vastly larger population, 
such parsimony is inexplicably short-sighted.
    Conclusion. The future development of the rule of law in the PRC is 
likely to prove as checkered as has the process of the past almost two 
decades. Since the late 1970's, China has made enormous strides in 
passing laws, rebuilding shattered institutions such as the bench, bar 
and legal education, and in using law and legal mechanisms to lend some 
greater predictability to the overall conduct of Chinese society and--
in particular--the economy. Nonetheless, significant gaps remain with 
respect to enforcement of enacted laws, serious attacks on official 
corruption and elimination (or at least the gradual reduction) of the 
number of highly placed individuals who remain outside of the reach of 
the law, usually due to their status at Communist Party leaders. 
Although it is certainly no longer fair nor accurate to describe the 
PRC as a Nation without law, it would also be difficult to characterize 
it as a Nation where the rule of law enjoys quite the same prominence 
as it does in most developed Western nations or even Japan. As the 
Chinese like to say in describing their hybrid market economy, which 
possesses certain elements of the free market along with some remnants 
of the Communist planned economy, China's legal system is an attempt to 
create a more modern rule of law while still retaining ``Chinese 
socialist characteristics.'' This situation is likely to persist for 
the foreseeable future. WTO accession provides a unique opportunity, 
however, to hasten the pace of incremental change at a time when the 
very structure of China's participation in the international economy is 
being perhaps permanently transformed. With our eyes fully open, we 
should seize the opportunities such historic changes may provide.
                                 ______
                                 

                Prepared Statement of William P. Alford

                            february 7, 2002
    To the Chairmen and Members of the Commission:
    I am honored to have been invited to testify at this, the first 
public hearing of the Congressional-Executive Commission on the 
People's Republic of China, given your charge to monitor compliance 
with human rights and the development of the rule of law in the PRC at 
this critical time in our bilateral relationship.
    My fields of specialization are Chinese law and legal history, 
international trade (including the World Trade Organization), and the 
legal profession. I have been involved with legal development in the 
PRC from the early 1980's onward when, together with Professors Randle 
Edwards of Columbia University and Dr. Stanley Lubman, among others, I 
established the first regular program of instruction in American law in 
the PRC and the first sustained program bringing Chinese legal 
professionals to this country for advanced training. In addition, I 
have taught in China; provided advice to our government, non-
governmental organizations, foundations, and others about Chinese 
affairs; and had extensive occasion to observe Chinese legal 
development.
    In this statement I first offer a brief overview of my 
understanding of Chinese legal development--which I see as necessary 
for the realization in China of internationally recognized standards of 
human rights, but not a substitute for that vital end. I then turn my 
attention to American and other foreign efforts to assist legal 
development before concluding by suggesting directions in which 
attention might be focused. As time and space are short, this statement 
is perforce a summary for which elaboration may be found in the 
materials cited in my endnotes.
 
                       THE CHINESE LEGAL SYSTEM

    To assess the Chinese legal system today, we need to appreciate 
just how far legal development has come and how far it has yet to go 
before it meets any widely accepted definition of the rule of law.
    Over the past quarter century, the PRC has been engaged in the most 
concerted program of legal construction in world history.\1\ At the end 
of the Cultural Revolution (1966-1976), the PRC's modest legal 
infrastructure lay in near ruin--with but a skeletal body of 
legislation, a thinly staffed judicial system, and a populace having 
scant awareness of law. Today, the PRC has an extensive body of 
national and sub-national legislation and other legal enactment, 
concentrated on, but not limited to, economic matters, and has joined 
major international agreements covering trade, the environment, human 
rights, intellectual property and a host of other issues. Moreover, as 
Dr. Lubman and Professor James Feinerman of Georgetown elaborate in 
their statements for this hearing, in acceding to the WTO, the PRC has 
agreed to bring both its pertinent substantive laws and their 
administration into compliance with international norms. The Chinese 
judicial system now has a nation-wide presence, with specialized 
chambers to address criminal, civil, economic, administrative and, in 
some instances, intellectual property law questions. Whereas a 
generation ago, China had fewer than 3,000 lawyers and approximately a 
dozen law schools, today there are over 125,000 lawyers and hundreds of 
law schools, with law a very popular subject for university study and 
well over 150,000 candidates yearly taking the bar exam. Chinese 
citizens now avail themselves of the formal legal system in an 
unprecedented manner, with, for example, some 5.5 million new 
litigations annually, and widespread public interest in at least some 
legal issues, as was demonstrated, for instance, by the extensive and 
vigorous national debate surrounding proposals that led in 2001 to the 
revision of the marriage law.\2\
---------------------------------------------------------------------------
    \1\ The most comprehensive overview of this phenomenon in English 
is Stanley B. Lubman, Bird in a Cage: Legal Reform in China After Mao 
(Stanford University Press, 1999). My own views are elaborated in, 
inter alia, William P. Alford, ``A Second Great Wall? China's Post-
Cultural Revolution Project of Legal Construction,'' Cultural Dynamics, 
vol. 11, p. 193 (1999).
    \2\ These debates included considerable and heated discussion about 
appropriate roles about the interplay between the interests of the 
State and individual autonomy. I discuss these debates in a forthcoming 
paper entitled ``Have You Eaten? Have You Divorced? Debating the 
Meaning of Freedom in Marriage in China.''
---------------------------------------------------------------------------
    These and other accomplishments need to be taken seriously, but so 
do the many respects in which the legal system continues to fall well 
short of meeting any widely accepted definition of the rule of law. As 
the United States Department of State's latest annual country report 
shows in detail, the legal system has yet to prove itself adequate to 
protect the rights of all Chinese citizens.\3\ Accounts, for example, 
of arbitrary arrests, torture and mistreatment while in official 
custody, and denial of the basic procedural protections that Chinese 
law is intended to provide abound--as has to a degree been acknowledged 
by senior PRC legal personnel.\4\ The re-education through labor 
system, whereby the police may sentence detainees for periods of up to 
3 years in labor camps, continues--notwithstanding the objections of 
some PRC legal scholars and the international human rights community, 
including Dr. Mary Robinson, the United Nations Commissioner for Human 
Rights.\5\ And it is no secret that there are serious problems when it 
comes to efforts by citizens to avail themselves of such basic 
internationally recognized freedoms as those of association, assembly, 
and religious expression.
---------------------------------------------------------------------------
    \3\ The United States Department of State, Country Reports on Human 
Rights Practices--2000, China (February 23, 2001).
    \4\ See, ``China: Procurator General Calls for Crackdown on 
Exploiters of Position,'' Xinhua [New China] News Agency, available in 
English via BBC Monitoring Asia Pacific--Political, December 27, 2000.
    \5\ See, for example, Chen Guangzhong & Zhang Jianwei, ``The United 
Nations International Covenant on Civil and Political Rights and 
China's Criminal Process,'' China Jurisprudence, No. 86, p. 98 
(December 1998).
---------------------------------------------------------------------------
    Turning our attention inward, the legal system itself is in need of 
substantial improvement. Efforts have been made, with foreign 
assistance playing a part, to nurture professionalism through 
intensified training, the promulgation of higher standards for legal 
personnel, and attempts to root out official mal and misfeasance, but 
much more remains to be done. The judiciary clearly does not enjoy the 
degree of independence from political authority that we associate with 
the rule of law. Judges typically are chosen from among Party members 
at the same time that actions of the Party itself are not reviewable in 
a court of law.\6\ Corruption plagues the legal system as it does 
Chinese society more generally--indeed, this is so pervasive a problem 
that one influential PRC economist, Professor Hu Angang of Qinghua 
University, estimates that it may have consumed as much as 15 percent 
of GDP in recent years.\7\ The educational level of legal personnel 
remains far lower than it should be, with some observers estimating 
that even today only roughly one out of every ten judges has a 4-year 
university degree in law.\8\ The legislative and rulemaking processes 
are expanding to hear from a broader spectrum of interests, \9\ but 
they remain heavily top-down, typically lacking regular opportunities 
for in-put by ordinary citizens. And enforcement of the law can be 
problematic, as demonstrated last autumn when the Supreme People's 
Court temporarily put a hold on lower level courts accepting 
shareholder suits for damages \10\ and as is manifested by what Chinese 
authorities themselves describe as ``local protectionism,'' meaning 
undue favoritism shown by the courts at local levels to the ``home 
team.''
---------------------------------------------------------------------------
    \6\ Professor Jerome Cohen of New York University Law School 
estimates that ``over 90 percent of the country's approximately 180,000 
judges are Party members.'' Opening Statement of Jerome A. Cohen before 
the first public hearing of the U.S.-China Security Review Commission, 
Washington, D.C. (June 14, 2001).
    \7\ Hu Angang, Zhongguo: Tiaozhan Fubai [China: Fighting Against 
Corruption] (Zhejiang People's Publishing House, 2001).
    \8\ Statement of Donald C. Clarke Before the U.S.-China Security 
Review Commission, Washington, D.C. (January 17, 2002).
    \9\ The opening up of legislative drafting to a broader range of 
interests is discussed in William P. Alford and Benjamin L. Liebman, 
``Clean Air, Clear Processes? The Struggle over Air Pollution Law in 
the People's Republic of China,'' Hastings Law Journal, vol. 52, p. 703 
(2001).
    \10\ See Supreme People's Court, ``Guanyu she Zhengquan Minshi 
Peichang Anjian zan bu Shouli de Tongzhi'' [Notice on Temporarily Not 
Accepting Securities Cases Involving Civil Actions for Compensation], 
September 21, 2001. This and other issues of law enforcement in the PRC 
are treated in the Statement of Professor Clarke of the University of 
Washington, supra note 8.
---------------------------------------------------------------------------
                  THE ROLE OF FOREIGN LEGAL ASSISTANCE

    The past two decades have witnessed a range of efforts from 
throughout the democratic world to assist Chinese legal development, 
although it remains modest in view of the enormity of the challenge 
(particularly if we wish to engage ordinary citizens as well as 
governing elites). In the case of the United States, the bulk of 
assistance for legal development until the late 1990's came from 
foundations, universities, non-governmental organizations, business, 
the bar, and private citizens, although our government did play a part 
through programs such as the Fulbright and the Committee on Scholarly 
Communication.\11\ Over the past 5 years, the US government has begun 
to take more of a role in legal development, first through the Clinton 
administration's rule of law initiative and more recently through both 
the Bush administration's choice of a lawyer with expertise on China as 
Ambassador to Beijing and through the administration's recent request 
for and Congress's allocation of funds for Chinese legal development. 
Outside of the United States, support for Chinese legal development has 
tended to come more substantially from governmental sources rather than 
civil society, as evidenced by official developmental assistance 
provided by the governments of the United Kingdom, Germany, Canada, and 
the Scandinavian countries, among others.\12\ Additionally, 
multilateral organizations such as the World Bank, the Asian 
Development Bank and the United Nations Development Programme have also 
provided support.
---------------------------------------------------------------------------
    \11\ See, for example, the writing of Professor Jacque deLisle of 
the University of Pennsylvania. Jacques deLisle, ``Lex Americana?: 
United States Legal Assistance, American Legal Models, and Legal Change 
in the Post-Communist World and Beyond,'' University of Pennsylvania 
Journal of International Economic Law, vol. 20, p. 179 (1999). See also 
Allen Choate, ``Legal Aid in China,'' (The Asia Foundation, 2000) and 
Aubrey McCutcheon, ``Contributing to Legal Reform in China,'' in Many 
Roads to Justice: The Law Related Work of Ford Foundation Grantees 
Around the World (Ford Foundation, 2000).
    \12\ A recent appropriation of more than 5 million pounds for a 
single project intended to beef up the Chinese legal profession is 
described at Frances Gibb, ``Lord Woolf Goes to China,'' The Times of 
London, July 24, 2001.
---------------------------------------------------------------------------
    As might be expected given their varied genesis, American programs 
have not been uniform in their approach and objectives. Some have 
accentuated linkages with the Supreme People's Court (which oversees 
the judiciary administratively) that have resulted in new training 
opportunities for Chinese judges. Others have counseled Chinese 
legislative drafters and writers of regulations (typically on an 
informal basis) and helped them establish data banks of Chinese and 
other laws. Yet others have focused on assisting Chinese law schools by 
providing otherwise unavailable materials about American and 
international law, enabling future leaders of Chinese law to study in 
this country, and arranging for a range of Americans to lecture on law 
(including constitutional law and human rights) in China. And still 
others have concentrated on civil society, offering guidance about 
legal aid, training advocates for the disadvantaged, and supporting 
centers concerned with matters such as women's rights and environmental 
justice. Although also diverse, non-US origin programs have tended to 
provide more support to official actors and, especially in the case of 
multilateral organizations, to concentrate on issues pertaining to 
economic law.
    Given that there is no way scientifically to isolate the variable 
of foreign assistance from all the other factors influencing Chinese 
legal development, any assessment of it must in some measure be 
subjective. My own sense is that in general such assistance is of 
value. It is, for example, enabling relatively open-minded Chinese in 
and beyond legal circles to deepen their understanding of legal 
institutions in democratic societies and so to have a broader array of 
choices from which to think about change in their own society. It is 
acquainting their less open-minded colleagues with just how out of step 
China is with the norms of nations they may wish to emulate 
economically (if not politically). And it is providing financial, moral 
and even political support for China's emerging civil society 
(including entities that might otherwise have a hard time surviving).
    In taking account of such accomplishments, it is important, 
however, not to overstate what we can expect from such assistance in 
the absence of meaningful political reform in China. Moreover, candor 
requires that we acknowledge problems that have cropped up with respect 
to such programs. Most notably, these include attempts by Chinese 
authorities at times to legitimate repressive activity by cloaking it 
in a veil of legality, and the wastage of funds used to support ill-
conceived or ill-managed programs.

                               DIRECTIONS

    I strongly believe that we in the United States should increase our 
involvement in legal development in the PRC. In saying this, I 
appreciate that there are serious limits to what any kind of foreign 
legal assistance can accomplish and that there is a need to be 
staunchly vigilant against the possibility of such assistance being 
misused. Nonetheless, such involvement is worthwhile for many reasons. 
It has been and can be used to help some who suffer unfairly today, as 
borne out by the work done via the center for women's rights at Beijing 
University or the center for environmental justice at the China 
University of Politics and Law. It can buttress Chinese who are serious 
about building a better legal foundation for securing fundamental human 
rights, such as those bold individuals who have criticized the Party's 
role in the judiciary or others who have sought for years to have the 
law of criminal procedure redrafted so as to afford substantially 
greater protection to defendants. And it can aid in implanting ideas 
that may over time bear fruit, for whatever the nature and pace of 
political change in China, the Chinese people will need to draw far 
more than they now do on law and legal institutions if they are to 
achieve a more just and freer society.
    As we think about further involvement in Chinese legal development, 
I would urge that we be mindful of the following:

    1. Legal development is necessary for the realization of 
internationally recognized standards of human rights in China, but it 
is not a substitute for that vital end. Some here and in China may find 
it tempting to accentuate the former rather than the latter on the 
grounds that it less likely to come across as confrontational. That 
would be a mistake. As I demonstrate in my scholarly work, the two are 
so interwoven that an insufficient commitment to fundamental rights 
risks undermining the integrity of legal development more 
generally.\13\ Indeed, the analogous point might be made about the ways 
in which economic, legal and political development are related. China's 
engagement with the world economy clearly has fostered overall 
prosperity and a greater appetite for economic and other freedoms, but 
it also is yielding enormous inequality and unleashing widespread 
social problems that without better legal and political institutions 
through which ordinary citizens can express legitimate grievances pose 
serious challenges to social stability and to that very prosperity.
---------------------------------------------------------------------------
    \13\ William P. Alford, To Steal a Book is an Elegant Offense: 
Intellectual Property Law in Chinese Civilization (Stanford University 
Press, 1995).
---------------------------------------------------------------------------
    2. As we seek to promote legal development, we need to hold true to 
our ideals, but not necessarily the particular forms through which we 
may seek to realize those ideals at any given moment in our own nation. 
All too often well-intentioned Americans present what we do today (or 
what we like to think we do) as the only alternative to China's current 
circumstances. I think that we make a stronger case for legality and 
pluralism, and better empower change in China when we are help the 
Chinese to appreciate the different choices that different free 
societies make in their efforts to attain the ideals of rule of law and 
of democracy that all such societies share. We need, for instance, to 
be mindful that approaches we may advocate in our country, given our 
ready access to lawyers, may not accomplish the same ends given the 
relative inaccessibility of China's rural populace to professional 
legal assistance and given the greater role that administrative 
solutions are likely to play there for some time to come. In this vein, 
I might also add that candor about our own shortcomings, as well as 
pride in our accomplishments, is helpful in countering the objections 
of Chinese authorities that we are too ready to take their Nation to 
task. The Enron debacle, for instance, has not gone unnoticed in China 
and, in fact, has become an issue in debates between the China 
Securities Regulatory Commission and the Ministry of Finance over the 
former's efforts to require use of foreign accounting firms.\14\
---------------------------------------------------------------------------
    \14\ Richard McGregor, ``Creative Chinese Accounting Works for 
Andersen: Scandals Involving Local Firms are Boosting the Big Five,'' 
Financial Times, January 28, 2002.
---------------------------------------------------------------------------
    3. We need to think further about both the targets for and sources 
of our legal assistance. With regard to targets, it not realistic to 
think that we can advance the rule of law in China without engaging 
those who oversee and operate the legal system even as we stress the 
importance of legal institutions attaining far greater independence. 
Thoughtful and honest foreign assistance can be of value to Chinese 
legal personnel searching for ways in which to address the endemic 
problems discussed above. At the same time, however, it is absolutely 
essential that those providing foreign legal assistance break out of 
what has been an excessively top-down focus on a small number of 
Beijing-based entities and endeavor to reach out far more than it has 
to China's emerging civil society--so that our actions match our words 
about law being an instrument for citizen empowerment. With regard to 
sources, the fact that most American involvement has been a product of 
our civil society has, in my view, been a strength--making possible a 
genuine diversity of approaches and demonstrating that in our country 
universities and the bar are not agents of the government. Nonetheless, 
given the importance of this undertaking and the difficulty of securing 
greater private support, substantially greater Federal support would be 
very helpful.
    4. Finally, we need to appreciate just how massive an undertaking 
this is--for China will not attain a rule of law without a further 
change in the way in which Chinese citizens think of themselves and 
their relationship to authority. To note this is not to subscribe to 
cultural determinism--I think that ideas of justice and fairness ring 
as true to Chinese as to Americans. Instead, it is to urge that we 
understand that this is not an area amenable to quick fixes and to 
commit ourselves to work that will prove difficult and in which the 
ultimate shape of success and the credit for it will principally reside 
with the people of China.
    I thank you for inviting me to offer this statement and stand ready 
to answer any questions you may have regarding it.
                                 ______
                                 

Opening Statement of Hon. Max Baucus, Chairman, Congressional-Executive 
                          Commission on China

                            february 7, 2002
    I am pleased to call to order this first hearing of the 
Congressional-Executive Commission on China, and to be joined by my 
distinguished Co-Chair, Congressman Doug Bereuter, and other Commission 
members from the Congress and the executive branch.
    This Commission represents a unique endeavor, and a unique 
challenge, in bringing the resources of the Congress and the 
Administration together to help improve human rights and the rule of 
law in China.
    I want to start by recognizing and thanking my Co-Chair, 
Congressman Bereuter, and my good friend Congressman Sandy Levin, for 
their work during the PNTR debate in creating this Commission as a way 
for Congress to maintain a strong and continuing interest in human 
rights and the rule of law in China. Myriad circumstances delayed the 
start of the Commission, but today we begin a vigorous set of 
activities.
    Let me start by explaining the role this Commission will play in 
US/China relations.
    First, we in the United States cannot impose our will on China and 
its 1.3 billion citizens. The decisions about what happens inside China 
can only be made by the Chinese people.
    Second, China is an emerging regional and international power, and 
our national interest requires intensive engagement. We must look at 
China--not through rose-colored glasses, and not through dark glasses 
that see only evil and danger--but through the lens of reality. China 
represents a significant challenge to the United States in many areas, 
and it represents a significant opportunity in many other areas. We 
need to look at the facts, analyze them objectively and 
dispassionately, and then act in ways that support our national 
interest.
    Third, there are significant human rights abuses in China. In some 
areas, the situation is worse today than in the past. In other areas, 
there have been improvements. We will recognize the latter, and be 
critical of the former.
    Fourth, in no country can there be sustained protection of human 
rights without the rule of law. Members of Congress, including many on 
this Commission, as well as every recent Administration, have been 
active in securing the release, or reduction of sentences, for 
individual prisoners of conscience in China. I expect that to continue, 
as it should. However, this Commission will look at human rights within 
the context of the rule of law in China. As a Commission, we may 
address individual cases, but only when there is likely to be a broader 
systemic and structural impact in China.
    The witnesses appearing today reflect that orientation. Human 
Rights Watch and Human Rights in China have done excellent work looking 
at the legal and political context in China within which human rights 
can be protected. And Professors Feinerman and Alford have focused much 
of their work on the rule of law and legal reform in China.
    The US-China relationship today is different than a year ago. 
Following the resolution of the downing of our reconnaissance plane on 
Hainan Island in April, and the horrible events of September 11, there 
has been a change in the bilateral relationship. Beijing is cooperating 
with us on the war against terrorism. China's rhetoric over Taiwan has 
ameliorated somewhat. China has joined the WTO. But serious problems 
remain between us in a number of areas--arms proliferation, human 
rights, and significant differences over Taiwan.
    This Commission will concentrate on the human rights aspects of our 
relationship, with a focus on the rule of law in China. We will look 
closely at areas such as religious freedom, political prisoners, Tibet 
and minority areas, labor rights, and the flow of information in China. 
We will examine the developing role of NGO's in China. We will look 
especially at developments in the rule of law, including legal reform 
in the civil, criminal, and commercial areas, and the way in which 
these laws are, or are not, being implemented. We will look at how the 
United States--and that means our government, the business community, 
and the NGO sector--can pursue policies and programs that will increase 
the respect for law in China, and strengthen those in China who are 
working to increase the transparency and objectivity of the legal 
system.
    China is not a monolith. There are many inside the Chinese 
government, the Communist Party, and State-Owned Enterprises who are 
working desperately to maintain the status quo. But there are also many 
in China who want to see genuine reform, both economic and political 
reform. They recognize that for China to become a great Nation and 
fully join the international community, China will have to follow 
international standards in the human rights area, meet the obligations 
the government has made in international covenants covering political, 
economic, social, cultural, and civil rights, and honor those 
provisions in the Chinese constitution and in Chinese law that claim to 
protect the individual from abuse by the state.
    As I said earlier, decisions about what happens inside China can, 
ultimately, only be made by the Chinese themselves. The question for 
this Commission, and for the Congress and the Administration, is: How 
can we best assist those who seek reform? Incorporating China into the 
WTO is, surely, one way to begin down the road of significant 
commercial law reform.
    We will not shrink from pointing out the ways in which the Chinese 
system is falling short of meeting those standards. But, the major 
challenge for this Commission is: How can we contribute to an 
improvement in the human rights of Chinese citizens? And how can we 
influence the structural change necessary to improve how those citizens 
are treated?
    In our hearings, we want to hear from groups and individuals who 
can add to our knowledge and understanding of the reality inside China. 
But we also want to hear from them about the ways that this Commission, 
with its Congressional and executive branch membership, can help 
promote and support positive, constructive, and lasting change in 
China.
    Let me address some remarks to the Chinese government. When the 
House of Representatives approved the PNTR legislation in May of 2000, 
the Chinese government said that it was a wise decision. But their 
spokesperson went on to say, ``The Chinese side is seriously concerned 
and dissatisfied that the bill contains provisions that attempt to 
interfere in China's internal affairs in various names like human 
rights and harm the interests of China. The Chinese side has .  .  . 
announced in explicit terms that it firmly opposes and cannot accept 
these provisions.'' I have two comments about that statement.
    First, this Commission is an instrument of the United States 
government and will vigorously pursue the issues of human rights and 
the rule of law in China. We do not seek to impose American standards 
on China. But, there are numerous international covenants relating to 
human rights that China has entered. The Chinese Constitution and 
Chinese laws include many written guarantees for the citizens of China. 
For China to be a full and responsible member of the international 
community, and that includes the global trading system, the rule of law 
must be honored. This is an issue of concern and interest to all 
nations interacting with China.
    We will work with China when we can. We will acknowledge progress. 
We will criticize when there is no progress. I firmly believe that 
there are many in China--government officials, business people, and 
ordinary citizens--who agree with this approach.
    Second, I urge the Chinese authorities to work with this 
Commission. I spent a decade fighting against putting conditions on our 
trading relationship with China. Along with others on this Commission, 
I fought hard for PNTR because I believe that engagement and deepening 
the relations between our two nations is the best way to induce change 
in China and bring them fully into the community of nations. It is in 
China's long-term interest to work closely with us.
    Let me conclude with a few comments about the Administration's 
human rights policy. In his meeting with Chinese President Jiang Zemin 
in Shanghai in October, President Bush discussed the importance of 
religious freedom and made a strong statement that the war on terrorism 
should not be used to justify a crackdown on minority groups in China. 
Under the leadership of Assistant Secretary of State Lorne Craner, a 
member of this Commission, the United States has re-engaged China in a 
bilateral human rights dialog. President Bush will visit Beijing 
February 21 to 22 and meet again with senior Chinese leaders. I urge 
him to ensure that human rights and rule of law issues are among his 
top priorities in those discussions.
    Let me turn to my Co-Chairman, Congressman Bereuter, for his 
statement as we initiate the work of the Congressional-Executive 
Commission on China. I invite the other members of the Commission to 
submit their opening statement for the record. After Congressman 
Bereuter's remarks, we will turn right to our panel of experts.
                                 ______
                                 

  Opening Statement of Hon. Doug Bereuter, Co-Chairman, Congressional-
                     Executive Commission on China

                            february 7, 2002
    Chairman Baucus, Senator Hagel, Congressman Levin, Under Secretary 
Aldonas, fellow Commissioners, distinguished panelists, ladies and 
gentlemen:
    I consider it a privilege to join Senator Baucus in convening this 
first formal hearing of the Congressional-Executive Commission on the 
People's Republic of China. I am particularly pleased to recognize the 
presence of my colleague and fellow Commissioner, the distinguished 
gentleman from Michigan, Sandy Levin, who deserves great credit for 
being the leading intellectual godfather of this Commission and who has 
worked tirelessly with me and others to see it come into being. I look 
forward to our continued association in guiding the work of the 
Commission over the coming years.
    As Senator Baucus has noted, this Commission was created by the 
China Relations Act of 2000 to create a forum for continuing 
congressional involvement in monitoring China's human rights practices 
and the development of the rule of law there. The Commission's mandate 
reflects continuing concerns, in both Houses of Congress and among 
Members of both political parties, not only about individual instances 
of human rights abuses in China but also about the need for encouraging 
systemic changes in China to end such practices. Undoubtedly all on the 
Commission share the goal of encouraging positive changes in Chinese 
Government policy and practice that will help those who have been 
punished unjustly for seeking to exercise basic human rights, prevent 
future abuses, or bring China's human rights practices into conformity 
with international standards. There are differences in the 
international community, and undoubtedly in Congress, as to the best 
methods for achieving this goal, but I believe there is broad consensus 
in Congress and America on the importance of the goal itself.
    In this context, I think that the Commission should concentrate 
primarily on systemic changes to China's human rights practices and 
legal regime, and not attempt to duplicate the important advocacy work 
on individual cases already being done by individual Members of 
Congress, human rights NGO's, and concerned members of the public. Of 
course, the registry of victims of human rights abuses that our mandate 
requires will provide an important resource for such advocacy, so the 
Commission will have a crucial role in this work.
    In my view, the human rights and rule of law parts of this 
Commission's mandate are intimately related. Virtually everyone in 
China, the United States, and elsewhere, who is concerned with human 
rights practices in China believes that progress in legal reform will 
necessarily result in greater compliance with the basic human rights 
enshrined in such international covenants as the Universal Declaration 
of Human Rights. Many also believe that such reforms will improve not 
only government transparency, but also the development of the essential 
institutions of democratic governance. The development of an open, 
transparent, and predictable legal system throughout China should also 
be beneficial over time in other ways, such as providing ordinary 
Chinese citizens with the legal means to check the arbitrary exercise 
of official power, as well as helping to ensure China's full 
implementation of its commitments under the World Trade Organization 
protocol of accession.
    Before we hear from our outstanding panel, I would offer some 
thoughts on four aspects of our Commission's work that I think will be 
of continuing importance to us. These aspects are:

          1. The Commission as a forum for a balanced, constructive 
        focus on human rights issues in China;
          2. The Commission as a catalyst for US efforts to support the 
        development of the Rule of Law in China;
          3. The Commission's development of a registry of victims of 
        human rights abuses; and
          4. The Commission as a resource for Senators, Members of the 
        House and their respective staffs, U.S. China specialists, and 
        the general public.

    With respect to the Commission's mandate on human rights, I believe 
it will be vital for us to undertake a comprehensive, objective look at 
the current State of Chinese Government compliance or non-compliance 
with international human rights norms. Following the sensible 
requirements of our legislative mandate, Commission staff should 
receive information and perspectives from human rights, labor, and 
religious freedom NGO's in the United States and elsewhere. We should 
also build on the work of relevant U.S. Government agencies (including 
those who are represented by our five Commissioners from executive 
branch), and from sources in China, Hong Kong, and elsewhere. This 
undertaking is a big job, but one made considerably easier by the 
important work of many people in the U.S. Government, U.S. universities 
and think tanks, and U.S. and international human rights NGO's. With 
this factual framework in place, we can then assess whether to 
recommend specific action by Congress or the Administration in our 
annual report.
    Second, I believe it is important that the Commission act as a 
catalyst for encouraging and supporting U.S. and multinational programs 
to build legal institutions in China. I hope that the Chinese 
Government will accept and welcome U.S. initiatives to help train 
judges and lawyers, inculcate a culture of transparency in the 
legislative and regulatory process, and to improve Chinese efforts to 
extend legal services to ordinary Chinese people, focusing particularly 
on the poor, women, and people in rural areas.
    Since the Chinese leadership embarked on the ``reform and opening 
up'' policy in the late 1970's, a number of Americans -among whom two 
of our panelists are the most distinguished- have participated in 
successful legal exchange and legal cooperation initiatives with 
counterparts in China. But the U.S. Government has never had its own 
directly funded program to complement these private efforts, and I 
believe the time has come for us to take a hard look at such a program. 
The Commission should determine in which areas additional U.S. public 
investment in rule of law programs in China might add value to existing 
private efforts or might permit new initiatives in areas previously 
untouched by U.S. efforts. The overall goal should be to produce 
significant long-term results on the ground in China without wastefully 
duplicating previous or existing initiatives. An understanding by the 
Commission, Congress, and our Government of the rule of law programs 
that other countries currently have with China will be an important 
part of this effort to avoid duplication and maximize the effectiveness 
of any U.S. rule of law program.
    Although many in the United States are interested in commercial 
rule of law programs, particularly as they relate to building capacity 
for WTO implementation and compliance, any U.S.-funded rule of law 
program should focus more broadly on civil, criminal, and 
administrative law reform. We should also welcome, encourage, and 
support initiatives to improve the transparency of the legislative and 
regulatory processes in China.
    Third, I believe that the establishment and maintenance of a 
useful, factually accurate, up-to-date registry of prisoners of 
conscience and other victims of human rights abuses will be a vital 
part of the Commission's work. Successful achievement of this task will 
be a complex and difficult undertaking, but my hope is that over time 
this registry will be a useful resource for Members of Congress and 
staff, researchers, the press, and the general public. Fortunately, 
individuals and organizations with experience in collecting, storing, 
and using such information have offered to cooperate with the 
Commission. In addition, I think that recent advances in information 
technology will help Commission staff in meeting this important aspect 
of our mandate.
    Fourth and finally, as we progress in staffing the Commission and 
gathering information on the specific issues in the mandate, I hope 
that the Commission would earn the confidence of Members of Congress 
and their staffs as a resource for timely, objective information about 
China generally. Naturally, our focus and expertise will be principally 
with respect to the specific areas of human rights and the rule of law, 
but we expect to staff the Commission with qualified staff possessing 
broad experience in China. I hope that the Commission could assist 
Members of Congress and staff who plan to travel to China to prepare 
for their visits, particularly in becoming familiar with human rights 
and rule of law issues. The registry should provide the type of 
information that would permit Members of Congress to raise and discuss 
the cases of specific individuals during official meetings in China.
    Mr. Chairman, we have a distinguished panel this afternoon to share 
their views with us, and I would like to express my appreciation for 
their appearance and testimony. Each has dedicated a significant part 
of his professional life to one or more of the issues in our mandate, 
and I know we will hear lively, informative, and thoughtful 
presentations. Thank you, Mr. Chairman.
                                 ______
                                 

  Prepared Statement of Hon. Carl Levin, a U.S. Senator From Michigan

                            february 7, 2002
    Mr. Chairman, Thank you for convening the first hearing of the 
Congressional-Executive Commission on China. The members of this 
commission have an important and difficult task ahead of us. Our 
challenge is to find a way to prod China to comply with internationally 
accepted human rights standards, respect for labor rights, religious 
freedom and the development of rule of law, when prior efforts met with 
little success.
    I, like many of my colleagues, voted to grant China permanent 
normal trade relations in part because the legislation included a 
specific mechanism to monitor and report on China's human rights 
practices. That mechanism is this Commission which my brother, 
Congressman Sander Levin, put forward as a way to keep some public, 
visible and ongoing pressure to replace the annual congressional vote 
on China's MFN on China to reform in the areas of human rights, labor 
rights and the development of the rule of law. The Commission offers 
the promise of an effective tool for both monitoring and changing the 
human rights conditions in China. Clearly the mechanisms of the past 
were largely ineffective in impacting the human rights climate in 
China.
    The Commission must be bold and innovative in carving out new and 
effective ways to influence China. China's human rights record is 
abysmal and is getting worse. And China has shown little willingness to 
change this record. The Commission has its work cut out for it.
    The State Department's most recent Human Rights Report on China 
(year 2000) concludes that the Chinese government's poor human rights 
record has worsened, and China continued to commit numerous serious 
abuses. It comes as no surprise that the State Department found China 
in violation of many of the basic human rights contained in the 
International Covenant on Civil and Political Rights and in the 
Universal Declaration of Human Rights. These include the right to 
engage in free expression; the right to peaceful assembly, religious 
freedom, protection of internationally recognized worker rights, 
freedom from incarceration as punishment for political opposition to 
the government or for exercising or advocating human rights.
    Examples of human rights abuses by the Chinese Government are 
extensive and disturbing. For example, the State Department reported 
that China intensified its harsh treatment of political dissent, 
crackdowns on religion and, in Tibet, and generally, suppressed any 
person or group perceived to threaten the Government. The State 
Department reports abuses including instances of extrajudicial 
killings, the use of torture, forced confessions, arbitrary arrests and 
detention, the mistreatment of prisoners, lengthy incommunicado 
detention, and denial of due process.
    Over the past few years, China has cracked down harshly on the 
Falun Gong movement and imprisoned hundreds of its leaders and placed 
thousands of its followers in detention, reeducation-through-labor 
camps or in mental institutions. Hundreds of Falun Gong members died in 
police custody and many were tortured.
    U.S.-China relations were seriously strained when China detained a 
number of U.S. citizen or U.S. permanent resident academics of Chinese 
dissent, including detaining the 5 year old son of a U.S. permanent 
resident, a U.S. citizen, for 26 days without notification to U.S. 
officials.
    China executes more people in 1 year than all other countries put 
together, and this is often after unfair and secret trials. There is 
also the horrendous issue of organ harvesting which is directly linked 
to the execution of prisoners.
    I am also concerned about the use of prison labor in China, 
especially when the products made by forced prison labor are exported 
to the United States. The State Department reports that forced labor in 
prison facilities is still a serious problem and confirms that some 
Chinese prisons contract directly with regular industries to supply 
prison labor or operate their own factories.
    More U.S. Customs Service enforcement actions involving prison or 
forced labor facilities have been issued for China--20 of 23 
outstanding orders to detain merchandise suspected of containing 
content made with prison labor B than for any other country.
    However, the State Department has been denied access to Chinese 
prisons suspected of producing products for export made with prison 
labor. This is despite a 1992 Memorandum of Understanding (MOU) with 
China prohibiting the export of prison made products and a 1994 
Statement of Cooperation (SOC) allowing us to inspect Chinese plants 
suspected of using prison labor to make goods for export. China's 
compliance with the MOU and SOC is poor. China continues to deny almost 
all of our repeated requests to visit suspected prison factories. The 
few visits that were permitted in the late 1990's were only the result 
of significant high level diplomatic pressure.
    There are 8 pending requests to visit Chinese factories suspected 
of producing goods for export with prison labor, dating back as far as 
1992. This is in addition to 11 outstanding requests for the PRC to 
investigate prison labor allegations pertaining to exports to the 
United States to which the Ministry of Justice has not responded.
    The State Department report specifically mentions a 1998 report 
that soccer balls were being made for export by prisons near Shanghai. 
The Chinese Government failed to respond to an October 1998 request to 
investigate these allocations. Unfortunately, one negative side effect 
of China's inaction is that people may be less willing to take the risk 
of reporting prison labor violations when they know nothing will be 
done about it.
    I am also concerned about the lack of respect in China for labor 
rights. The five core International Labor Organization (ILO) labor 
standards are: (1) the right of association; (2) the right to organize 
and bargain collectively; (3) a ban on child labor; (4) a ban on 
compulsory labor; and (5) a ban on discrimination in employment. China 
has had a poor track record to date in recognizing and protecting these 
internationally recognized rights. For one thing, China only recognizes 
approved registered unions. So, while Chinese workers may have had the 
right to be in a union, it had to be the State sanctioned union. China 
has cracked down on efforts to organize other unions by detaining or 
arresting labor activists involved in <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c283abaeaea7a5a3ae82">[email&#160;protected]</a> union activity.
    Recently there are signs that China may be changing regarding labor 
rights. Last year a new law was passed that would allow for union 
organizing and bargaining from the bottom up, although the new unions 
would still have to be affiliated in some way with the State sanctioned 
unions.
    It remains to be seen if these new labor rights will be meaningful. 
Much depends on the extent to which these new rights are real. The 
Commission should monitor whether the new law is implemented vigorously 
and if the new rights are protected by the central government.
    In summary, the human rights situation in China is offensive, 
intolerable and in violation of internationally accepted norms. 
Improvements in China's human rights record is an essential requirement 
for improving the U.S.- China relationship. The American people will 
have little tolerance to trade with a Nation that has no respect for 
the rights of its own people. Trade and human rights are therefore 
inextricable linked. The hope is that through the establishment of the 
rule of law in China, respect for and protection of human rights will 
increase.
    Now that China has been granted PNTR and joined 142 other nations 
in the World Trade Organization, we should use this membership as a way 
to open China's markets to our goods the way our market has been open 
to China's goods. We should also use it to exert meaningful pressure on 
China to join that community of nations that respects basic human 
rights so that 1 day the people of that country can enjoy their 
fundamental human rights. I hope the Commission can make an important 
contribution to achieving that goal.
                                 ______
                                 

Prepared Statement of Hon. Sander M. Levin, a U.S. Representative From 
                                Michigan

                            february 7, 2002
    I am very glad to be here today as a member of this Commission and 
I am pleased that the Commission is becoming operational. It is vital 
that this Commission fulfills the function that Congress intended for 
it when we created it.
    Two years ago, in deliberating Permanent Normal Trade Relations for 
China, we spelled out clear goals for the Commission as a critical part 
of the effort to both engage and confront China:

         ``The Congressional-Executive Commission will be an effective 
        tool for pressing China to improve its record in the vital 
        areas of human rights, adherence to core labor standards, rule 
        of law and democracy building. Comprised of Members of Congress 
        and senior Administration officials, the Commission will have 
        unparalleled profile and credibility to call attention to its 
        analysis and recommendations.
         ``The Commission will place an ongoing, focused spotlight on 
        human rights and other government practices in China. .  .  .
         ``The Commission will be a vast improvement over the annual 
        review. That process concentrates congressional attention on 
        China for only a few weeks each year. The Commission, by 
        contrast, would have permanent, expert staff and resources 
        devoted to monitoring China on a systematic, year-round basis.
         ``The Commission will perform a unique role in the U.S. effort 
        to press for reform in China.
         ``The Commission will for the first time provide a mechanism 
        focused solely on human rights, labor rights and religious 
        freedom issues in the U.S. relationship with China. .  .  .
         ``Finally, by bringing together senior executive branch 
        officials with Members of Congress on a bipartisan basis, the 
        Commission will have a profile and level of credibility that 
        existing congressional committees or executive branch agencies 
        simply cannot match.''

    The events since the House vote have only confirmed the need for 
this Commission to play each of these vital roles. The State Department 
reports that China's human rights record has grown worse in the last 2 
years. China continues to prevent its citizens from the free exercise 
of their religion and has continued and stepped up its campaign against 
members of the Falun Gong movement. China's repression of Tibet 
continues, as well as its repression of ethnic minorities such as the 
uighurs. China has detained a number of scholars and American citizens, 
as it continues to try to thwart free speech and freedom of ideas. An 
article in the January 21 edition of the Washington Post, detailing the 
use of police and the military to quell a strike in the Shuangfeng 
Textile Factory, illustrates the serious labor rights violations 
continuing in China.
    At the same time, China's efforts to move away from a state-
dominated to a free market economy have accelerated and the Chinese 
legal system is inching toward the rule of law. In both cases, however, 
there are still miles to go, validating the need for policies and 
programs that reinforce any positive impacts arising from the movement 
toward a market economy. China has formally become a member of the WTO, 
but it still has very far to go in implementing all of its commitments. 
Just in the past 2 weeks, businesses and the USTR have raised serious 
concerns about China's WTO implementation.
    I am pleased that this inaugural hearing is focused on human rights 
issues. The Commission must help keep Congress informed and focused on 
human rights and political prisoners issues in China. It will not be an 
easy task, but this job is crucial to the Commission's success.
    The Commission also has a key role to play in monitoring labor 
rights in China. Democratic staff from the Ways and Means Committee 
were recently in Cambodia examining the operation of the U.S.-Cambodia 
textiles and apparel agreement. This agreement addressed the labor 
rights issue in an innovative way--encouraging Cambodia to improve its 
labor rights through positive market access incentives. One of the 
issues that became clear on that trip was that China enjoyed an 
advantage because of its failure to respect labor rights: As one 
factory owner comparing his labor practices in his factory in Cambodia 
with his practices in his factory in China stated, ``I can do whatever 
I want in China.'' As China's accession to the WTO takes hold, other 
countries, particularly neighbors of China, will find it difficult to 
compete with China in attracting labor-intensive industries if China 
continues to allow investors there to ignore labor rights. There will 
truly be pressure for a race to the bottom.
    Separately, respect for labor rights will help further develop a 
middle class in China. Although some claim that more trade in and of 
itself will automatically lead to a middle class, I do not believe that 
is the case. When workers have the right to organize and bargain 
collectively, they can enjoy a larger share of the profits that they 
help create.
    The Commission will provide a key tool to Congress and the 
Administration to help improve labor rights in China. It will provide a 
source of information and monitoring that both the Administration and 
Congress can trust. I hope the Commission will also make useful 
recommendations on ways to work with China to improve the respect for 
worker rights.
    Finally, the rule of law is both a human rights issue and a 
commercial issue. China made a host of important commitments as part of 
its WTO accession. In order for the United States to obtain the full 
benefits of those commitments, China must implement them in its law and 
properly enforce the law. I think the Commission can play a ground-
breaking role in helping the rule of law to flourish in China.
    The Commission must pursue each of its roles aggressively. I would 
hope that by this time next year, the Commission will be seen as a 
fixture, having earned the respect of the human rights community, the 
business and labor community, Members of Congress, the Administration, 
as well as the Government of China.
    Former President Clinton said in his January 27, 2000 State of the 
Union address: ``[W]e need to know that we did everything we possibly 
could to maximize the chance that China will choose the right future.'' 
China is a dynamic, complex, and evolving country. The U.S. 
relationship with China reflects these facts and is itself dynamic, 
complex, and evolving. This Commission has important potential to shape 
the development of U.S. policy toward China, and even to impact 
constructively the evolution of China.
                                 ______
                                 

  Prepared Statement of Hon. Marcy Kaptur, a U.S. Representative From 
                                  Ohio

                            february 7, 2002
    Mr. Chairmen, I am pleased that the Congressional-Executive 
Commission on China finally is meeting. This hearing has been a long 
time coming.
    First, I would like to thank the witnesses for appearing before our 
Commission. Your unique perspectives on the grave human rights 
situation in China draw attention not only to the oppressed on the 
mainland, but to all struggling people who face of cruelty and 
brutality at the hands of repressive regimes. Your cause is noble.
    While some Members of Congress opposed the unconditional granting 
of most favored Nation status to China, no one could object to a body 
investigating the disregard for human rights in that nation. For those 
nominated to serve on this Commission, we face many challenges--the 
first being the maintenance of Congress' commitment to this vital 
matter. Already, we have seen almost 2 years since the passage of H.R. 
4444. That is an unacceptable waste of time. During this period, the 
rate of persecutions in China among those struggling for human, 
religious, and labor rights has arguably increased at an alarming pace. 
Our hearings should be regular, open and timely.
    Since 2000, organizations like Human Rights Watch and The National 
Labor Committee (NLC) have done yeomen's work in highlighting the 
ongoing abuse of people in China. ``Toys of Misery,'' a recent report 
by NLC, documents the shocking and flagrant exploitation of 
internationally recognized human and worker rights. I urge Members of 
the Commission to examine closely the groundbreaking report on toy 
manufacturers at www.nlcnet.org. Included are first-hand accounts of 
16-hour workdays at starvation wages of 17 cents per hour. Many 
employees work in factories with little or no ventilation, safety 
protections, or sanitary break areas. Workdays often consist of 100-
plus degree heat while handling toxic glues, paints and solvents. The 
end product--toys--end up in McDonald's Happy Meals, on the shelves at 
the local Wal-Mart, and, eventually, in our families' homes. 
Unfortunately, all too often, reports like this are lost in the 
churning media cycle. Our responsibility is to never forget the women, 
men, and children struggling to survive another day in these brutal 
conditions. Globalization may have logic, but it has no ethic.
    As I have stated many times, trade does not bring freedom nor 
economic security for the rank and file. Only a nation's patient 
commitment to legal and social justice that dignifies the individual 
will uplift living conditions. I encourage President Bush to place 
human worker rights among his top discussion points during his upcoming 
trip to the People's Republic of China. Better yet, why not include 
Members of the Commission as part of his delegation? If the President's 
sincere commitment to freedom is to be shared throughout the world, he 
must be diligent in all international dialogs. The best way to stem the 
flow of violence and terrorism is through a free people.
    Rights of association, freedom of the press, and, surely, freedom 
of religion should never be abridged. Both chambers and the 
Administration have acknowledged the positive role faith can play in 
the development of a healthy and productive society. Those brave few 
who push for these rights in China and Tibet find an almost impossible 
feat ahead. In its 2001 Annual Report, the United States Commission on 
International Religious Freedom (USCIRF) released the following 
summary:

         In the last year, the government of the People's Republic of 
        China (PRC or China) has expanded its crackdown on unregistered 
        religious communities and tightened its control on official 
        religious organizations. The government has intensified its 
        campaign against the Falun Gong movement and its followers. It 
        apparently has also been involved in the confiscation and 
        destruction of up to 3,000 unregistered religious buildings and 
        sites in southeastern China. Government control over the 
        official Protestant and Catholic churches has increased. It 
        continues to interfere in the training and selection of 
        religious leaders and clergy. At the same time, the government 
        continues to maintain tight control over Uighur Muslims and 
        Tibetan Buddhists. Finally, cases of torture by government 
        officials reportedly are on the rise.

    According to reports from the State Department and USCIRF, some 
members of the officially sanctioned Chinese Catholic church do not 
recognize the legitimacy of bishops appointed by the Vatican. America's 
trade and foreign policy should stand to reaffirm our support for 
religious freedom at home and abroad.
    The success of this Commission rests solely on our shoulders. The 
hopes of billions of people pivot on the world's voices for freedom.
                                 ______
                                 

Prepared Statement of Hon. Joseph R. Pitts, a U.S. Representative from 
                              Pennsylvania

                            february 7, 2002
    Mr. Chairman, thank you for holding this important hearing on 
China's Accession to the World Trade Organization of the People's 
Republic of China and Related Rule-of-Law Issues. Also, I would like to 
thank Mr. Mike Jendrzejczyk, Mr. Xiao Qiang, Professor James V. 
Feinerman, and Professor William P. Alford for sharing their expertise 
and insight with us today.
    Addressing rule of law issues in China, as reported by many 
scholars and human rights experts, is vital to establishing 
international human rights standards in China. Unfortunately, as noted 
in the testimonies this morning, recent incidents, particularly related 
to freedom of speech and freedom of conscience, reflect the intense 
battle within Chinese society between those who wish to live in freedom 
and those who wish to exert extreme control over the society and 
individuals, their actions, speech, and even their thoughts.
    As our government gives assistance to the Chinese government for 
civil society development, we must be specific in our assistance 
targeting areas in which a real, practical difference can be made. For 
example, it is vital that as just rule of law is developed in China. It 
is also vital that the distinction be made that criminal action be 
dealt with under established criminal law, but that no new laws are 
needed to limit freedom of religion. Official PRC Government documents 
make it clear that the drive to maintain control over religious 
believers in China remains strong. In one report regarding a meeting of 
Chinese officials, the officials were charged to ``Quickly gather the 
essential personnel and find out the development and activities of this 
cult in our province. Carefully gather all the information and try to 
catch all the members in one blow. Pay attention to keep it 
confidential and work without talking.'' Comrade, the head of the 
Ministry of Public Security, emphasized specifically that ``we need to 
work more and talk less and smash the cult quietly.'' This is not the 
statement of officials who aim to protect the freedom of conscience of 
their people.
    In one case from December 2001, reports suggest that Mr. Gong 
Shengliang was accused of ``crying out to his followers to `fight a 
bloody battle with the devil (referring to the government) till the 
end, so that the Satan's (referring to the Communist Party) authority 
will be destroyed and the kingdom of the ever-lasting God will be 
established.' '' The Communist Party's accusations against Mr. Gong 
Shengliang are reminiscent of those against Pastor Xu Yongze, also a 
Protestant church leader, accused of instigating his followers to fight 
against the devils and demons in power. According to various reports, 
neither of these men were attempting to engage their fellow religious 
believers in a physical battle against anyone. The Communist Party, 
however, has their own interpretation.
    Mr. Chairman, these brief examples, along with the others reported 
today, underscore the importance of continuing to address these issues 
in deliberate, practical ways.
                                 ______
                                 

 Prepared Statement of Hon. Frank R. Wolf, a U.S. Representative From 
                                Virginia

                            february 7, 2002
    I want to thank Chairman Baucus and Chairman Bereuter for holding 
this hearing today.
    I have strong concerns at the direction that this commission 
appears to be heading.
    The legislation that created this commission is very clear about 
its functions. By law, this commission is to:

(a) ``monitor the acts of the People's Republic of China which reflect 
        compliance with or violation of human rights. .  .  . ''
(b) ``compile and maintain lists of persons believed to be imprisoned, 
        detained, or placed under house arrest, tortured, or otherwise 
        persecuted by the Government of the People's Republic of China.  
        .  . ''
(c) ``monitor the development of the rule of law.''

    It was said by some Members who helped form this commission that 
they wanted it to be modeled on the highly effective Helsinki 
Commission. The Helsinki Commission played an important role in 
confronting, monitoring, and promoting human rights in the former 
Soviet Union. I believe the Helsinki Commission had a significant role 
in helping tear down the Iron Curtain. The Helsinki Commission was and 
is a strong advocate for human rights and religious freedom. Helsinki 
Commission Members traveled to the former Soviet Union and Eastern Bloc 
countries and confronted the political leadership about human rights 
and religious freedom issues. The Helsinki Commission sent letters to 
the former Soviet Union and spoke out publicly, advocating for specific 
individuals, for religious freedom, for the development of democracy 
and for the rule of law.
    If the Congressional-Executive Commission on China wants to be 
successful; if the Congressional-Executive Commission on China wants to 
emulate the Helsinki Commission; if the Congressional-Executive 
Commission on China truly wants to promote human rights and the rule of 
law in China, it has to be a strong and outspoken advocate for human 
rights and religious freedom in China. I am concerned that this 
commission may not be willing to be such an advocate. I believe that 
the future of this commission depends on whether or not it will step up 
to the plate and confront the Chinese leadership on behalf of human 
rights, religious freedom and the rule of law.
    I also am very concerned with the selection of commission staff 
members. Staff members appear to lack the experience in promoting human 
rights and religious freedom in China. With the commission's function 
to monitor human rights, religious freedom and the rule of law, the 
commission staff should be comprised of people who have a proven track 
record of promoting human rights, religious freedom and the rule of law 
in China.
    Lastly, I am concerned with a statement made by James Feinerman who 
is testifying today. While I am sure Mr. Feinerman is a fine scholar 
and I respect his work, Mr. Feinerman stated in a 1997 Washington Post 
article that people in the United States who criticize China for its 
practice of forced prison labor are hypocrites. I enclose this article 
for the record. Mr. Feinerman is quoted as saying,

          Harry Wu and others have tried to stir up a great controversy 
        about how goods made by forced labor are flooding into our 
        market. .  .  . But in fact, it's only a tiny fraction of all 
        Chinese goods. And it seems to me the height of hypocrisy for 
        us to get on our high horse about China making its prisoners 
        work, given the fact that we do the same thing with our 
        prisoners .  .  . [the Chinese prison system is designed] to 
        make offenders pay a harsh penalty, on the theory that it 
        scares people so they won't come back into the prison system. 
        You can argue that it works. They have very low rates of 
        recidivism. Who are we to argue with their choices?

    Given that the Chinese government has imprisoned thousands of 
people--Roman Catholics, Protestants, Buddhists and Muslims--simply 
because of their faith; given that the Chinese government has 
imprisoned thousands of people for promoting democracy, if accurate, 
Mr. Feinerman's statement is very troubling.
    I question the wisdom of selecting a person to testify about the 
rule of law in China who says of the Chinese system and its critics: 
``You can argue that it works. .  .  . Who are we to argue with their 
choices?''
    This commission is full of promise and faces great opportunity to 
make a difference. Like the Helsinki Committee, the Congressional-
Executive Commission on China will only be effective if it speaks out 
and becomes an advocate for human rights and the rule of law in China.
                                 ______
                                 

   Prepared Statement of Hon. Dianne Feinstein, a U.S. Senator From 
                               California

                            february 7, 2002
    Mr. Chairman, I would like to thank the panel of witnesses for 
joining us for this inaugural session of the Congressional-Executive 
Commission on China. And I would also like to thank the Chairman and 
Vice-Chairman for all their hard work over the past few months in 
organizing both this hearing and the Commission itself.
    This Commission has been created with a mandate both to monitor 
China's compliance with human rights agreements and its development of 
rule of law, and to encourage programs and activities that will assist 
in that development.
    I say this as one who believes it is neither possible nor desirable 
to isolate or contain China, and that empty rhetoric will not be 
sufficient to improve China's human rights record. Rather, the national 
interests of the United States are best served by the evolution of a 
China that is peaceful, stable, and a leader in Asia with whom we can 
work to solve serious problems whether they be retarding aggression by 
North Korea or solving the Kashmiri crisis now polarizing India and 
Pakistan.
    A first glance at the complexities of the U.S.-China relationship 
reveals many points of apparent conflict: our contrasting forms of 
government, our dissimilar cultures and historical background, and our 
varying perspectives. Yet in spite of these differences, we share an 
agenda of common goals.
    China has existed for 5,000 years, and over its history has 
experienced some of the most brutal tyrannies earth has witnessed, as 
well as revolutionary change. And, for 5,000 years the Chinese people 
have not enjoyed democracy or rule of law in the way that, for 225 
years, has allowed the United States to experience unprecedented 
freedom and ``government of the people, by the people, for the 
people.''
    Since the United States and China normalized relations almost three 
decades ago, China has undergone extensive change, ushering in an era 
of massive social reform and economic advancement. Economic growth and 
dynamism, privatization of state-owned enterprises, communication and 
exchange of ideas with the west, and the positive impact of the Hong 
Kong model have brought increased living standards and quality of life 
to many in China.
    And although it is clear China still has a long way to go where 
human rights and the rule of law are concerned, few objective observers 
would argue that there have not been significant benefits and advances 
that have come from interaction with the west during this time. The 
post-Deng China of Jiang Zemin and Zhu Rongji is simply not the China 
of Mao or the Gang of Four.
    Some western analysts look at China's policy in Tibet, or its 
treatment of the Muslim Uygur people or the crack-down on the Falun 
Gong and argue that China's behavior in these cases reveals the true 
nature of the Chinese government. Others point to the success of the 
Hong Kong model, and China's booming south, where however imperfectly, 
greater personal freedoms, village and local elections, respect for 
private property, and a budding infrastructure of commercial law point 
toward a future where political pluralism, human rights, and rule of 
law can be imagined.
    The next few years will witness if China's leadership will 
demonstrate that they understand that the right course for their Nation 
includes an increased respect for human rights and rule of law. 
Following this path will continue to improve relations with the west 
and help make China a more responsible and fully integrated member of 
the of the international community.
    The establishment of this Commission represents, in this context, 
an important new opportunity to extend U.S.-China dialog on human 
rights, and I strongly believe that the Commission must, where 
possible, find ways in which the U.S. and China can work together to 
attain commonly desired goals in areas such as the rule of law.
    In order to do so, we will need to work closely with non-
governmental organizations, such as those represented here today on the 
panel. Your experiences and insights provided to us through reports, 
updates and testimony will enable us to carry out our responsibilities. 
I look forward to hearing your views: what the key issues are and how 
we as a commission might best address those issues.
    I intend to work energetically as a member of the Commission to 
ensure China's compliance with its human rights covenants and its 
progress on rule of law, and I will also urge as an equally important 
part of the Commission's work the encouragement of those programs and 
activities of both the U.S. Government and private organizations that 
will improve bilateral relations and increase the interchange of people 
and ideas between the United States and China.
    I am pleased to have the opportunity to serve on the Congressional-
Executive Commission on China.
                                 ______
                                 

Prepared Statement of Hon. Bob Smith, a U.S. Senator From New Hampshire

                            february 7, 2002
    I am pleased at the leadership exhibited by the China Commission 
Co-Chairmen, Senator Baucus and Congressman Bereuter, as they have 
organized this commission through turbulent times in the last several 
months. Furthermore, it is also an honor and a distinct privilege for 
myself to be a part of the China Commission and I look forward to my 
work on this commission.
    As we meet this afternoon to hear testimony from the experts before 
us on the issue of human rights in the context of the rule of law, I 
would like to take this opportunity to express my vision and desires 
for this commission. I did not support the China PNTR legislation which 
granted China the privilege of trading with the United States on 
preferential terms. I feel now as I did in October of 2000, that 
enriching a communist regime and furthering it's ability to repress its 
people and threaten the citizens of the this Nation as well as the 
democratic island of Taiwan was not in the best interests of America or 
the Chinese people.
    However, I did support the creation of this commission to monitor 
China's transition and adoption of the principles of rule of law and 
human rights in that nation. It is my hope that this commission will 
diligently work toward advancing these universally sacred principles. 
It is also my hope that the China Commission will not act in the 
expediency of promoting corporate business interests nor give 
unbalanced reports that will allow us or the American people a false 
sense China's movement toward and commitment of conducting itself along 
recognized international norms.
    I strongly feel that it is imperative the China Commission use its 
leverage to keep China accountable for the ideals which proponents of 
PNTR have stated trade will nurture in China. Moreover, I am hopeful 
that the China Commission will actively pursue and document reports of 
religious persecution, forced abortion, slave labor and other egregious 
human rights violations which are still sanctioned by the Chinese 
Government.
    I am disheartened to read reports by the press and human and 
religious rights groups who find no lack of documentation of China's 
repression of Christians, Muslims, Falun Gong practitioners and other 
religions. I believe this commission could have great impact on human 
rights in China. Given the fact that the United States no longer has a 
seat on the U.N. Human Rights Commission, the China Commission could 
release its report to influence the U.N. Human Rights Commission's 
findings on that nation.
    The China Commission's other task, to monitor the rule of law--both 
civil and trade law, is also of grave importance. As more and more U.S. 
companies decide to try to grow their business and commit substantial 
investment in China, I am concerned at the lack of transparency, 
corruption and the general murky environment of Chinese business 
practices which U.S. companies must navigate. I believe this commission 
must diligently examine the impact of China's difficulties or 
unwillingness in adhering to WTO rules and regulations and bring these 
issues to light.
    It is imperative that we not continue to blur the line between 
national security and trade. In the past, the United States has had to 
transfer high-tech know-how to Chinese companies in order to facilitate 
the completion of business transactions. I am alarmed about this not 
only because of my national security concerns, but because we are 
giving up advantages in lucrative niche markets, such as aerospace.
    Furthermore, I have strong concerns for U.S. companies whose 
intellectual property rights are being stolen, an area in which the 
U.S. has tried to work with the Chinese for years to no avail. This is 
an area I would like to address later.
    Clearly, this Commission will encounter the fundamental challenges 
facing relations between the United States and China now and into the 
foreseeable future. I believe this commission can be used as a tool to 
help shape that relationship, and will I work to ensure it is balanced 
in its approach and reporting on China, as laid out in the legislation 
which formed it.
    Before I close, I would like to take this opportunity to quote 
remarks made by William Hawkins, a Senior Fellow for National Security 
Studies at the U.S. Business and Industry Council, which addresses 
major concerns of mine, and I hope members of this commission. In an 
article written recently by Mr. Hawkins, he illustrated examples of new 
industrial/economic powers emerging to global powers, such as Great 
Britain, Japan and the United States. Mr. Hawkins accurately notes that 
their emergence in economic and political power had enormous 
consequences to the global balance of power--England established an 
empire on which the sun never set, Japan used its economic power to 
drive the British and other powers out of Asia, while the United States 
used its economic power to win WWII and to end Soviet communism and 
oppression during the cold war. After noting these observations, Mr. 
Hawkins then posed the following question, ``What will China do with 
its expanding economic capabilities? Beijing's ambition to become the 
dominant power in Asia is well known. If the United States continues to 
think only in terms of `rules-based trading system' when it looks at 
the Chinese economy and the behavior of private corporations, it will 
`suddenly' find itself facing a power with the means to back its 
bellicose rhetoric-and the change will not be `positive' in any way.''

                       Submissions for the Record

                              ----------                              

    [The following article was submitted for the record by 
Representative Frank Wolf.]

                [From the Washington Post, June 3, 1997]

    Prison Labor: Can U.S. Point Finger at China? American Inmates 
  Manufacture Products, But Trade Debate Centers on Beijing's Policies

                           (By Paul Blustein)

    Horror stories are surfacing anew about the Chinese prison labor 
system and the sale of its products in the United States. But consider 
what is happening to the 64,000 U.S. convicts in the Florida prison 
system:
    Prisoners are required to work--or face punishment. Most inmates, 
even ones digging ditches on chain gangs, are paid nothing. Moreover, 
some of the products they make, such as boots and license plates, are 
exported to foreign countries.
    Therein lies a question: Because inmates in many U.S. prisons are 
obliged to work, do Americans have the right to condemn China's prison 
labor practices?
    The question arises because China's ``reform through labor'' penal 
system, known in Chinese as laogai, is becoming a hot issue in Congress 
and the media amid the mounting debate over whether Beijing should be 
allowed to retain its trading privileges.
    Senate and House committees held hearings May 21 and 22 on 
allegations that goods made in Chinese prisons are being imported into 
the United States in violation of U.S. law and a U.S.-China agreement. 
Among those offering testimony about how easy it is to buy convict-made 
goods was Harry Wu, a former inmate laborer who has gained worldwide 
fame for returning to China to document the nation's ``prison 
economy.'' An ABC ``Nightline'' program broadcast the night after the 
hearing featured videotape from another witness indicating that binder 
clips were being made in a Chinese women's prison for a U.S. office-
supplies company.
    All of this is generating potent ammunition for critics of U.S. 
trade with China, who contend that Beijing is profiting from the toil 
of people railroaded into working cruelly long hours under appalling 
conditions. TV ads being readied by the Family Research Council, a 
group seeking to overturn China's most-favored-nation trade status, 
accuse Beijing of employing ``slave labor.''
    But some academic experts call this argument a classic example of 
hyping an issue to advance a political agenda.
    ``Harry Wu and others have tried to stir up a great controversy 
about how goods made by forced labor are flooding into our market,'' 
said James Feinerman, a professor of Asian Legal Studies at Georgetown 
University. ``But in fact, it's only a tiny fraction of all Chinese 
goods. And it seems to me to be the height of hypocrisy for us to get 
on our high horse about China making its prisoners work, given the fact 
that we do the same thing with our prisoners.''
    The importation of goods made in Chinese prisons, while against 
U.S. law, should be a ``non-issue because the amounts are so small,'' 
agreed James Seymour, a senior research scholar at Columbia University 
whose book on Chinese prisons is scheduled to be published shortly. 
Although the precise amount is impossible to determine, Seymour's book 
cites Chinese economic data indicating that the output of Chinese 
prisons constitutes less than one-fifth of 1 percent of total Chinese 
production.
    The U.S. Federal prison system, and many State prison systems, 
require all able-bodied inmates to work, often in tasks that are 
designed to save taxpayers money, such as cleaning up highways, 
painting public buildings or making office furniture. Those who refuse 
typically are deprived of privileges or sent to higher-security 
institutions.
    Pay is far below minimum wage--12 cents to $ 1.15 an hour for 
Federal inmates, and less than that in many State systems. So their 
products usually are barred from sale except to government agencies. 
But ironically, while the law prohibits importing prison-made goods and 
restricts their sale across State lines, there is no law barring their 
export.
    Thus, boots made by Florida prisoners have been shipped to 
Trinidad, license plates have been sent to Nicaragua and cedar-lined 
boxes have been exported to the Dominican Republic, according to Pamela 
Jo Davis, president of Pride Enterprises, an organization that pays 
about 4,300 Florida inmates 20 cents to 50 cents an hour for their 
labor and provides job training as well.
    ``Being in Florida, we're targeting Latin America and South 
America,'' Davis said. ``Those are clearly our trading partners.''
    Florida's prisoners are not the only ones making goods for export; 
blue jeans bearing the brand name ``Prison Blues,'' made by Oregon 
inmates, have become big sellers in Asia.
    Critics of China's penal system argue that it shouldn't be viewed 
as even remotely similar to the one in the United States.
    ``Are you willing to compare the American system with the gulag [in 
the Soviet Union under Joseph Stalin] or the Nazi [labor camp] 
system?'' said Wu, who directs the Laogai Research Foundation in 
Milpitas, Calif.
    Added Jeffrey L. Fiedler, president of the AFL-CIO's Food and 
Allied Service Trades Department, who investigates violations of U.S. 
prison labor laws: ``The whole system is different. There is no law or 
due process in China.''
    In China, Fiedler noted, a person accused of petty thievery or 
other misdemeanors can be sentenced to up to 3 years in a labor camp, 
with a possibility of an extended sentence, based simply on an 
administrative decision by local law enforcement authorities, with no 
formal trial. And while serious offenders usually are tried, judges 
often are Communist Party loyalists who dispense justice arbitrarily, 
according to experts on the Chinese system.
    Moreover, some of China's inmates are imprisoned for political 
activism--or ``counterrevolutionary offenses,'' as the Chinese put it. 
But by virtually all accounts, the number of such people--about 2,700, 
according to the U.S. government--is dwarfed by the numbers of others 
convicted of crimes such as murder, rape and robbery. (Wu estimates 
that 6 million to 8 million people are laboring in the various branches 
of the penal system.)
    ``Most of the people in the laogai are of course ordinary 
criminals, not political,'' said Chen Pokong, a 33-year-old visiting 
economics scholar at Columbia who spent 5 years as an inmate.
    Chen's case illustrates what many experts find most troubling about 
the Chinese penal system--the extensively documented evidence that 
prisoners often are treated brutally. Chen, who said he was sentenced 
in 1989 for helping to lead a student democracy movement in the 
southern province of Guangdong, said he spent 2 years in one facility 
where prisoners were forced to carry heavy stones for 8 hours to load 
on ships. ``Then, until midnight, we made artificial flowers; sometimes 
we had to work through the night,'' he said. ``If you collapsed before 
you finished the quota, you were heavily beaten.''
    Columbia's Seymour said some of the prisons he researched for his 
book were ``totally inhumane,'' while in others, ``conditions were much 
better.'' Prisoners generally received some paltry wage, he said.
    But repugnant as conditions in Chinese prisons might seem to many 
Americans, Georgetown's Feinerman said, they are based on a decision by 
the Chinese authorities ``to make offenders pay a harsh penalty, on the 
theory that it scares people so they won't come back into the prison 
system. You can argue that it works. They have very low rates of 
recidivism. Who are we to argue with their choices?''
                                 ______
                                 

Prepared Statement of Robert M. Hathaway, Director of the Asia Program 
        at the Woodrow Wilson International Center for Scholars

     Human Rights in China: What Can We Do? What Should We Expect?

                            february 7, 2002
    President Bush departs for Beijing later this month for discussions 
with Chinese leader Jiang Zemin. Heading the president's agenda will be 
the war against international terrorism. Looking beyond our current 
preoccupation with terrorism, however, President Bush will also seek to 
solidify the recent progress that has brought a new stability to U.S.-
China relations, after a rocky period in the early months of his 
presidency.
    The Bush administration has been notably silent since September 11 
on China's human rights behavior, and the White House has given no 
indication that human rights issues will figure prominently in Bush's 
Beijing talking points. But it would be a grave mistake for the 
president to allow the Chinese to conclude that human rights have 
slipped off the U.S. agenda. At the same time, Bush must also keep in 
mind that there is an important difference between publicly haranguing 
China on human rights, which will play well in many American circles, 
and acting as an effective advocate for better human rights practices 
in China.
    Beijing's sorry human rights record continues to offend us. Last 
year's State Department human rights report concluded that in some 
respects, human rights conditions in China are getting worse, not 
better. Just last week a Chinese court sentenced a Hong Kong citizen to 
2 years in prison for bringing annotated Bibles into China for use by a 
banned evangelical Christian group, even though the Bible is legally 
available in China. Remarkably, the jailed man's friends expressed 
relief that the sentence was not even harsher.
    Reports about a renewed crackdown on Christians and other religious 
minorities in China follow a long string of Chinese activities that 
most Americans deem deplorable. Those Chinese courageous enough to 
challenge the official line do so only at great personal risk. National 
minorities in Buddhist Tibet and Moslem Xinjiang face persecution, 
imprisonment, and even death. Political as well as criminal 
considerations appear behind the extraordinarily high number of 
executions carried out in China each year. The rule of law has yet to 
supplant the cynical use of rule by law, under which Chinese 
authorities exploit the power of the State to crush those who challenge 
the right of the Chinese Communist Party to exercise a monopoly on 
political power.
    Few Americans would deny that China's human rights behavior leaves 
much to be desired. Few would challenge the proposition that the United 
States and the rest of the international community have the right and 
the responsibility to inquire into China's human rights practices and 
Beijing's commitment to the rule of law. China's recent accession to 
the World Trade Organization is likely to bring these issues even more 
to the forefront.
    Of special concern at the moment is the danger that China will try 
to hijack our new interest in working with Beijing in the global war 
against terrorism to promote its own internal security agenda. We must 
be on our guard lest China manipulate us into supporting, under the 
guise of counterterrorism, repressive measures against the 7.2 million 
Moslem Uighurs in China's western province of Xinjiang, who seek 
greater autonomy from Beijing, and whom China has tried to link with 
Osama bin Laden and his al Qaeda zealots. The overwhelming majority of 
Uighurs have no connection whatsoever with bin Laden's murderous 
intrigues--indeed, Chinese scholars estimate that the number of Uighurs 
linked to al Qaeda is no more than a few dozen. We must take care that 
in our understandable desire to destroy bin Laden and his organization, 
we not inadvertently provide support or political legitimacy for 
repression in Xinjiang.
    The U.S.-China relationship is likely to be our most difficult 
bilateral relationship for the foreseeable future. It will not be a 
close or cordial relationship, for we have too many differences on 
issues of fundamental importance, including human rights. But neither 
are we destined or preordained to being adversaries, let alone enemies. 
To the contrary, both countries share an interest in finding ways to 
surmount our very substantial disagreements. The task for the 
leadership of the two nations is to devise methods of working together 
when our interests and values permit, while containing the very real 
and serious differences that will inevitably arise between us so that 
they do not sour the entire relationship.
    As the U.S. Congress, the Bush administration, and the American 
people seek to manage what will surely be a trying relationship for 
many years to come, it may be useful to keep a few general propositions 
in mind.

    <bullet>  First, Americans should employ a strategic vision as they 
look at U.S.-China relations. This relationship is a complex, 
multifaceted, and in many ways contradictory relationship. All too many 
of us make little effort to view it in a comprehensive way, to consider 
the totality of our relations with Beijing.
    Many Americans tend to think about this relationship in terms of a 
single issue. For some it is human rights, for others trade or Taiwan, 
for still others abortion or Tibet or religious freedom. These are all 
important issues. They deserve to be part of the overall equation. But 
not any one of them is so important that it should be permitted to 
dominate or drive the entire bilateral relationship. Should we succumb 
to this temptation, not only will we jeopardize our ability to achieve 
other crucial American objectives, but we will also decrease the 
likelihood of succeeding even in the area of most concern to us.
    Rather than allow single-issue politics to determine the future of 
this relationship, we must instead ask what is the range of American 
interests at stake here, and how can we best advance the totality of 
those interests.
    <bullet>  Second, exercising strategic vision also means 
establishing priorities. At the moment the Bush administration sees 
China through the lens of the war against terrorism, and other 
important issues, including human rights, have been relegated to the 
back burner. At other times, nonproliferation or trade or Taiwan-
related concerns have governed U.S. management of Sino-American 
relations.
    In truth, we have numerous items on our China agenda, and efforts 
to achieve our objectives in one area may impede our ability to realize 
other goals. So we need to ask--to give one example--how a decision to 
sell arms to Taiwan could affect our efforts to block North Korea's 
nuclear weapons program, or our ability to promote better human rights 
conditions in China. Strategic vision, in other words, requires us to 
balance competing policy objectives in such a manner as to maximize the 
prospects of promoting our most vital interests.
    <bullet>  Third, we need a much more historical perspective as we 
think about relations with China. Much of the current debate about 
China in Washington and across the United States is strikingly 
ahistorical. It reflects little sense of change over time, little 
recognition of how far--in some respects--China has traveled in recent 
decades. It rarely attempts to measure China by anything other than 
American standards.
    Take the bombing of the Chinese embassy in Belgrade a few years 
ago. Most Americans instinctively assumed this was the unfortunate 
result of official error or incompetence. Most of us found ludicrous 
the idea that the bombing of the embassy might have been deliberate.
    The Chinese, on the other hand, view this incident in the context 
of 150 years of foreign bullying, and of what they see as a stubborn 
Western refusal to grant China the respect its achievements have earned 
it. Moreover, they place the attack on the embassy in a spectrum of 
U.S. actions in recent years that seem to them manifestations of 
American arrogance and hostility--including the current war in 
Afghanistan, the use of American airpower against Iraq and Serbia, 
Washington's lack of interest in certain international agreements and 
multinational institutions, the Bush administration's pursuit of 
ballistic missile defenses, and U.S. military alliances in East Asia.
    Or take the case of Taiwan. Here again the historical experiences 
of our two countries lead to very different judgments about current 
U.S. policy. To most Americans Taiwan offers a stirring example of a 
people sloughing off an autocratic government to create a vibrant 
democracy and prosperous economy. Their very different historical 
memories encourage the majority of Chinese, however, to see Taiwan in 
terms of Chinese territorial integrity, national sovereignty, and 
national pride, and of a history of being denied China's legitimate 
rights and its rightful place in the world.
    So it is with the issue of human rights. Whereas most Americans 
believe that there is a universal standard of rights and 
responsibilities that should govern the conduct of individuals and 
their governments, this is a peculiarly Western, if not American, 
notion. And even when there is general agreement on the appropriateness 
of a human rights focus, we will not always agree on how to define that 
concept. Many peoples, and not just the Chinese, tend to place a higher 
premium on the right to food, clothing, and shelter, even if in doing 
so they subordinate the political and legal rights most Americans tend 
to emphasize when they talk about human rights.
    This is not to suggest that a greater understanding of the Chinese 
perspective will lead us to agree with Beijing, or to abandon our 
commitment to act as a human rights champion. But without such an 
understanding, we have little hope of fashioning policies toward China 
that offer much chance of success in advancing our human rights agenda.
    <bullet>  Fourth, we must pay more attention than we customarily do 
to the constraining influence of China's domestic politics.
    Americans talk in considerable detail of differences between the 
Pentagon and the State Department, or Congress and the White House, and 
accept these differences as both routine and inevitable. Less well 
understood is the fact that the Chinese government is similarly 
divided, with a variety of viewpoints, bureaucratic interests, threat 
perceptions, and policy preferences.
    True, China is an authoritarian State where one party controls 
virtually all the formal levers of power. But Chinese president Jiang 
Zemin does not wield the unchallenged power exercised in an earlier day 
by Mao Zedong or Deng Xiaoping. Bargaining and negotiation among 
powerful individuals, interests, and bureaucracies, not dictation, is 
the norm. If China's domestic politics are not as transparent as ours, 
they are every bit as lively.
    American policy is unlikely to succeed without domestic political 
support and popular backing. Might not a version of this political fact 
of life apply for China as well, even conceding the very different 
nature of the two political systems?
    China, moreover, is heading into an extended period of political 
flux, as the current leadership prepares to make way for a new 
generation. While it appears that Jiang's successor has already been 
designated, Beijing is likely to experience considerable behind-the-
scenes jockeying over the next several years as various contenders for 
other senior positions jostle for power and influence.
    What does this suggest about China's probable policies over the 
next year or two? We are likely to see a cautious rather than an 
adventurous China--a China adverse to risk-taking or bold initiatives, 
which may impede resolution of long-standing disputes with the United 
States over Taiwan, proliferation, and yes, human rights.
    We are likely to encounter a prickly, nationalistic China that will 
take offense at perceived slights or signs of foreign, especially 
American, dictation or bullying. Nationalism is on the rise in China 
today--in part because the regime, having lost its ideological 
moorings, has deliberately beat the nationalism drum in order to 
sustain popular support. Feelings of a fierce nationalism will place 
constraints on even an autocratic government. Officials well-disposed 
toward the United States will find reason to be firm in the face of 
perceived U.S. pressure.
    And last, we are likely to see a China unenthusiastic about pushing 
political reform, permitting public discussion of sensitive issues, 
lifting government controls over the activities of dissidents, or 
taking other steps that could threaten political turmoil or social 
instability.
    What does this mean for American policy? In the first place, we 
should keep in mind how little we know about China's internal political 
line-up. We don't even have a good read on what policies Hu Jintao, 
Jiang's probable successor, is likely to follow, even though Hu has 
been the heir apparent for the better part of a decade. Lacking a 
sophisticated understanding of what political currents lie beneath the 
surface, we should be modest in our expectations about influencing 
those currents.
    Second, we should be careful not to provoke the very behavior we 
seek to discourage by appearing overbearing or insensitive to Chinese 
pride and historical sensibilities. Certainly we should push China on 
human rights issues, but we should do so in a way that avoids setting 
off a nationalistic backlash.
    Third, in thinking about China, Americans must learn patience. This 
is foreign to the American character; we want to see everything done 
yesterday. But that is not the way things work in the real world. 
Certainly it is not the way things happen in China--or in the United 
States, for that matter.
    If one views human rights conditions in China today as a snapshot, 
a static picture, things look bleak indeed. None of us would willingly 
trade places with the Chinese people. But in truth, things are far 
better, in almost every area of daily life, for the overwhelming 
majority of Chinese than they were twenty-five years ago. There have 
been massive changes, and for the better, since Mao's death and the end 
of the Cultural Revolution. Human rights in China have a long way to 
go, but for those Chinese old enough to remember Mao, the improvements 
have been dramatic.
    Finally, we must ensure that the Chinese understand that for 
Americans, human rights are not simply a convenient club with which to 
beat China. Rather, U.S. advocacy of human rights reflects the deeply 
held values of the American people. China makes a serious mistake if it 
discounts American complaints about its human rights practices, or if 
it concludes it can build a satisfactory relationship with the United 
States without taking American human rights concerns into account.
    President Bush faces a formidable task as he journeys to Beijing 
later this month. He must impress upon his Chinese hosts the centrality 
of the human rights issue for the successful management of U.S.-China 
relations, while simultaneously not allowing our fundamental 
differences with China on human rights to impede progress on other 
important political, security, and economic issues.
    In seeking to reconcile these competing goals, consistency, 
patience, and a trace of humility regarding our own shortcomings and 
failures might ultimately have a better chance of edging China toward 
responsible human rights behavior than a more in-your-face approach.
    We must never hesitate to stand up for American values. But we 
should be realistic as to what we can reasonably expect from Beijing--
and what China's political system will bear.

    Robert M. Hathaway is director of the Asia Program at the Woodrow 
Wilson International Center for Scholars. He previously covered Asia 
for 12 years as a member of the staff of the House International 
Relations Committee. The opinions expressed here are the author's 
alone, and do not represent views or policies of the Wilson Center.
                                 ______
                                 

  Prepared Statement of Stanley Lubman, Visiting Scholar, Center for 
   Lawand Society and Lecturer of Law, School of Law, University of 
                         California (Berkeley)

                            february 7, 2002
    I welcome the opportunity to submit this statement to the 
Commission. I have been specializing on Chinese law and related matters 
since 1963 as a scholar of Chinese law teaching at universities in the 
United States (Stanford, Columbia and Harvard, in addition to Berkeley) 
and Europe (the Universities of London and Heidelberg) and 
simultaneously, since 1972, as a practicing lawyer representing foreign 
clients in China. For twenty years I headed the China practice at two 
American law firms (1977-1993) and an English firm of solicitors (1993-
1997). A third and growing dimension of my involvement with Chinese law 
has been work on projects related to law reform. During the 1980's I 
participated in the activities of the Committee on Legal Educational 
Exchange with China, funded by the Ford and Luce Foundations and USIA, 
which brought Chinese law teachers to the United States for study and 
research; since 1998 I have participated in law reform projects in 
China under the auspices of the Asia Foundation, where I am advisor on 
China legal projects.
                                summary
    Twenty years of reforms have led to remarkable transformations in 
China's society and economy, and have also driven an extensive program 
of legal reform. The Chinese leadership, desiring to accelerate 
economic reform, has recently agreed to strengthen legal institutions 
in order to comply with obligations that China has assumed upon 
accession to the WTO. Sustained effort over a period of years will be 
needed for China to be able to meet its WTO commitments regarding 
trade-related laws.
    Wider legal reform, extending beyond trade-related matters, is also 
contemplated, but faces considerable difficulties. Efforts must be made 
from the top down, although official policy and many officials have 
less than a firm commitment to the rule of law; efforts are required 
from the bottom up, although Chinese civil society is weak and 
undeveloped. For protection of human rights to expand, the leadership 
must energetically support legal development, and legal culture among 
officials and the general populace must change. Broadened political 
participation, too, could deepen the extent to which legal institutions 
can protect human rights in China.
    The policy of the United States should simultaneously aim at a 
number of goals:
    The U.S. should energetically promote legal reform, including the 
establishment and strengthening of institutions that will buttress the 
protection of rights by Chinese. Congress should advance beyond the 
small commitment it has hitherto made to funding U.S. assistance to 
Chinese law reform, and support well-planned efforts by foundations, 
NGO's and universities. At the same time, Americans should not assume 
that Chinese institutions must be judged by the extent to which they 
resemble our own.
    The U.S. should condemn human rights abuses by bilateral diplomatic 
means and in international forums. At the same time, American criticism 
and insistence on change in Chinese institutions should be tempered by 
recognition of the limits on U.S. ability to change internal Chinese 
conditions.
    American perspectives on China should not focus on single issues or 
clusters of issues. Balance is necessary among human rights and other 
issues in Sino-American relations that are significant to U.S. national 
security. Critics of human rights abuses should avoid demonizing China 
and thereby complicating the shaping of policy on other questions.
                    chinese legal reform since 1979
Accomplishments
    Reform has brought a fundamental new orientation toward governing 
China, in which formal legislation has become the major framework for 
the organization and operation of the Chinese government. To implement 
economic reforms, since 1979 China has generated an extraordinary 
volume of legislation. Illustratively, legislation has been used to 
frame commercial activity; to express policies of State macroeconomic 
control and their implementation; to give legal recognition to new 
rights and interests; and to create a framework for direct foreign 
investment.
    China has acceded to an extensive range of treaties and 
international agreements that signal its participation in a global 
economic community; legislation has been used for a host of purposes 
related to building the necessary infrastructure for a marketizing 
economy, as in regulating basic industries, setting standards for 
environmental protection, and sanctioning violations of intellectual 
property rights. Institutions intended to curb administrative 
arbitrariness have been created, and codes of criminal law and 
procedure have been promulgated and revised.
    The courts have been reconstructed. Formerly scorned as 
``rightist'' institutions at the end of the 1950's and as ``bourgeois'' 
during the Cultural Revolution, they have been rebuilt in a four-level 
hierarchy.
    Courts are increasingly being used as the forums in which rights 
created by legislation are asserted by citizens against each other and, 
to some extent, against State agencies. The bar, too, has been 
established; there are probably now over 150,000 lawyers. Although most 
of the 8,000 law firms are state-run, the number of ``cooperative'' 
firms is growing.
Obstacles
            Ambivalence in leadership policies on the rule of law
    Chinese policy toward the rule of law reflects an ambivalence that 
is sharply illustrated by President Jiang Zemins statement in February, 
1996, when he stated Let China be ruled by law, a phrase that was given 
extensive publicity throughout China. Unfortunately, that was not the 
entire sentence: In the next phrase, Jiang exhorted all to maintain the 
long-term stability of the nation, that is, preserve the leading role 
of the Chinese Communist Party (CCP) over Chinese society.
    Just as symbolically, in 1999 China's National Peoples Congress 
amended the Chinese Constitution to insert the rule of law into that 
document as a leading principle for the first time. It co-exists there, 
however, with Marxism-Leninism, Mao Zedong Thought and Deng Xiaoping 
Theory, all doctrines that insist on CCP dominance.
            The persistence of pre-reform institutions of the Party-
                    state; ineffective implementation
    In some areas, the authoritarianism of the Party-state continues.
    Chinese criminal law and criminal procedure remain heavily 
dominated by the police and by Party influence over individual cases; 
recurrent campaigns to punish crime distort the operation of the 
criminal process. Police still have the power to send alleged offenders 
against certain laws to labor reeducation camps for as long as 3 years.
    Both within and outside the criminal area, much legislation has 
only been hesitantly and incompletely implemented.
            Deficiencies in the judicial system
    The operation of the courts is seriously deficient. The judiciary 
is inadequately professionalized: Only some 10 percent of all judges 
have a complete 4-year legal education; many judges have previously 
served in the army or in other jobs that did not qualify them for their 
current tasks. Corruption is widespread. Moreover, the extensive 
decentralization of power that has taken place since 1979 has led to 
the phenomenon that Chinese call local protectionism. Because local 
judges are appointed and the courts are financed by local governments, 
when deciding disputes the courts often favor local enterprises on 
which the local governments depend for their revenues. In addition, the 
courts are frequently criticized for their unwillingness to enforce 
judgments rendered by courts elsewhere in China against local 
defendants.
    The difficulty of enforcing judgments has surfaced not only in 
disputes among Chinese parties, but in attempts by foreign parties that 
have obtained awards from foreign arbitration tribunals or from the 
China International Economic and Trade Arbitration Commission (CIETAC). 
In one case of which I have extensive personal knowledge, the Zidell 
Valve Corporation of Houston, Texas obtained CIETAC awards against two 
separate Chinese defendants that were found to have sold millions of 
dollars of flanges to Zidell that did not meet contract specifications. 
When the Chinese parties refused to pay the amounts awarded, Zidell 
brought timely suit in the appropriate courts in Beijing and Taiyuan. 
The courts violated Chinese law by raising issues that had been 
definitively disposed of by the arbitral tribunals; by failing to 
report the cases to the Supreme Peoples Court; and by misapplying 
Chinese law to decide in the defendants favor a spurious claim that the 
proper legal representative of the plaintiff had not authorized the 
suit. The courts, including the Supreme Peoples Court, to whose 
attention this case has been called, remain unresponsive to protests 
against the blatant obstruction to the plaintiffs attempt to exercise 
its rights to enforce Chinese arbitral awards. This case is not unique, 
and the courts plain violations of law and procedure suggest the 
persistence of ongoing problems in the functioning of the courts.
    Although central government leaders have endorsed proposals to 
reform the courts in order to remove or lessen the impact of local 
protectionism on their work, judicial reform has not yet been 
decisively advanced. It may be desirable for the central government to 
finance the judicial system, but there is considerable question whether 
it has the necessary financial resources.
          recent chinese commitments to deepen the rule of law
    China's accession to the WTO has brought China's leaders to realize 
the need to deepen of law reform with regard to trade-related and 
certain other laws. They seem willing, too, to engage in wider legal 
reform, but some obstacles will impede the further strengthening of 
institutions.
Uniformity of compliance with WTO obligations
    Chinese commitments in the Protocol of Accession include an 
undertaking to ensure that local government regulations would conform 
to China's WTO obligations. Some impetus will be given to uniform 
administration by implementation of the Chinese undertaking to 
establish a mechanism under which individuals and enterprises can bring 
to the attention of the national authorities cases of non-uniform 
application of the trade regime, (Protocol of Accession, Art. 2 (A) 4) 
but it may be difficult to bring about effective national action to 
modify or annul local deviations from WTO standards. Nationwide 
uniformity may be a distant goal, and
Transparency
    The Chinese government has undertaken not to enforce unpublished 
laws, formerly common. It has also promised that China shall make 
available .  .  . upon request, all laws, regulations and other 
measures pertaining to or affecting trade .  .  . before such measures 
are implemented or enforced. (Protocol of Accession 2 (C)1) Compliance 
with this provision will require legislatures and administrative 
agencies to make public, before they become effective, a much wider 
range of rules and regulations than they have before. The term rules 
and regulations is used here generically to cover both laws promulgated 
by central and local governments and various forms of rules issued by 
administrative agencies; in practice, the terminology is more complex 
and the relationship of various norms to each other is very disorderly.
    Attempts are under way to put greater order into the system, and 
the formulation of legislation is being transformed from the passive 
translation of policy into a specialized professional activity.
    Compliance with the undertaking quoted above also would import a 
high degree of transparency into law-making and rulemaking processes 
that have been impenetrable to outside gaze for decades. China has 
never required a consultation phase in these processes, and is just 
beginning to experiment in this area. The Legislation Law adopted in 
1999 provides generally for legislative bodies and administrative 
agencies that are drafting legislation or rules to engage in 
consultations with concerned citizens or organizations. Similarly, the 
State Council has recently adopted regulations on the drafting process 
of its rules that provide for in-depth, on-the-spot investigations and 
studies of the main issues in the draft regulations; when the vital 
interests of citizens, corporations, or other organizations are 
involved, hearings may be held. A similar provision is included in 
regulations on the drafting of rules by State Council agencies.
    These provisions reflect the Chinese leaderships willingness to 
begin to consider ways of channeling inputs from Chinese society.
    Preliminary reports suggest, however, that some experimental 
hearings have involved only carefully chosen participants. Considerable 
time will have to elapse for experimentation with these new procedures 
to unfold--and for officials to change their mentalities so that that 
they will accept comment on proposed rules from outside the drafting 
bodies.
Judicial review of administrative acts
    One of China's most ambitious undertakings upon accession to the 
WTO is its commitment to institute judicial review of administrative 
actions:
    China shall establish or designate and maintain tribunals contact 
points and procedures for the prompt review of all disputes relating to 
the implementation of laws, regulations judicial decisions and 
administrative rulings of general application . . . Such tribunals 
shall be impartial and independent of the agencies entrusted with 
administrative enforcement (Protocol of Accession 2(D)1).
    It is unclear whether the main tasks of scrutiny of administrative 
decisionmaking will be performed by courts. If so, apart from the 
weaknesses that have been mentioned above--low professionalization, 
local protectionism and corruption--there are others as well, because 
the powers of the courts are limited.
    The Administrative Litigation Law that became effective in 1990 
permits affected parties to sue administrative agencies in the courts 
for alleged illegal application of an administrative rule, and some 
litigation has ensued. A more recent administrative punishment law 
places limits on which organs have power to create different types of 
punishments; specifies mandatory procedures for imposing different 
types of punishment; requires that decisions to impose punishments must 
state the reasons therefor and requires agencies to comply with 
procedures set out in law.
    Courts may only review the legality, not the reasonableness of the 
acts complained of. However, Chinese regulations are intentionally 
drafted in vague language to give maximum discretionary authority to 
agencies, and as a result it may be difficult to establish that a 
regulation was actually violated. As long as an administrative action 
is technically consistent with the rule it applies, the act may not be 
challenged in the courts. The courts are at the same level in each 
locality as other administrative agencies; in the past, in interpreting 
administrative regulations, the courts have usually deferred to the 
agencies own interpretations of their rules. If a court finds a rule to 
be inconsistent with a higher-level regulation it may not invalidate 
it; although it may refuse to apply it, such non-application hardly 
ever occurs.
    The courts also lack the power to decide on the inherent validity 
of administrative rules, regulations, decisions or orders of universal 
application. Under the Chinese Constitution and legislation doctrine, 
legislatures are superior to the courts in power; only they may 
invalidate legislation and administrative rules, while courts may not.
    The Legislation Law of 1999 provides for only limited challenge to 
national or local legislation or administrative rules, by written 
request to the Standing Committee of the National Peoples Congress.
    Governmental organizations--but not citizens--may challenge State 
Council regulations by written statement to the State Council itself; 
anyone may address challenges of department rules to the State Council; 
and anyone may the administrative enactments of large cities.
    Administrative law reform is under way. For example, the State 
Council is drafting a law on licensing intended to address the need to 
define--and limit--the powers of local governments and agencies to 
issue rules for granting, suspending or modifying licenses, including 
procedures to give affected parties ample opportunity to present their 
views, in some cases in the context of a public hearing. Work is 
actively going forward on drafting a statute that is intended by the 
Legislative Affairs Commission of the NPC to be an administrative 
procedure act for China. A crucial unresolved issue is whether the 
powers of the courts can be increased to bear the burden that such a 
law would place on them.
The requirement of uniform, impartial and reasonable administration of 
        law
    China's commitment to standards in the GATT derived from the rule 
of law is further stated in its acceptance of a key provision in the 
Protocol of Accession (Art. 2 (A) 3):
    China shall administer in a uniform, impartial and reasonable 
manner all its laws, regulations, rules, decrees, directives, 
administrative guidance, policies and other measurespertaining to or 
affecting trade in goods, services, trade-related aspects of 
intellectual property rights or the control of foreign exchange.
    The major obstacles that lie in the path of implementation of this 
provision should be clear: The links between the courts and 
administrative agencies and the defects in the courts that have already 
been noted here, as well as local protectionism and corruption, all 
seriously dilute the State capacity of PRC institutions to meet this 
general standard.

                              HUMAN RIGHTS

    The foregoing review of some salient characteristics of Chinese 
legal institutions provides a context for considering the system from 
the perspective of human rights. A sober review of accomplishments to 
date suggests that the a legal system in China is still a work in the 
making, and that realization of even trade-related legal reforms will 
require considerable time and effort. This is all the more true with 
regard to human rights.
    I believe that the protection of human rights can expand as certain 
legal institutions are strengthened. Expansion of the nascent legal aid 
scheme, judicial reform and reform of administrative law and procedure 
would all bring obvious benefit. Progress will depend, among other 
things, on the pace of economic reform and the stability of the current 
regime or whatever post-Communist regime might succeed it. Moreover, it 
is wise to be cautious about the extent to which economic development 
can generate legal and political reform. It is a necessary condition 
for such reform, but it hardly makes such reform inevitable. Critical, 
too, will be the extent to which institutions of Chinese civil society 
can grow and seek to improve protections for human rights.
    Americans should also keep in mind that whatever form legal 
institutions and rights-based protections might take in the future, 
they are likely to vary from our institutions and from the ideals that 
we often project onto China. The legal traditions of the two nations 
are very different, and transition away from totalitarianism is rife 
with uncertainties.
    I emphasize here the importance of legal culture, by which I mean 
nothing more than the attitudes toward law of both officials and the 
general populace. The Chinese legal tradition did not know any doctrine 
of individual rights, and ill-fated Republican rule did little to plant 
the seeds of rights-based doctrine. After the PRC was established in 
1949, it did not advance any notions of individual rights. The 
protection of legal rights, much less human rights, is a new transplant 
brought to inhospitable Chinese soil. Regardless of any foreign 
assistance or pressure, much work must be done by even the most willing 
government to nourish that frail transplant in China. This is not to 
say that conceptions of human rights cannot grow in China. Quite the 
opposite; after almost thirty years of traveling and working there, I 
am sure that many Chinese understand very well that the rule of law is 
a desirable alternative to governmental arbitrariness and lack of 
protection for individual rights.
    The task of strengthening rights-based doctrine is all the more 
difficult because of a crisis in values that is likely to continue for 
years. Economic reforms have weakened traditional ideas of morality, 
already bruised by Communist rule, and faith in socialism and in the 
rule of the CCP. No system of values have taken their place. Social 
cohesion is threatened by social inequalities that have been created 
and aggravated by economic reforms; moreover, foreign access to Chinese 
markets will increase economic distress further in some sectors of the 
economy and foster the social instability that the Chinese leadership 
seeks to avoid.
    In the face of the enormous social flux in the worlds most populous 
nation, Americans, policymakers and otherwise, have no choice but to be 
modest about what the United States can do to influence internal 
conditions in China. Such restraint should be complemented by 
emphasizing Chinese conduct that affects U.S. national security, and 
which should therefore assume first priority in diplomacy.
    Nonproliferation, the status of Taiwan, the future of the Korean 
peninsula, Chinese participation in the war against terrorism, Chinese 
diplomacy in South Asia and missile defense are only the most obvious 
issues.
    Those Members of Congress most concerned about human rights abuses 
might reconsider the approach that has allied them with other members 
who regard China as a future enemy and who disdain engagement. 
Demonizing China will not contribute to enhancing institutions that can 
protect human rights, while engagement in legal reform projects could 
possibly have constructive effects that would be welcomed by many 
Chinese and by foreign observers.

                AMERICAN SUPPORT FOR LAW REFORM IN CHINA

    Congress should seriously consider funding meaningful and well-
planned projects for the building of Chinese legal institutions. For 
all the vocal insistence from Congress on improving Chinese legality, 
Congress has been reluctant to appropriate funds to support such 
institution-building. Presidents Clinton and Jiang agreed on a program 
of legal cooperation in October 1997, but Congress provided no 
financial support for it. Since then, fortunately, Congressional has 
expressed willingness to support rule of law programs.
    NGO's and academic institutions can contribute to law reform 
efforts.
    Recent experience of the Asia Foundation is an example. The 
Foundation decided in 1998 to promote administrative law reform, and 
obtained support from the Smith Richardson Foundation for a 3-year 
program of Sino-American consultation. As director of the project, I 
formed a committee of leading American experts on administrative law 
and on Chinese law. Our Chinese counterparts are members of the 
administrative law drafting group of the Legislative Affairs Commission 
of the National Peoples Congress. Our committee reviewed and commented 
on a draft law on licensing (1999); sent specialists to lecture on 
administrative law (2000); and organized a conference on the impact of 
the WTO on Chinese administrative law (2001). We now hope to help the 
same group in its work of drafting an administrative procedure law.
    With China's accession to the WTO, Chinese interest in foreign 
training and consultation on important areas of law has grown. The Asia 
Foundation is now financing a program for training officials of the 
Legislative Affairs Office (LAO) of the State Council on the 
requirements that WTO accession now imposes on China. The local offices 
of the LAO will be responsible for reviewing proposed local laws and 
regulations for compliance with WTO standards. In March, 2002 a group 
of American WTO experts will lecture in Beijing; thereafter, Chinese 
officials will visit the U.S. to learn about U.S. administrative law; 
in a third stage, after returning home, Chinese officials will meet 
U.S. counterparts to discuss practical problems of making new Chinese 
laws and administrative rules consistent with WTO requirements. The 
Asia Foundation experience summarized here illustrates the contribution 
to incremental progress that can be made by NGO's, foundations and 
universities.
    Congress ought to support other programs that combine expertise on 
specific areas of the law with familiarity with Chinese circumstances; 
that promise to have significant effects; that involve sustained 
interaction between Chinese and American personnel; and that emphasize 
repeated contacts with the same counterparts over time rather than one-
time trips or delegations in either direction.

                               CONCLUSION

    I have presented a mixed view of Chinese legal reform during the 
last two decades, and have outlined current uncertainties without 
predicting a likely outcome. It seems clear, though, that U.S. refusal 
to assist legal development will contribute nothing positive to the 
prospects for the growth of the rule of law in China or, even more 
remotely, to the further dilution of authoritarianism. Although the 
eventual outcome is in doubt, China's accession to the WTO may mark a 
new stage in its legal development. The United States ought now bring 
its influence and assistance to bear on furthering that legal 
development.
                                 ______
                                 

        Questions for the Record Submitted by Senator Bob Smith

    Last month, Assistant U.S. Trade Representative Joseph Papovich 
stated that China is not doing enough to curb intellectual property 
rights. Furthermore, Papovich hinted at the unlikelihood of using the 
WTO dispute resolution system to remedy these unacceptable and illegal 
acts. The United States has been trying to work with China on the 
enforcement of this issue for several years to no avail. Now, China has 
ascended to the WTO. Professor Feinerman, can you give me your 
assessment of China's ability to fulfill their obligations under WTO 
regulations, pertaining to violations of U.S. intellectual property 
thefts?
    I have been one of the Senate's most outspoken critics of China's 
deplorable human rights abuses, especially concerning the repression of 
Christians and other religious groups who do not choose to worship in 
the ``official'' PRC State churches. In December of 2000, I was deeply 
disturbed at the PRC sanctioned razing of churches and other places of 
worship along the eastern coast. In fact, I wrote a rather forthright 
letter to former Secretary of State Albright concerning this issue, to 
which I never received a reply from the Clinton State Department. I 
would like all the witnesses to give me their opinions on where do they 
see religious rights in the PRC moving in the future, given the fact 
that PNTR and membership to the WTO in theory was to curb Beijing's 
crackdown and even loosen restrictions and allow for more religious 
freedom.
    In your opinion, is it plausible for China to remain a stridently 
ideologically communist driven state, keeping with its brutal 
repression and policies, while still being able to reap economic 
profits and higher living standards for the Chinese people? I would 
request all witnesses to respond.
                                 ______
                                 

   Responses of Mike Jendrzejczyk to Questions From Senator Bob Smith

    Question 2. I have been one of the Senate's most outspoken critics 
of China's deplorable human rights abuses, especially concerning the 
repression of Christians and other religious groups who do not choose 
to worship in the ``official'' PRC state churches. In December of 2000, 
I was deeply disturbed at the PRC sanctioned razing of churches and 
other places of worship along the eastern coast. In fact, I wrote a 
rather forthright letter to former Secretary of State Albright 
concerning this issue, to which I never received a reply from the 
Clinton State Department. I would like all the witnesses to give me 
their opinions on where do they see religious rights in the PRC moving 
in the future, given the fact that PNTR and membership to the WTO in 
theory was to curb Beijing's crackdown and even loosen restrictions and 
allow for more religious freedom.
    Answer 2. The State Department's annual human rights country 
report, just issued for 2001, mentions the razing of churches in 
December 2000. It also notes that unofficial religious groups in China 
last year suffered ``official interference, harassment and 
repression.'' This analysis tracks closely with that of Human Rights 
Watch, as we described in some detail in our written testimony to the 
Commission on February 7. I expect that future Chinese government 
policy on religious activities will be much the same, i.e. in some 
areas there is a level of toleration, and in others, strict 
implementation of PRC laws and regulations aimed at managing and 
controlling religious expression. Official policy on religion does not 
seem to be affected, one way or another, by China's entry into the 
World Trade Organization or its PNTR trading status with the US.
    Question 3. In your opinion, is it plausible for China to remain a 
stridently ideologically communist driven state, keeping with its 
brutal repression and policies, while still being able to reap economic 
profits and higher living standards for the Chinese people? I would 
request all witnesses to respond.
    Answer 3. Clearly, the Chinese Communist Party hopes to derive some 
measure of domestic legitimacy, if not popular support, by providing 
economic benefits to many of the Chinese people. However, it's not 
clear whether the government can indefinitely maintain its economic 
reform program--and even accelerate the reforms--without at some point 
having to tackle the more difficult question of political reform and 
the monopoly of the Party on State power. Pressure is growing 
internally for a less corrupt, and more open and accountable system.
    I think that pressure is likely to grow over time.
                                 ______
                                 

 Responses of William P. Alford to Questions Submitted by Senator Bob 
                                 Smith

    Question 1. Last month, Assistant U.S. Trade Representative Joseph 
Papovich stated that China is not doing enough to curb intellectual 
property rights. Furthermore, Papovich hinted at the unlikelihood of 
using the WTO dispute resolution system to remedy these unacceptable 
and illegal acts. The United States has been trying to work with China 
on the enforcement of this issue for several years to no avail. Now, 
China has ascended to the WTO. Professor Feinerman, can you give me 
your assessment of China's ability to fulfill their obligations under 
WTO regulations, pertaining to violations of U.S. intellectual property 
thefts?
    Answer 1. At the risk of undue self-promotion, I would like to 
direct the Senator's attention to my book on this subject which is 
entitled ``To Steal a Book is an Elegant Offense: Intellectual Property 
Law in Chinese Civilization'' (Stanford University Press). Although the 
book was published in 1995, I think that its basic argument about the 
factors impeding the development of greater respect for intellectual 
property rights still holds. The Senator may find my discussion of the 
links between enhanced respect for fundamental rights and for 
intellectual property rights of particular interest.
    Question 2. I have been one of the Senate's most outspoken critics 
of China's deplorable human rights abuses, especially concerning the 
repression of Christians and other religious groups who do not choose 
to worship in the ``official'' PRC State churches. In December of 2000, 
I was deeply disturbed at the PRC sanctioned razing of churches and 
other places of worship along the eastern coast. In fact, I wrote a 
rather forthright letter to former Secretary of State Albright 
concerning this issue, to which I never received a reply from the 
Clinton State Department. I would like all the witnesses to give me 
their opinions on where do they see religious rights in the PRC moving 
in the future, given the fact that PNTR and membership to the WTO in 
theory was to curb Beijing's crackdown and even loosen restrictions and 
allow for more religious freedom.
    Answer 2. I would certainly agree that the promotion of greater 
respect for religious freedom is a paramount concern. My own sense is 
that the forces drawing Chinese citizens in rapidly increasing numbers 
to religion--in particular, the quest for meaning at a time of major 
social dislocation--are so powerful that they can not be vanquished, 
even by the state. I think that for us the question is how to be most 
effective in lending support for this fundamental freedom. I think that 
it is incumbent on the American government and American citizens to 
continue to speak out on this issue and to make it known to Chinese 
authorities, publicly and privately, that the practices your question 
describes are unacceptable in this day and age.
    Question 3. In your opinion, is it plausible for China to remain a 
stridently ideologically communist driven state, keeping with its 
brutal repression and policies, while still being able to reap economic 
profits and higher living standards for the Chinese people? I would 
request all witnesses to respond.
    Answer 3. I would like to respond by suggesting modifications, if I 
might, to two key assumptions in the Senator's question. First, while 
it is certainly the case that the Communist Party remains immensely 
powerful, I think it is no longer as ideologically committed as the 
Senator's question implies, as we can see from the extent to which 
corruption has entered its ranks. Second, while the overall standard of 
living in China certainly has improved quite significantly over the 
past two decades, I think we need both to take statistics about 
economic growth with a healthy grain of salt and to recognize that the 
gap between rich and poor in China has grown at a very rapid rate in 
recent years. In short, the model the Senator is questioning is already 
encountering serious problems, even on its own terms.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
